<html>
<title> - EFFECTS OF WATER FLOWS ON APALACHICOLA BAY: SHORT AND LONG TERM PERSPECTIVES</title>
<body><pre>[Senate Hearing 113-750]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-750

    EFFECTS OF WATER FLOWS ON APALACHICOLA BAY: SHORT AND LONG TERM 
                              PERSPECTIVES

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 13, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              
                              
                              
                              

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-796 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
   
   
   
   
   
   
   
   
   
   
   
   
   
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 13, 2013..................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Rubio.......................................     3

                               Witnesses

Hon. Steve Southerland II, U.S. Representative, Second 
  Congressional District, Florida................................     6
    Letter dated May 13, 2013 to Hon. Bill Shuster and Hon. Nick 
      J. Rahall II from Members of Congress: Steve Southerland 
      II, Corrine Brown, John L. Mica, Debbie Wasserman Schultz, 
      Illeana Ros-Lehtinen, Gus M. Bilirakis, Vern Buchanan, 
      Dennis A. Ross, C. W. Bill Young, Ander Crenshaw, Jeff 
      Miller, Mario Diaz-Balart, Alcee L. Hastings and Thomas J. 
      Rooney.....................................................     8
    Prepared statement...........................................    10
Emily Menashes, Acting Director, Office of Sustainable Fisheries, 
  National Marine Fisheries Service, National Oceanographic And 
  Atmospheric Administration, U.S. Department of Commerce........    12
    Prepared statement...........................................    13
Colonel Jon J. Chytka, Commander, Mobile District, U.S. Army 
  Corps of Engineers, Department of the Army.....................    16
    Prepared statement...........................................    18
Jonathan P. Steverson, Executive Director, Northwest Florida 
  Water Management District......................................    21
    Prepared statement...........................................    23
Dan Tonsmeire, Executive Director and Riverkeeper, Apalachicola 
  Riverkeeper....................................................    36
    Prepared statement...........................................    37
Shannon Hartsfield, President, Franklin County Seafood Workers 
  Association, and Founding Member, SMARRT.......................    46
    Prepared statement...........................................    46
Ricky Banks, Vice President, Franklin County Seafood Workers 
  Association....................................................    48
Karl E. Havens, Director, Florida Sea Grant College Program, 
  Professor, School of Forest Resources And Conservation, 
  Institute of Food and Agricultural Sciences....................    49
    Prepared statement...........................................    51

                                Appendix

Comments submitted for the record................................    67
Response to written questions submitted by Hon. Marco Rubio to 
  Colonel Jon J. Chytka..........................................   161

 
                       EFFECTS OF WATER FLOWS ON
           APALACHICOLA BAY: SHORT AND LONG TERM PERSPECTIVES

                              ----------                              


                        TUESDAY, AUGUST 13, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                  Apalachicola, FL.
    The Committee met, pursuant to notice, at 11:06 a.m., in 
the Franklin County Courthouse Annex Building, 34 Forbes 
Street, Apalachicola, Florida, Hon. Bill Nelson, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. This hearing of the Senate Commerce 
Committee will come to order.
    We want to thank everybody for being here. And we have a 
number of elected officials here. We want to thank you for your 
presence. We want to thank Apalachicola and Franklin County for 
your hospitality.
    And we have been looking forward to this. Senator Rubio and 
I collaborate almost every day that we are in session in 
Washington. And one of the topics, of course, that we have 
frequently talked about is the plight of the folks here in the 
Apalachicola Bay area and the desperate need for that water to 
flow south on the Chattahoochee and the Flint Rivers that then 
comes into the Apalachicola.
    I want to thank Senator Rubio for first requesting this 
hearing today. The two of us have a very good personal and 
professional relationship, and it is an example of how 
bipartisanship ought to work between two Senators from one 
state. Sometimes you would be surprised at some of the Senators 
from the same state that don't necessarily get along. And, 
fortunately, in the case of Florida, it is a very good working 
relationship.
    And we are here today to get the ideas of three panels on 
what is the problem with Apalachicola Bay, the technical 
reasons, the technical fixes, and all of the economic issues 
and the personal issues that are surrounding this problem.
    Our oystermen, their families, all those who depend on a 
healthy bay are now depending on us. And for over two decades, 
we have fought our neighbors to the north over the freshwater 
that flows south from the Chattahoochee into Apalachicola River 
and into this bay. And court decisions, some have gone our way, 
others have not. And now we have NOAA that is lending a hand.
    And, as you know, just yesterday, the Secretary of 
Commerce--and I just got off the phone with her a few minutes 
ago--she determined that a fishery resource disaster occurred 
for the oyster stocks along the west coast of Florida, 
primarily in the Apalachicola Bay area.
    And she declared that--this is Secretary Pritzker--because 
of three factors: number one, a drought throughout the 
southeastern U.S. that has led to below-average river flows; 
number two, reduced downstream river flow from man-made dams 
along the rivers; and, number three, increased salinity in the 
bay that not only stresses the oyster populations but allows 
the persistent occurrence of oyster predators, such as stone 
crab and oyster drills.
    And this collapse has had a tremendous impact on folks 
living here. Over 2,000 jobs are related to harvesting or the 
processing of oysters on Florida's Gulf Coast. And while 
Federal and state agencies are working together to help those 
fishermen that have been affected, the primary cause of the 
disaster, a lack of freshwater, still remains.
    The river and the bay here in Apalachicola are the true 
economic engines of this region. And without more freshwater, 
this region's economy could find itself in jeopardy, to the 
tune of hundreds of millions of dollars.
    Think of all the commercial fishing in the Gulf. Many of 
those fish spawn and grow right here in the bay. In good years, 
roughly 90 percent of the oysters harvested in Florida and 
nearly 10 percent of all oysters produced in this country came 
from right here in this bay.
    And despite the state Fish and Wildlife Conservation 
Commission, which said it expects the decline in revenue and 
pounds of oysters to continue, Senator Rubio and I are here 
because we think the bay can recover. It has done so in the 
past; there is no reason that it can't do it in the future.
    And so now that the Federal fishery disaster has been 
declared, Congress needs to get it funded as soon as possible. 
And this will help us bring some much-needed funds to the area 
and help support a long-term recovery effort here.
    But we still need to find a way to get more freshwater down 
to the bay. One opinion is an administrative approach that 
could be implemented by the Army Corps of Engineers, and we are 
going to hear from them today. In essence, the Corps would 
simply update its master operating document known as the Water 
Control Manual, and they would update it for a series of five 
locks and dams along the ACF system.
    Another option would be for Congress to pass legislation 
that would require the Army Corps to manage the ACF, 
Apalachicola-Chattahoochee-Flint, system in a way that 
guarantees sufficient freshwater flows into the bay. Well, we 
tried to do this. Senator Rubio and I tried to do this by 
amending the Water Resources Development Act when it was being 
considered in the Senate, but the Senators from Georgia 
initiated their prerogative and they threatened to filibuster 
the entire bill over that provision.
    And the third option would require the Governors of all 
three states--Georgia, Alabama, and Florida--to come together 
and agree on how much water each state would get. This 
discussion has been going on for years, ever since Bob Graham 
was Governor. And the three Governors get together, and the 
Alabama and the Florida Governors agree, but the Georgia 
Governor won't agree because of all the water that they are 
holding back up there in the dammed part of the Chattahoochee 
River known as Lake Lanier.
    Such an agreement between the three Governors would be made 
in the form of an interstate water compact, which Congress 
would then ratify.
    So, regardless of how we do it--and, at this point, before 
hearing the testimony, I can tell you that it looks like the 
administrative route, with the Corps doing that updated water 
plan, that looks like the most viable to me at this point. But 
I want to hear what the witnesses will share.
    But regardless of how we do it, when it comes to the 
management of the ACF system, Florida obviously has got to be 
treated fairly. And just because we are geographically located 
at the bottom of the river doesn't mean our interests belong at 
the bottom of anyone's list.
    The current water policies are not working, and especially 
they are not working for Florida. And it is time we quit 
playing this state politics and the Atlanta-area politics, and 
we have to start finding some solutions. And so Senator Rubio 
and I are going to hear all the facts and the evidence that led 
to the disaster and what is being done to solve it.
    And now I want to turn, for his opening statement, to my 
colleague and my friend, Senator Rubio.

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you, Senator Nelson. And thank you, as 
well, for working in such a cooperative way.
    I want to thank all of you for being a part of this here 
today.
    I want you to know these hearings matter, because they 
allow us to create the congressional record that justifies the 
actions we want to take. But the other reason why it matters is 
because sometimes we talk about these issues and we lose the 
human side of it, the real people who are being impacted by it, 
the families who are not just losing a family tradition, they 
are losing their family livelihood, what they have done for 
generations.
    And so when we talk about these issues sometimes in terms 
of science or in terms of numbers or even in terms of dollars, 
we forget the human lives and the people that are being 
impacted by it and the communities that depend on it. And so 
that is why we are so glad to be here today, I wish under 
better circumstances, because it allows us to put the real face 
of real people on this problem and go back to our colleagues 
and make an even more passionate argument on behalf of why 
action is necessary.
    I want to thank you, Senator Nelson, for not just being a 
great partner in this endeavor and others but for being here 
today and for hosting this with me.
    And I want to thank, as I said, everyone who has attended 
here today. And I really want to thank particularly the Board 
of County Commissioners and their staff, as well as the clerk, 
Marcia Johnson, and her staff, for their assistance in securing 
this location and helping us in advance to put together today's 
hearing.
    I especially want to thank all the witnesses that are here 
with us today, and in particular Congressman Southerland, who 
we will hear from in a moment. There is no more passionate 
advocate on behalf of each of you than him, and he has done a 
phenomenal job to be a voice. And we are going to hear from him 
in a moment.
    So thank you for your time being here with us today and 
your participation and your partnership in this, as well.
    The water wars between our states, between Alabama and 
Georgia, have been decades in the making. By the way, I think 
the ultimate revenge is just to beat them in Jacksonville at 
the game in November, but----
    [Laughter.]
    Senator Rubio. We need to do that every year, I guess.
    But with many years of litigation, one failed tri-state 
compact, and continuing opposition from any congressional or 
state fix by the Georgia delegation, the frustration felt by 
this community, by myself, by Senator Nelson, by Congressman 
Southerland, by Governor Scott, and the entire Florida 
community is barely measured by the number of folks attending 
here today.
    I would just say that, as a community whose way of life and 
livelihood is directly and negatively affected by policy 
decisions made seemingly beyond your control, your resilience 
and your dedication to finding a solution is inspirational and 
admirable. I appreciate your assistance, I appreciate you 
attending this hearing so that we can continue to highlight and 
to stress to our colleagues the importance of this issue.
    So here is the goal of today's hearing. We have two primary 
goals. The first is we want to continue to build the 
Congressional Record that we will be able to go back and use to 
justify our continued efforts to congressionally direct the 
Army Corps of Engineers to prioritize the freshwater flows into 
the Apalachicola Bay. This is particularly important now in the 
context of trying to secure funding after the Secretary of 
Commerce's declaration yesterday.
    As you may know, this summer, during the--Senator Nelson 
alluded to this--during the Senate debate on the Water 
Resources Development Act, several amendments were offered to 
help address this water-flow issue. In fact, the legislation 
passed by the Committee, the Environment and Public Works 
Committee, included a provision that was supported by myself, 
Senator Nelson, and the Senators from Alabama, Senator Sessions 
and Senator Shelby. There was included in that bill language 
that would have immediately prevented the state of Georgia from 
continuing to withdraw water from the top of the basin at Lake 
Lanier.
    While I recognize that the language did not directly 
address water management of the entire basin, it was our hope 
that, by cutting Georgia off at the source and by changing the 
status quo we have today, we would be able to compel the state 
to finally come to the table and to work with our Governor and 
the Governor of Alabama to negotiate that tri-state compact.
    The issue is so important to me that I made and will 
continue to make any legislative solution to address this water 
flow as my number-one priority when we continue to debate that 
bill in the Senate. Unfortunately, the Georgia delegation felt 
equally as strong. And due to their opposition, the language 
was ultimately removed on the floor of the Senate, as Senator 
Nelson previously outlined. And then any efforts that we made 
thereafter to reinsert the language or to insert alternative 
language to address the water-flow issues in the region, they 
were blocked.
    Now, I wish that Chairwoman Boxer was here today or any 
other member of the U.S. Senate had taken the time to visit 
Franklin County. But they will read this record, and they will 
hear about this meeting. Because I think when they do, they 
will think twice about their decision to accommodate the 
Georgia delegation at the expense of the hardworking men and 
women of this county and this community.
    [Applause.]
    Senator Rubio. Anyone who is in this meeting today, no 
matter what state you are from, would recognize that a solution 
is required. And it is not just required today, it is not 
required tomorrow, it was required yesterday, it was required 
several years ago, predating my service in the Senate. And we 
simply cannot continue to wait.
    And so the first purpose of this meeting is to provide the 
public, the country, the Senate, the House, and the president 
of the United States with firsthand knowledge of why we 
continue to fight for freshwater flows into Apalachicola Bay.
    I feel the second purpose of this hearing is equally 
important. The hearing is entitled, ``The Effects of Water 
Flows in Apalachicola Bay: Short- and Long-Term Perspectives.'' 
Today I, along with Senator Nelson, would also like to examine 
the other tools that we have in our toolbox at our disposal as 
we work to solve the water-flow issue and mitigate the economic 
damage that has already been incurred by Franklin County and 
its community.
    I am thankful that Colonel Chytka is here, only 2 weeks 
into his new command post, and he took the time to join us here 
today. The Army Corps is working to draft a Water Operations 
Manual for the entire ACF Basin. And I believe that it is our 
responsibility to ensure the Colonel is aware of exactly what 
is at stake here in Florida as he begins his assessment of 
exactly how the basin should be managed.
    While I strongly disagree with the Corps' interpretation of 
the law, that Georgia has the congressional authority to 
continue to withdraw additional water, I am hopeful that we can 
work together with the Army Corps in the interim to create a 
management system that appropriately accounts for the 
freshwater flows necessary for the ecosystem and for the 
fisheries in the bay.
    Additionally, recognizing the need to mitigate the economic 
and ecological damage already done, I am thankful that the 
National Marine Fisheries Service is attending here today to 
highlight the disaster declaration from the Department of 
Commerce, as requested by Governor Scott and supported by the 
entire Florida delegation in the region.
    I was pleased to hear that the department yesterday has 
indeed declared a fishery disaster. I have the letter right 
here that they issued to our offices yesterday. And I remain 
committed to working to secure the Federal funding that we are 
going to need now so that it is sent to Franklin County as soon 
as possible. And I know that Senator Nelson is equally 
committed, as is Congressman Southerland.
    And, finally, I am thankful that our third panel, all 
distinguished members of this community, are here to provide 
testimony to further support our efforts both in the short term 
and the long term and at the state and Federal level to find a 
solution to this issue once and for all.
    The bottom line is the people of Franklin County cannot 
continue to wait any longer, and it is our responsibility, it 
is our job to take advantage of every tool that we have at our 
disposal in Congress to act, to address this issue, to make 
sure that it is addressed once and for all.
    With that, thank you so much for having us here today. And 
we look forward to your testimony and to learning more about 
this and informing the public and our colleagues as a result of 
your testimony.
    Senator Nelson. And on a going-forward basis, Senator Rubio 
has mentioned that now that the disaster declaration is there, 
we have to get it funded. And, as you know, that hasn't been an 
easy task on appropriations on anything. So we will be looking 
at every possible source of funding.
    Perhaps once the judge in Federal court in New Orleans 
decides on the fine on BP and the money starts to flow through 
the RESTORE Act, then perhaps that would be another source of 
funding. But that is one of the first orders of business that 
we are going to have to approach now that the declaration is 
already in effect.
    Now, the way we have organized the Senate Commerce 
Committee hearing is we have three panels. We first ask the 
Congressman from the Second District, the resident Congressman 
who knows all of these issues very well, to testify.
    The second panel will be other government witnesses. We 
have NOAA represented by the National Marine Fisheries Service. 
We have the Corps of Engineers. We have the Northwest Florida 
Water Management District.
    And then we will go to the third panel, and we will hear 
from the Executive Director of the Apalachicola Riverkeeper and 
also the Franklin County Seafood Workers Association, as well 
as the Florida Sea Grant College Program and the Professor of 
the School of Forest Resources and Conservation from the 
Institute of Food and Agricultural Sciences at the University 
of Florida.
    And so those are the three panels.
    And to kick us off, Congressman, we are honored to have 
you. Thank you for representing this area. Thank you for 
carrying the torch in the House of Representatives. And as 
Senator Rubio said, the funding is not going to be easy, but we 
are going to have to find it.
    Congressman, if you would share with us.

            STATEMENT OF HON. STEVE SOUTHERLAND II,

  U.S. REPRESENTATIVE, SECOND CONGRESSIONAL DISTRICT, FLORIDA

    Mr. Southerland. Thank you, Senator Nelson. And, Senator 
Rubio, I thank you as well. What a great service to this area, 
to highlight this issue that both of you have been working on 
for an awful long time. And so thank you very much.
    I do have some prepared remarks that I would like to share 
very briefly, and then finally just share some comments from my 
heart. And then I will get on to the other panels that we have.
    But, Senator Nelson, Senator Rubio, I do want to thank you 
for holding this timely hearing on the impact of low water 
flows from the Apalachicola-Chattahoochee-Flint, the ACF, river 
system on the Apalachicola Bay. As the member of Congress 
representing the City of Apalachicola, I have seen firsthand 
the devastating impact of reduced downstream flows on this 
community's ecosystem, environment, and economy.
    Additionally, I would like to express my appreciation to 
Governor Scott, who has been an incredible leader and tireless 
advocate in our collective efforts to revive Apalachicola Bay's 
collapse as well as to save this national treasure.
    Historically, Apalachicola Bay has provided more than 90 
percent of Florida's oyster harvest and nearly 10 percent of 
the Nation's oyster supply, serving as a major economic driver 
for our state. The low flows from the ACF system have decimated 
the local oyster industry and, by extension, Apalachicola and 
the surrounding north Florida region that depend on this 
industry's success.
    In May 2013, I authored a letter on behalf of the Florida 
congressional delegation to House Transportation and 
Infrastructure Committee Chairman Shuster and Ranking Member 
Rahall expressing our concerns regarding the present situation 
in the Apalachicola Bay.
    We understand that the Army Corps of Engineers is diverting 
limited and precious freshwater to the metro Atlanta area, 
reducing flows down the ACF river system, and thereby 
preventing an adequate water supply from reaching the 
Apalachicola River Basin and Bay in the Florida panhandle.
    Florida's House delegation recognizes the need for swift 
and decisive action to preserve Apalachicola Bay's oyster 
industry as well as its economy. And we have requested that a 
legislative solution be included in the House Water Resources 
Development Act, the WRDA bill.
    Additionally, I have joined you, Senator Nelson, and you, 
Senator Rubio, as well as other representatives, Miller and 
Nugent, in September 2012 requesting that the Department of 
Commerce issue a fisheries disaster declaration for Florida's 
oyster-harvesting areas in the Gulf of Mexico.
    In furtherance of this request, I am pleased to see that 
that recent report by the Florida Fish and Wildlife 
Conservation Commission concluded what we have long known: that 
the rapid and unprecedented commercial oyster fishery failure 
on Florida's Gulf Coast was the result of upstream consumption 
and water management policies which exacerbated the impact of 
severe drought conditions. These factors are outside the 
fishery manager's control.
    National Marine Fisheries Service's disaster relief funds 
would allow for the further development of critical research 
into the causes of the bay's collapse as well as provide 
important relief to the impacted industries. Consequently, I am 
very pleased to learn yesterday that the Secretary of Commerce 
has determined that a fishery resource disaster has occurred 
along Florida's Gulf Coast.
    What is more, the Corps' forthcoming updated Water Control 
Manual for the ACF river system is of great interest. Over 20 
years of increasingly contentious litigation has been unable to 
provide for an adequate solution to these so-called water wars, 
one that allocated Florida its fair share of the resource.
    Therefore, I am particularly interested in hearing directly 
from the Corps on its proposals and updates and expect that 
they will take into account the pressing and dire nature of the 
situation here in Apalachicola when considering changes to its 
draft water control plan for Lake Lanier and the entire ACF 
system.
    Finally, Florida has proactively engaged in a wide variety 
of responsible conservation measures aimed at achieving more 
efficient management of our limited water supply. It is past 
time that Georgia began to engage in similar conservation 
measures.
    [Applause.]
    Mr. Southerland. I would urge the Corps to mandate that 
Georgia implement such practices in their draft water control 
plan.
    I am hopeful that this important hearing will increase 
congressional awareness regarding the plight of the hardworking 
Floridians, many of whom are present here today, who have long 
made their living on these waters, whose jobs and livelihoods 
are now in jeopardy.
    I know that I made reference in my prepared comments 
regarding the May 13 letter that I would ask if we could 
incorporate into the congressional record.
    Senator Nelson. Without objection.
    Mr. Southerland. Thank you very much.
    [The letter referred to follows:]

                              Congress of the United States
                                       Washington, DC, May 13, 2013

Hon. Bill Shuster,
Chairman,
House Committee on Transportation and Infrastructure,
Washington, DC.

Hon. Nick J. Rahall II,
Ranking Member,
House Committee on Transportation and Infrastructure,
Washington, DC.

Dear Chairman Shuster and Ranking Member Rahall:

    As the House Committee on Transportation and Infrastructure drafts 
a Water Resources Development Act (WRDA), we urge you to address an 
issue of tremendous economic and environmental consequence to the State 
of Florida.
    We believe that the Army Corps of Engineers is overstepping its 
authority by reallocating water from Georgia's Lake Lanier to Atlanta's 
metropolitan area without proper Congressional oversight. By diverting 
this limited resource, the Corps is reducing the freshwater flow down 
the Apalachicola-Chattahoochee-Flint (ACF) River System and, thereby, 
preventing an adequate water supply from reaching the Apalachicola 
River Basin and Bay in the Florida panhandle.
    Historically, Apalachicola Bay has provided more than 90 percent of 
Florida's oysters harvest and nearly 10 percent of the Nation's oyster 
supply, serving as a major economic driver for the state. The low flows 
from the ACF system have decimated the local oyster fishery and, by 
extension, Apalachicola and the surrounding North Florida region that 
depend upon the industry's success.
    We are hopeful that you will work closely with our delegation, 
specifically the six Florida members of the Committee on Transportation 
and Infrastructure, to ensure that a legislative solution is included 
in the Water Resources Development Act. We thank you for your 
consideration and look forward to working with you on this critically 
important issue for our state and region.
            Sincerely,

Steve Southerland II (FL-02)
Member of Congress

John L. Mica (FL-07)
Member of Congress

Debbie Wasserman Schultz (FL-23)
Member of Congress

Ileana Ros-Lehtinen (FL-27)
Member of Congress

Gus M. Bilirakis (FL-12)
Member of Congress

Vern Buchanan (FL-16)
Member of Congress

Dennis A. Ross (FL-15)
Member of Congress

Kathy Castor (FL-14)
Member of Congress

Bill Posey (FL-08)
Member of Congress

Theodore E. Deutch (FL-21)
Member of Congress

Trey Radel (FL-19)
Member of Congress

Ron DeSantis (FL-06)
Member of Congress

Alan Grayson (FL-09)
Member of Congress

Corrine Brown (FL-05)
Member of Congress

C.W. Bill Young (FL-13)
Member of Congress

Ander Crenshaw (FL-04)
Member of Congress

Jeff Miller (FL-01)
Member of Congress

Mario Diaz-Balart (FL-25)
Member of Congress

Alcee L. Hastings (FL-20)
Member of Congress

Thomas J. Rooney (FL-17)
Member of Congress

Frederica S. Wilson (FL-24)
Member of Congress

Richard B. Nugent (FL-11)
Member of Congress

Ted S. Yoho (FL-03)
Member of Congress)

Patrick Murphy (FL-18)
Member of Congress

Joe Garcia (FL-26)
Member of Congress

Lois Frankel (FL-22)
Member of Congress

    Mr. Southerland. I do also want to state for those in 
attendance today that this letter had unanimous support by the 
Florida delegation in the House of Representatives. All 27 
members, Republican and Democrat, signed on to this letter. So 
there is great agreement by our state and I know by the two of 
you gentlemen representing us in the Senate to solve this issue 
in a way that is fair but also truly gets to the heart of the 
issue.
    So thank you for allowing me to incorporate that into the 
Congressional Record.
    And, finally, before I conclude my comments, I want to say 
some things from the heart. I want to speak off the page here.
    It is a tremendous honor to represent a district that my 
family has lived in for 200 years. We are not fly-by-night 
here. The people that are sitting behind me are dear, dear to 
me. It is an honor to have the two of you here to hear their 
plight.
    You know; this is not new to you. Both of you have been 
working on this issue for a long time. But you learn more of 
the issue when you come here. Because, Senator Rubio, as you 
mentioned a few moments ago, this is not just about oysters, 
this is about people. And we are not just growing oysters here; 
we have a responsibility of growing families.
    And what we are seeing here, the devastation, the injustice 
of this issue, it is not just about oysters. It is affecting 
families. It is affecting children. As a former Chairman of the 
Early Learning Coalition of Northwest Florida, I know 
firsthand, for 5 years in Franklin County, understanding the 
challenges of the hardworking men and women here that are doing 
everything they can to provide a brighter future for their 
children.
    We need this subject to be highlighted. And you have done 
yeoman's work in the Senate to bring this attention to people 
outside of our region.
    You are right, Senator Nelson, we have to find the funding. 
It is imperative that we find the funding to do the responsible 
thing. Now, that means that we have to make hard choices. I 
have found in Washington, D.C., in the short 30 months that I 
have been there, that is not always popular.
    But I will say this: This is long overdue. And your 
presence here today, it will just continue to shed greater 
light on the problem.
    And we have dear friends north of the state line. Our dear 
colleagues from Georgia, they are representing their folks. I 
understand that. But as I travel over to Lake Lanier and I see 
what they are doing with their water and I come down here and I 
see what we are not doing with ours, I would say it is time for 
Florida to get its fair shake.
    And so I just want to say to you how much I appreciate you 
being here.
    I also want to say that over the last 30 days I have 
learned to come to appreciate what this county is doing, their 
county commission, their county staff. They are working 
incredibly hard.
    I want to thank the seafood industry and what they are 
doing. They are on the same page. They understand that if they 
do not have more freshwater flowing down that river, that they 
can't grow the families and they cannot build to the heritage 
and to the legacy that is the standard here in Apalachicola and 
Franklin County.
    This is about real people. And today, this hearing, I hope 
that the panels that we hear, that they give you information, 
they provide you data, good data, they talk about the things 
that we might not hear if we don't hear from them. But with 
that good data, it takes courage for us to do the right thing 
in Washington, D.C.
    So with those comments being said, again, I am humbled to 
be here, and it is a great honor to have you here.
    And, with that, I would yield back any remaining time that 
I might have. And thank you again for the opportunity to share 
my thoughts.
    [The prepared statement of Mr. Southerland follows:]

    Prepared Statement of Representative Steve Southerland II (FL-2)
    Senators Rubio and Nelson, I want to thank you for holding this 
timely hearing on the impact of low freshwater flows from the 
Apalachicola-Chattahoochee-Flint (ACF) River System on Apalachicola 
Bay. As the Member of Congress representing the City of Apalachicola, I 
have seen firsthand the devastating impact of reduced downstream flows 
on this community's ecosystem, environment, and economy.
    Additionally, I would like to express my appreciation to Governor 
Scott--who has been an incredible leader and tireless advocate in our 
collective efforts to revive Apalachicola's collapsed Bay and save this 
national treasure.
    Historically, Apalachicola Bay has provided more than 90 percent of 
Florida's oyster harvest and nearly 10 percent of the Nation's oyster 
supply, serving as a major economic driver for the state. The low flows 
from the ACF system have decimated the local oyster industry, and, by 
extension, Apalachicola and the surrounding North Florida region that 
depend on the industry's success.
    In May 2013, I authored a letter on behalf of the Florida 
Congressional delegation to House Transportation and Infrastructure 
Committee Chairman Shuster and Ranking Member Rahall expressing our 
concerns regarding the present situation in Apalachicola Bay. We 
understand that the Army Corps of Engineers (Corps) is diverting 
limited and precious freshwater to the metro-Atlanta area, reducing 
flows down the ACF River System and, thereby, preventing an adequate 
water supply from reaching the Apalachicola River Basin and Bay in the 
Florida panhandle. Florida's House delegation recognizes the need for 
swift and decisive action to preserve Apalachicola Bay's oyster 
industry, and we have requested that a legislative solution be included 
in the House Water Resources Development Act.
    Additionally, I joined with Senators Rubio and Nelson, as well as 
Representatives Miller and Nugent, in September 2012, requesting that 
the Department of Commerce issue a fisheries disaster declaration for 
Florida's oyster harvesting areas in the Gulf of Mexico. In furtherance 
of this request, I was pleased to see that a recent report by the 
Florida Fish and Wildlife Conservation Commission concluded what we 
have long known, that ``the rapid and unprecedented commercial oyster 
fishery failure on Florida's Gulf Coast was the result of upstream 
consumption and water management policies . . . which exacerbated the 
impact of severe drought conditions. . . . These factors are outside of 
the fishery manager's control.'' Recognizing that National Marine 
Fisheries Service (NMFS) disaster relief funds would allow for the 
further development of critical research into the causes of the Bay's 
collapse, as well as provide important relief to the impacted 
industries, I look forward to hearing from representatives of NMFS as 
to the status of our request.
    What's more, the Corps' forthcoming updated Water Control Manual 
for the ACF River system is of great interest. Over twenty years of 
increasingly contentious litigation has been unable to provide for an 
adequate solution to these so-called ``water wars''--one that allocated 
Florida its fair share of the resource. Therefore, I am particularly 
interested in hearing directly from the Corps on its proposed updates 
and expect that they will take into account the pressing and dire 
nature of the situation here in Apalachicola when considering changes 
to its draft water control plan for Lake Lanier and the entire ACF 
system.
    Finally, Florida has proactively engaged in a wide variety of 
responsible conservation measures aimed at achieving more efficient 
management of our limited water supply. It is past time that Georgia 
begin to engage in similar conservation measures, and I would urge the 
Corps to mandate that Georgia implement such practices in their draft 
water control plan.
    I am hopeful that this important hearing will increase 
Congressional awareness regarding the plight of the hardworking 
Floridians, many of whom are present here today, who have long made 
their living on these waters--and whose jobs and livelihoods are now in 
jeopardy.
    Thank you very much for the opportunity to share my views on this 
matter. I look forward to working with Florida's Congressional 
delegation, Senators, and all relevant parties to find a long-term 
solution to this issue that is respectful of the unique ecosystem, 
environment, and way of life in this treasured North Florida community.

    Senator Nelson. Thank you, Congressman. We appreciate it 
very much. We are enjoying your hospitality here in 
Apalachicola, along with the hospitality that is so evident 
from everyone.
    Senator Rubio and I do not have any questions for you. You 
have covered it.
    So I would like to ask the second panel if you would come 
up, please.
    While they are being seated, we will hear from Ms. Emily 
Menashes. She is Acting Director of the Office of Sustainable 
Fisheries, the National Marine Fisheries Service, which is a 
part of NOAA, the National Oceanographic and Atmospheric 
Administration, all of which is a part of the Department of 
Commerce.
    And then we will hear from Colonel Jon Chytka. He is the 
Mobile District Commander, U.S. Army Corps of Engineers, and 
then hear from Mr. Jon Steverson, the Executive Director of the 
Northwest Florida Water Management District.
    And we will take them in that order.
    Now, we have a Mr. Taylor here. You are with the Colonel?
    Colonel Taylor. Yes, sir.
    Senator Nelson. OK. Good.
    All right, let's start with Mrs. Menashes.
    What we will do is we will put your written testimony in 
the record of the Committee, and what I would like you to do is 
to summarize your comments in about five minutes, if you would.

         STATEMENT OF EMILY MENASHES, ACTING DIRECTOR,

        OFFICE OF SUSTAINABLE FISHERIES, NATIONAL MARINE

           FISHERIES SERVICE, NATIONAL OCEANOGRAPHIC

                AND ATMOSPHERIC ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Ms. Menashes. Certainly.
    Good morning, Mr. Chairman and Ranking Member Rubio. My 
name is Emily Menashes. I am the Acting Director of the Office 
of Sustainable Fisheries for NOAA's National Marine Fisheries 
Service.
    Thank you for the opportunity to testify before you today 
on the fisheries disaster determination process and the status 
of the request by the state of Florida to declare a commercial 
fishery failure for Florida's oyster-harvesting areas in the 
Gulf of Mexico.
    Before I begin, I would like to add one point that was not 
included in my written testimony. As you know, in the fall of 
2012, Governor Scott asked then-Acting Secretary Rebecca Blank 
to declare a commercial fishery failure for Florida's oyster 
industry. His request stated that oyster populations on 
Apalachicola Bay's primary oyster-producing reefs were in poor 
condition and named excessive drought conditions in the bay and 
elsewhere in the Florida panhandle as the primary cause of the 
decline.
    Last week, the state provided us with the additional 
information and analysis we needed to determine whether the 
situation in the bay qualifies as a fishery disaster. Based on 
this information, yesterday Secretary Pritzker determined that 
a fishery resource disaster did occur, which resulted in a 
commercial fishery failure for the oyster fishery of the west 
coast of Florida, especially in the Apalachicola Bay area.
    The information provided by the state indicates real and 
projected declines in oyster landings and revenues that meet 
the economic thresholds necessary to warrant a disaster 
determination.
    The basis for this determination is the following three 
factors: one, a drought throughout the southeastern U.S. that 
has led to below-average river flows; two, reduced downstream 
river flow from man-made dams along these rivers; and, three, 
increased salinities in the bays that not only stressed the 
oyster populations but allowed a persistent occurrence of 
oyster predators, such as stone crab and oyster drills.
    I know that this has been a long process and understand 
that there has been significant impact on the local economy. We 
worked closely with Florida to assess the relevant data, and 
thanks to this productive exchange, we were able to move 
quickly and make this determination within days of receiving 
the necessary information from the state.
    The Secretary of Commerce is authorized under the Magnuson-
Stevens Act and the Interjurisdictional Fisheries Act to make 
fisheries disaster determinations. Fisheries are an essential 
part of coastal economies. They provide jobs for fishermen, 
fish processors, and related maritime support industries.
    However, fisheries are subject to a number of factors that 
can cause sudden and unexpected losses, leading to serious 
economic impact for fishermen and their communities. These 
include hurricanes, oil spills, harmful algal blooms, and other 
causes, both natural and man-made, that result in a commercial 
fishery to fail.
    Under both statutes, the Secretary may provide disaster 
assistance for a wide range of activities, including direct 
assistance to fishermen, restoration for research purposes, 
retraining, among other activities. Under both statutes, a 
request for a disaster determination is typically made by the 
Governor of a state.
    And, in general, the process for conducting a determination 
is that an eligible entity requests the disaster determination 
from the Secretary of Commerce. Following receipt of that 
information, the Fisheries Service conducts an evaluation of 
the information provided. The secretary will make a 
determination based on this evaluation. Congress may decide to 
appropriate funds for fishery disaster relief. And then if 
Congress appropriates funds, we would work with the affected 
entities to distribute them.
    Three requirements must be met in order for the Secretary 
to make a positive fishery disaster determination. One, there 
must be a fishery resource disaster. Two, the cause for the 
disaster must be an allowable cause. And, three, there must be 
economic impact stemming from the disaster that leads to a 
commercial fishery failure.
    We review the best scientific information available to 
evaluate each requirement has been met and actively coordinate 
with the affected state or community to consider information 
and supporting data. If the request does not contain all of the 
data required to make a determination, we work with the 
affected state or community to obtain needed information.
    There is no standing fund for fishery disaster relief. 
However, if Congress appropriates funds for a disaster, we work 
with the state to develop a spending plan to address the needs. 
The Secretary may provide assistance in the form of a grant, 
cooperative agreement, loan, or contract, following 
congressional guidance, statutory authority, and the 
appropriate administrative process.
    NOAA will continue to work closely with Florida on this 
issue. Thank you for the opportunity to discuss our disaster 
determination process and the request from the state of 
Florida. And I am happy to answer any questions you may have.
    [The prepared statement of Ms. Menashes follows:]

   Prepared Statement of Emily Menashes, Acting Director, Office of 
  Sustainable Fisheries, National Marine Fisheries Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce
    Good afternoon, Mr. Chairman and Members of the Committee. Thank 
you for the opportunity to testify before you today on the Effects of 
Water Flows on Apalachicola Bay: Short and Long Term Perspectives. My 
name is Emily Menashes and I am the Acting Director of the Office of 
Sustainable Fisheries for the National Oceanic and Atmospheric 
Administration's (NOAA) National Marine Fisheries Service (NMFS). NMFS 
is dedicated to the stewardship of living marine resources through 
science-based conservation and management.
    The Secretary of Commerce is authorized under the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act) and the 
Interjurisdictional Fisheries Act to issue fisheries disaster 
declarations, which enable Congress to provide fisheries disaster 
assistance to affected States. In this testimony, I will outline the 
process for issuing a disaster declaration under the Magnuson-Stevens 
Act and the Interjurisdictional Fisheries Act and the NMFS Disaster 
Assistance Policy. Last, I will highlight the status of the pending 
request for fisheries disaster assistance by the State of Florida to 
declare a commercial fishery failure for Florida's oyster harvesting 
areas in the Gulf of Mexico.
NOAA Fisheries Disaster Assistance Authorities and Process
    Fisheries are an essential part of coastal economies. They provide 
jobs for fishermen, fish processers, and related maritime support 
industries. Many coastal communities are economically dependent on 
fisheries. Because fisheries depend on the productivity of the 
environment, there are natural variations in the amount of fish caught 
each year, and in the revenue generated by the fishery. However, 
fisheries are also subject to a number of factors that can cause sudden 
and unexpected losses, leading to serious economic impact for fishers 
and their communities. These factors include hurricanes and typhoons 
that can destroy fishing grounds and fishing infrastructure, oil 
spills, harmful algal blooms, and others, both natural and man-made, 
such as overfishing, that cause a commercial fishery to incur harm or 
fail.
    A fishery disaster refers to a commercial fishery failure, a 
catastrophic regional fishery disaster, significant harm incurred, or a 
serious disruption affecting future production due to a fishery 
resource disaster arising from natural or undetermined causes, or, 
under the Magnuson-Stevens Act, man-made causes beyond the control of 
fishery managers to mitigate through conservation and management 
measures. Two statutes, the Magnuson-Stevens Act, Sections 312(a) and 
315, and the Interjurisdictional Fisheries Act, Sections 308(b) and 
308(d), provide the authority and requirements for fishery disaster 
determinations.
    Under the Magnuson-Stevens Act, Sections 312(a) and 315, the 
Secretary may provide disaster assistance for assessing the economic 
and social effects of a commercial fishery failure, for activities to 
restore the fishery or prevent a similar failure in the future, and for 
assisting fishing communities. In order to receive assistance under 
Section 315 of the Magnuson-Stevens Act, a positive Magnuson-Stevens 
Act 312(a) determination is also needed. Under the Interjurisdictional 
Fisheries Act, Section 308(b), the Secretary may provide assistance to 
restore the fishery affected by the disaster. Also, under the 
Interjurisdictional Fisheries Act, Section 308(d), the Secretary may 
provide disaster assistance to persons and projects to alleviate harm 
incurred as a result of a fishery resource disaster.
    Under both statutes, a request for a fishery disaster determination 
is generally made by the Governor of a State, or by an elected or duly 
appointed representative on an affected fishing community, although the 
Secretary of Commerce may also initiate a review at his or her own 
discretion. In general, the process for conducting a fishery disaster 
determination is:

  <bullet> An eligible entity requests a fishery disaster determination 
        from the Secretary of Commerce.

  <bullet> NMFS conducts an evaluation to determine whether the 
        circumstances are consistent with relevant statutes and whether 
        a qualifying fishery disaster occurred.

  <bullet> The Secretary makes a determination based on the evaluation 
        and notifies the requester of the determination.

  <bullet> Congress may appropriate funds for fishery disaster relief.

  <bullet> If Congress appropriates funds, NMFS works with the affected 
        entities to distribute the funds consistent with the statutory 
        requirements and conditions of the appropriation.

    Three requirements must be met in order for the Secretary to make a 
positive fishery disaster determination:

  1.  There must be a fishery resource disaster as defined by the 
        Magnuson-Stevens Act, or the Interjurisdictional Fisheries Act.

  2.  The cause for the fishery resource disaster must be an allowable 
        cause under the Magnuson-Stevens Act, or the 
        Interjurisdictional Fisheries Act.

  3.  There must be economic impact stemming from the fishery resource 
        disaster that supports a determination of a commercial fishery 
        failure under the Magnuson-Stevens Act 312(a) and the 
        Interjurisdictional Fisheries Act 308(b), a serious disruption 
        affecting future production due to a fishery resource under the 
        Interjurisdictional Fisheries Act 308(b) or harm incurred under 
        the Interjurisdictional Fisheries Act 308(d).

    For all three requirements, NMFS will review the best scientific 
information available to evaluate if the requirements have been met and 
will coordinate with the affected State or community to consider 
information and supporting data that the State or community provides.
    To address the first requirement, whether a fishery resource 
disaster occurred, NMFS evaluates whether there is a sudden, 
unexpected, large decrease in fish stock biomass or other change that 
results in significant loss of access to the fishery resource, which 
could include loss of fishing vessels and gear, for a substantial 
period of time.
    For the second requirement, NMFS evaluates whether there is an 
allowable cause under the Magnuson-Stevens Act or Interjurisdictional 
Fisheries Act. Under Section 312(a) of the Magnuson-Stevens Act, 
allowable causes are natural causes, undetermined causes, or man-made 
causes beyond the control of fishery managers to mitigate through 
conservation and management measures. Regulatory or judicial actions do 
not constitute ``man-made'' causes, except where imposed to protect 
human health or the marine environment. Additionally, under Section 
312(a) of the Magnuson-Stevens Act, the contribution of overfishing to 
a fishery resource disaster or subsequent commercial fishery failure 
must be considered in the context of the governing statutory 
requirements and other factors contributing to the disaster or fishery 
failure. There is a presumption against a finding of a fishery resource 
disaster when overfishing is occurring in a fishery. However, the fact 
that overfishing occurred or is occurring does not preclude a 
determination that a fishery disaster occurred, if other factors are 
more central to the disaster.
    Under Section 308(b) of the Interjurisdictional Fisheries Act, the 
allowable causes are natural or undetermined causes. Under the 
Interjurisdictional Fisheries Act, Section 308(d), the Secretary must 
determine that harm was incurred as a direct result of a fishery 
resource disaster arising from a hurricane or other natural disaster.
    For the third requirement, particularly in the case of whether a 
commercial fishery failure has occurred, NMFS evaluates whether the 
commerce in or revenues from the fishery materially decreased or 
markedly weakened due to a fishery resource disaster, such that those 
engaged in the fishery suffered severe economic hardship. The types of 
economic, social, and cultural information that NMFS considers when 
determining whether there was a commercial fishery failure occurred 
include:

  <bullet> Fishery characteristics (size and value; number of 
        participants; environmental, economic and sociocultural 
        behaviors; whether jobs are full-or part-time; and landings 
        data).

  <bullet> Percent decline in landings, economic impact, revenues, or 
        net revenues by vessel category, port, etc. This should 
        represent the proportion of the affected fishery resource 
        compared to the commercial fishery as a whole (not just for the 
        affected fishery resource).

  <bullet> Number of participants involved by vessel category, port, 
        etc.

  <bullet> Length of time the resource (or access to it) will be 
        restricted.

  <bullet> Documented decline in the resource.

  <bullet> Other relevant information.

    The NMFS Disaster Assistance Policy identifies thresholds to 
determine if there was a commercial fishery failure, based on the loss 
of 12-month revenue compared to average annual revenue in the most 
recent 5-year period:

  <bullet> Revenue losses greater than 80 percent will result in a 
        determination of a commercial fishery failure.

  <bullet> Revenue losses between 35 percent and 80 percent will be 
        evaluated further (e.g., to determine if economic impacts are 
        severe).

  <bullet> Revenue losses less than 35 percent will not be eligible for 
        determination of a commercial fishery failure, except where the 
        Secretary determines there are special and unique circumstances 
        that may justify considering and using a lower threshold in 
        making the determination.

    Often the request for a fishery disaster determination does not 
contain all the data required to make an immediate determination, and 
in those cases NMFS will work with the affected State or community to 
obtain the data, which often takes some time. Thus, the more 
information an initial request includes regarding a potential disaster, 
the better able NMFS is to respond quickly to a request.
    The Secretary will notify the requester of the final determination 
of whether a fishery disaster has occurred. Under both the Magnuson-
Stevens Act and the Interjurisdictional Fisheries Act, if Congress 
appropriates funds for a fishery disaster, the Secretary may provide 
disaster assistance in the form of a grant, cooperative agreement, 
loan, or contract, following Congressional guidance and the appropriate 
administrative processes.
Florida Oyster Disaster Assistance Request
    In letters dated September 6, 2012, and November 7, 2012, Governor 
Rick Scott of Florida asked Acting U.S. Department of Commerce 
Secretary Rebecca Blank to declare a commercial fishery failure for 
Florida's oyster harvesting areas in the Gulf of Mexico. Those letters 
stated that oyster populations on Apalachicola Bay's primary oyster 
producing reefs were in poor condition and identified the lack of 
freshwater flow from the Apalachicola River and associated increases in 
water salinity as the primary cause of the decline. The Governor 
provided a report from Florida's Department of Agriculture and Consumer 
Services and indicated that additional landings and revenue data were 
forthcoming.
    The Florida Fish and Wildlife Conservation Commission followed up 
with draft documentation in April 2013. NMFS reviewed the draft 
documentation in the context of our Disaster Assistance Policy and 
provided the Commission comments and questions on April 23, 2013. The 
Commission indicated it would provide a revised report in early May 
2013, but is still working to finalize the report. NMFS' Southeast 
Region is in close communication with Commission leadership about the 
status of the report. We have been advised the report is complete, 
undergoing interagency review within the state, and will be delivered 
to us shortly.
    Also in late April 2013, Florida Sea Grant released a report 
entitled Apalachicola Bay: Oyster Situation Report, which contains 
relevant data for the disaster assistance request. The report 
summarizes efforts conducted through the University of Florida Oyster 
Recovery Team, in collaboration with various stakeholders, to describe 
conditions in Apalachicola Bay prior to and after the collapse of the 
oyster fishery. The report characterizes conditions in the Bay, reviews 
possible causes for the fishery collapse, and outlines a plan for 
future monitoring, research and fishery management.
Conclusion
    NOAA will continue to work closely with the State on this issue. 
Thank you for the opportunity to discuss NMFS' disaster determination 
process and the request from the State of Florida to declare a 
commercial fishery failure for Florida's oyster harvesting areas in the 
Gulf of Mexico. I am happy to answer any questions you may have.

    Senator Nelson. Thank you, Ms. Menashes.
    Colonel Chytka? Likewise, your statement will be entered 
into the record, and if you would share with us for about five 
minutes.

         STATEMENT OF COLONEL JON J. CHYTKA, COMMANDER,

         MOBILE DISTRICT, U.S. ARMY CORPS OF ENGINEERS,

                     DEPARTMENT OF THE ARMY

    Colonel Chytka. Mr. Chairman and Senator Rubio, I am 
Colonel Jon Chytka, Commander of the United States Army Corps 
of Engineers, Mobile District. And I am honored to testify 
before you today on the status of the Corps' water management 
in the Apalachicola-Chattahoochee-Flint river system.
    I assumed command, as Senator Rubio mentioned, on 1 August 
2013, and I am aware of the importance of this system to 
Congress, to the states, and various stakeholders in the ACF 
Basin.
    The ACF Basin originates in northeast Georgia, crosses the 
Georgia-Alabama border into central Alabama, and follows the 
state line south until it terminates in Apalachicola Bay. There 
are 5 Federal reservoirs and 10 non-Federal reservoirs in the 
ACF Basin.
    The Corps' Mobile District is currently updating the 
system-wide Master Water Control Manual for the ACF river 
system through an open and deliberative process that includes 
preparation of an environmental impact statement for the system 
and solicitation and consideration of comments from the public 
and all interested stakeholders.
    The purpose of revising the manual is to develop and 
implement updated system-wide operational schemes for the 
Federal projects in the basin in accordance with their 
authorized purposes, in light of the current conditions and 
applicable law.
    Water control manuals assist Federal water managers in 
operating individual and multiple interdependent Corps 
reservoirs on the same river system consistent with applicable 
law. Generally, a water control manual includes technical, 
hydrologic, geographic, demographic, policy, and other 
information.
    The Corps uses these manuals to inform and guide its 
decisions on the management of the waters in our reservoirs, 
which typically involve different operating regimes for times 
of high water, low water, and normal conditions. The manuals 
contain water control plans for each of the reservoirs in the 
basin and specify how the various reservoirs will be operated 
as a system.
    As part of our update process, the Corps is preparing an 
EIS for the Federal system and solicited and will consider 
comments from the public and interested stakeholders.
    These actions will result in updated plans and manuals for 
the system and are consistent with applicable law and take into 
account the changes in the basin's hydrology and demands from 
years of growth and development, new and rehabilitated 
structural features, legal requirements, and environmental 
issues.
    In June 2011, the United States Court of Appeals for the 
Eleventh Circuit held that municipal and industrial water 
supply for the City of Atlanta, Georgia, is an authorized 
purpose of the Lake Lanier project under the River and Harbor 
Act of 1946 and remanded the matter to the Corps to determine 
the extent of its legal authority to accommodate the state of 
Georgia's request in 2000 for additional water supply 
withdrawals at and below Lake Lanier.
    The ACF Water Control Manual update and EIS are being 
prepared in accordance with the Corps regulations and NEPA, the 
National Environmental Policy Act, and all other applicable 
laws. As a part of our effort, the Corps will consult with 
other Federal agencies as required, including consultation with 
the U.S. Fish and Wildlife Service.
    The draft water control manuals and EIS will be released 
for public review and comment in accordance with NEPA and 
requirements of Corps regulations. Similarly, the draft water 
control manuals and EIS will undergo quality control and 
quality assurance reviews, which include the agency technical 
review and the independent, external peer review.
    In summary, the purpose, again, of the ACF manual update is 
to improve the information and guidance that the Corps uses to 
operate the Federal dams within the basin in accordance with 
applicable law. We operate these dams for the congressionally 
authorized purposes as a system and will continue to do so.
    Mr. Chairman and members of the Committee, Senator Rubio, 
this concludes my oral testimony. I look forward to continuing 
to work with the Committee on these very important issues, 
answering any questions you may have.
    As you recognized, Senator Nelson, I brought the deputy for 
the Programs and Project Management Division within the Mobile 
District, Mr. Pete Taylor, to assist in answering the 
questions, because in my 12 days I have learned a lot but there 
is probably a lot more that I probably missed.
    [The prepared statement of Colonel Chytka follows:]

    Prepared Statement of Colonel Jon J. Chytka, Commander, Mobile 
     District, U.S. Army Corps of Engineers, Department of the Army
    Mr. Chairman and Members of the Committee:

    I am Colonel Jon Chytka, Commander of the U.S. Army Corps of 
Engineers Mobile District and am honored to testify before you today on 
the status of the Corps' Water Management in the Apalachicola-
Chattahoochee-Flint (ACF) River system. I assumed command of Mobile 
District on August 1, 2013 and am aware of the importance of this 
system to the Congress, the States, and the various stakeholders in the 
ACF basin.
    The Corps' Mobile District is currently updating the system-wide 
Master Water Control Manual for the ACF River system through an open 
and deliberative process that includes preparation of an environmental 
impact statement (EIS) for the system, and solicitation and 
consideration of comments from the public and all interested 
stakeholders. The original system-wide Water Control Manual for the ACF 
was completed in 1958. Between 1990 and 2012, the Corps was involved in 
litigation that included challenges to the Corps' operation of Federal 
reservoirs in the system, against a background of disagreement among 
the states of Alabama, Florida, and Georgia regarding the allocation of 
waters within the basin. During the pendency of that litigation, the 
states agreed to a Compact that was approved by Congress in 1997, and 
which contemplated the states agreeing to formulas for apportioning the 
surface waters of the basin. The Corps would have endeavored to update 
its operations, to the extent authorized by law, to implement such an 
agreement. After the states failed to reach agreement and the Compact 
expired, the Secretary of the Army directed the Corps to proceed with 
updating the Federal water control manual for the ACF system. The 
litigation concluded in 2012 without resolving the states' underlying 
disputes regarding the allocation of waters among the states, and 
without specific direction from the courts as to how the Corps should 
operate the ACF system.
    The purpose of revising the manual is to develop and implement 
updated, system-wide operational schemes for the Federal projects in 
the basin in accordance with their authorized purposes, in light of 
current conditions and applicable law. Water control manuals assist 
Federal water managers in operating individual and multiple, 
interdependent Corps reservoirs on the same river system consistent 
with applicable law. Generally, a water control manual includes 
technical, hydrologic, geographic, demographic, policy, and other 
information. The Corps uses these manuals to inform and guide its 
decisions on the management of the waters in our reservoirs, which 
typically involve different operating regimes for times of high water, 
low water, and normal conditions. The manuals contain water control 
plans for each of the reservoirs in the basin system and specify how 
the various reservoirs will be operated as a system. The manuals also 
contain drought plans and zones to assist Federal water managers in 
knowing when to reduce or increase reservoir releases, and how to 
ensure the safety of dams during extreme conditions such as floods.
    As part of the update process, the Corps is preparing an EIS for 
the Federal system, and solicited and will consider comments from the 
public and interested stakeholders. These actions will result in 
updated plans and manuals for the system that are consistent with 
applicable law and take into account changes in basin hydrology and 
demands from years of growth and development, new/rehabilitated 
structural features, legal requirements, and environmental issues.
    The ACF basin (Figure 1) originates in northeast Georgia, crosses 
the Georgia-Alabama border into central Alabama, and follows the state 
line south until it terminates at Apalachicola Bay, Florida. The basin 
covers 50 counties in Georgia, 10 counties in Alabama, and 8 counties 
in Florida, extending a distance of approximately 385 miles; the basin 
drains 19,600 square miles.
    There are five Federal reservoirs and ten non-federal reservoirs in 
the ACF system. At the headwaters of the system north of Atlanta are 
Buford Dam and Lake Sidney Lanier. Moving downstream, the remaining 
Federal reservoirs in the ACF system are West Point Lake Dam and West 
Point Lake; W.F. George Lock and Dam and W.F. George Lake; Lake George 
A. Andrews Lock and Dam and George A. Andrews Lake; and Jim Woodruff 
Lock and Dam and Lake Seminole, 108 miles upstream of Apalachicola Bay.
    In June 2011 The United States Court of Appeals for the Eleventh 
Circuit held that municipal and industrial water supply for the City of 
Atlanta, Georgia, is an authorized purpose of the Lake Lanier project 
under the Rivers and Harbors Act of 1946, and remanded the matter to 
the Corps to determine the extent of its legal authority to accommodate 
the state of Georgia's request in 2000 for additional water supply 
withdrawals at and below Lake Lanier. The citation is: In Re: MDL-1824 
Tri-State Water Rights Litigation, 644 F.3d 1160 (11th Cir. 2011). In 
response to that decision, the United States filed a legal opinion of 
the Chief Counsel of the Corps with the Eleventh Circuit on June 25, 
2012, regarding the authority of the Corps to accommodate water supply 
withdrawals at and below Lake Sidney Lanier under the Rivers and 
Harbors Act of 1946, Public Law No. 84-841 (July 30, 1956), and the 
Water Supply Act of 1958.
    On October 12, 2012, the Corps published a notice soliciting public 
comment on revising the scope of the EIS for the ACF water control 
manual update in light of these developments. The Corps published a 
revised, Final Updated Scoping Report in March 2013, providing notice 
that the Corps is evaluating additional water supply alternatives 
within the scope of the ACF water control manual update and EIS, 
including Georgia's updated request for water supply. The Corps has not 
yet decided on a proposed mode of ACF system operations. The proposed 
operations will be identified in the draft water control manuals and 
EIS. Those documents will be made available for public comment before 
any final decision is made on how the system should be operated.
    The ACF Water Control Manual update and EIS are being prepared in 
accordance with Corps regulations, National Environmental Policy Act 
(NEPA), and all applicable law. As part of this effort, the Corps will 
consult with other Federal agencies as required, including consultation 
with the U.S. Fish and Wildlife Service for consideration of impacts to 
threatened and endangered species. The draft water control manuals and 
EIS will be released for public review and comment in accordance with 
NEPA and requirements in Corps regulations. Similarly, the draft water 
control manuals and EIS will undergo quality control/quality assurance 
reviews to include agency technical review and independent external 
peer review.
    The Corps is currently in the technical analysis stage of the ACF 
manual update. We expect to reach the next major milestone in this 
process about two years from now, when we file a draft EIS with the 
Environmental Protection Agency (EPA) and release the draft water 
control manual and draft EIS for public review and comment.
    In summary, the purpose of the ACF manual update is to improve the 
information and guidance that the Corps uses to operate the Federal 
dams within the basin in accordance with applicable law. We operate 
these dams for the Congressionally authorized purposes as a system, and 
will continue to do so. The updates will take into account changes in 
basin hydrology and demands from years of growth and development, new/
rehabilitated structural features, legal requirements, and 
environmental issues. Throughout this process, the Corps encourages the 
active participation of all stakeholders, and the Corps will carefully 
consider all comments received.
    Mr. Chairman, Members of the Committee, this concludes my 
testimony. I look forward to continuing to work with the Committee on 
these very important issues and answering any questions you may have.
Figure 1. Apalachicola-Chattahoochee-Flint River Basin


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Nelson. We understand that, Colonel.
    Mr. Taylor, did you want to add anything right now?
    Colonel Taylor. No, sir. Thank you.
    Senator Nelson. OK. When we get into the questions, we want 
to get past the process and we want to get into some of the 
solutions.
    [Applause.]
    Senator Nelson. So we will get to you there.
    And now we want to hear from Mr. Jon Steverson, Executive 
Director of the Northwest Florida Water Management District.

              STATEMENT OF JONATHAN P. STEVERSON,

          EXECUTIVE DIRECTOR, NORTHWEST FLORIDA WATER

                      MANAGEMENT DISTRICT

    Mr. Steverson. Thank you, Chairman Nelson, Senator Rubio, 
and Representative Southerland. Thank you for holding this 
important hearing about the effects of water flows on 
Apalachicola Bay and the people here who depend on this system.
    I am Jon Steverson, Executive Director of the Northwest 
Florida Water Management District. And as one of five water 
management districts in the state, we are responsible for 
managing and protecting the groundwater and surface-water 
resources within this region. Under the leadership of Governor 
Scott, the district works closely with other state and local 
agencies to safeguard this historically vibrant and 
economically important system.
    I am here today to provide a brief overview on the 
Apalachicola River and Bay, the ongoing injury to each, and the 
important environmental and economic impacts.
    The Colonel has already described the size of the system 
and the 20,000 square miles where it meets the Florida line, 
but I would just like to emphasize that once it hits the 
Florida line, it runs unimpeded, no reservoirs, no dams, for 
106 miles into this bay.
    The river's floodplain ecosystem is the largest in Florida. 
It is rated among the top 10 biodiversity hotspots in the 
United States. And I reference numerous official designations 
in my written testimony that signify the importance of the 
system.
    I say all that to say this: It is a big deal. And we 
recognize that down here, and obviously you do, too, since you 
are here today, and we appreciate that.
    This complex and diverse ecosystem developed and flourished 
under unimpaired, natural flows from the Chattahoochee and 
Flint Rivers. These historic flows created and sustained river 
channel habitat, they maintained suitable salinity levels, and 
provided essential nutrients to the bay.
    The river is the main source of freshwater inflow to the 
bay and is the lifeblood of this extraordinarily dynamic 
system. The health and productivity of the bay is strongly 
influenced by the amount, the timing, and the duration of those 
freshwater inflows. It is vital that we restore, maintain, or 
at least mimic this historic flow pattern. Otherwise, this 
ecosystem and the way of life enjoyed by so many in this room 
will be lost.
    And, unfortunately, Florida cannot control the volume of 
water entering the state. The lack of water flowing in the 
river and ultimately to the bay is a direct result of upstream 
consumption and the Corps' reservoir operations.
    Since the 1970s, Georgia's consumption has significantly 
increased, so much so that it now uses more than 90 percent of 
the water withdrawn from the system. By comparison, Florida 
uses about 2.5 percent. The metro Atlanta area alone uses three 
times the amount of water for public supply than all 16 
counties and municipalities of the Florida panhandle combined.
    But it is not just Atlanta. We see this dominating use even 
when comparing agricultural withdrawals among the states. I 
included this one graphic in my testimony because it so clearly 
paints the picture of Georgia's approach to this whole 
situation. When you see the figure, Georgia had nearly 7,200 
center pivot irrigation systems in the basin, pumping hundreds 
of millions of gallons a day. The number of center pivots in 
southwest Georgia has continued to increase to an estimated 
9,200, compared to the 239 such systems in Florida.
    And there has been a little finger-pointing lately, saying, 
Florida, if you really care, you would do like we did, and we, 
Georgia, instituted a moratorium, no more center pivots. But, 
Senator Rubio, I know every now and then you just have to have 
a sip of water. And that would be kind of like you and I 
deciding to----
    Senator Rubio. Right now.
    [Laughter.]
    Mr. Steverson. --split this pitcher and you drink 90 
percent of the pitcher and leave me the backwash and say, ``You 
know what, Steverson? I think you ought not take the rest, 
because then we are going to be out of water.''
    [Laughter.]
    Mr. Steverson. It is just not workable.
    But even though we are only a drop in the bucket, we are 
still minimizing our consumption by implementing a series of 
conservation measures. We are employing the use of mobile 
irrigation labs. We are working with farmers to accomplish 
center pivot retrofits with low-flow nozzles. We are 
incentivizing sod-based crop rotation. Florida is doing its 
part. And all of these programs combined are expected to save 
nearly 9 million gallons per day of water used within the 
Florida portion of the basin.
    And not only are we reducing the quantity of what we use, 
we are working to improve the water quality of what we 
contribute to the river and bay. During the upcoming fiscal 
year, the district has committed $4.7 million to protecting and 
restoring this region. Two-point-five of that was proposed by 
Governor Scott and approved by the Florida legislature to be 
spent on projects right here in the city of Apalachicola for 
storm-water improvement of the quality of water flowing to the 
bay.
    But despite our best efforts, flows have been lower and low 
flows have occurred more frequently and for longer durations 
than any other time in recorded history. In fact, last year set 
a record for the least amount of water delivered to the bay 
since recordkeeping first began in 1923. However, this was not 
the year with the least amount of rainfall. In 2012, the bay 
experienced unprecedented damage to its oyster resource as a 
result of prolonged low-flow conditions.
    Now, the Corps operates Buford Dam in Lake Lanier, along 
with other dams and reservoirs, as an integral part of the ACF 
system. But since the 1970s, the Corps has entered numerous 
contracts with Georgia water suppliers to permit withdrawals 
from the system for municipal and industrial uses. In 1989, the 
Corps essentially began prioritizing reservoir operations in 
their draft water control plans for this ever-increasing water 
supply demand.
    These demands have been absorbed not from reservoir storage 
but entirely from downstream river flows. In other words, every 
acre-foot of water that Georgia wants is taken directly from 
the flows that would otherwise reach our bay. These practices 
continue to occur despite empirical evidence that such 
operations are devastating the bay and its oyster population.
    It is clear that the Apalachicola River needs more flow in 
order to help the bay recover from these devastating impacts we 
saw in 2012. The Corps can no longer assume that all needs can 
be met without proactively insisting on upstream conservation. 
Revision of their draft water control plan offers an 
opportunity to restructure the Corps' priority system to assign 
greater weight to downstream needs and strive to mimic historic 
flow patterns.
    And, Mr. Chairman, I know I am running over, but if I could 
make one more point, I would really appreciate it.
    Senator Nelson. Please.
    Mr. Steverson. I am sure you already knew or you now 
appreciate the number of local residents who make their living 
from the fishing industry here in some form or fashion. And 
oysters and other local seafood are the linchpin of this 
region's economic infrastructure. You have talked about the 90 
percent of Florida's oysters coming from right here. It also 
yielded Florida's third-largest shrimp harvest, and it 
supported an active recreational and commercial fishing 
industry.
    I want to be able--it is going to take a little time. I 
have been in this issue for over a decade but more directly 
responsible for a year now, and it is going to take a little 
time. But in 4 years from now, I want to be able to look in Mr. 
Hartsfield's eyes over there--you are going to hear from him 
later--and know that we made an impact, that we made a 
difference in their lives.
    And the bay's ability to continue providing these services 
is now uncertain. Let's change that.
    [Applause.]
    [The prepared statement of Mr. Steverson follows:]

   Prepared Statement of Jonathan P. Steverson,, Executive Director, 
              Northwest Florida Water Management District
    Senator Nelson, Senator Rubio and Representative Southerland, I am 
Jon Steverson, Executive Director of the Northwest Florida Water 
Management District. As one of five water management districts in 
Florida, the Northwest District is responsible for managing and 
protecting groundwater and surface water resources for both the 
citizens and natural resources of this region, including the 
Apalachicola River and Bay.
    Under the leadership of Governor Scott, the District continues to 
work in close coordination with other state and local agencies to 
provide technical support and expertise to ensure the protection of the 
Apalachicola-Chattahoochee-Flint (also known as ACF) River System.
    I would first like to thank you for holding this important hearing 
about the effects of water flows on Apalachicola River and Bay system. 
On behalf of the District and the many partners we work with to protect 
this important water body, I am here today to provide a brief overview 
on the Apalachicola River and Bay, the ongoing injury to each, and the 
important economic and environmental impacts.
Introduction and Summary
    This testimony is intended to provide the Committee with 
information on the effect of reduced freshwater inflows into the 
Apalachicola River and Bay systems in Florida. These fragile systems 
support a unique, historically vibrant and economically important 
culture that relies first and foremost on the health of its fisheries, 
particularly the Eastern oyster. The Apalachicola region and its 
economy continue to be damaged by ever increasing consumptive uses in 
Georgia, which were too easily allowed by the U.S. Army Corps of 
Engineers' previous water management decisions. We believe Georgia 
needs to responsibly reduce and manage its continuously growing 
consumption of water, and also that the Corps should ensure that 
Georgia engages in meaningful conservation when updating its master 
control manual for the ACF system.
Background on the Resource
    To provide a little background, the ACF River Basin covers about 
20,000 square miles, most of which is located in Georgia. The 
Chattahoochee and Flint Rivers both originate in north Georgia, flow 
south and join in Lake Seminole at the Florida-Georgia line to form the 
Apalachicola River, which runs unimpeded for 106 miles into the bay. 
The Apalachicola River's floodplain ecosystem is the largest in Florida 
and includes over 200 miles of off-channel floodplain, sloughs and 
streams. Its nontidal floodplain forest exceeds 82,000 acres and is 
rated among the top 10 biodiversity ``hot spots'' in the United States. 
Hundreds of thousands of acres adjacent to the river and bay have been 
acquired by federal, state, local and private entities to protect this 
unique environment.
    Apalachicola Bay has been one of the most productive estuarine 
systems in the northern hemisphere and an exceptionally important 
nursery area for the Gulf of Mexico. Because of its uniqueness, several 
designations have been granted, signifying the importance of the 
system. In 1969, the Florida Governor and Cabinet designated 80,000 
acres of sovereignty submerged lands as the Apalachicola Bay Aquatic 
Preserve, and designated the river as an Outstanding Florida Water in 
1983. The Apalachicola Bay is also home to the Apalachicola National 
Estuarine Research Reserve, which is one of only 27 sites so designated 
by the National Oceanic and Atmospheric Administration (NOAA). It 
encompasses more than 193,000 acres of land and water and is the 
largest of all such reserves in the country.
    The complex and diverse ecosystem of the Apalachicola River Basin 
and Bay developed and flourished under unimpaired, natural flows from 
the Chattahoochee and Flint Rivers. These historic flows created and 
sustained river channel habitat, interconnected floodplain channels, 
maintained an appropriate salinity level, and provided essential 
nutrients to the bay.
    The City of Apalachicola and broader Franklin County support many 
commercial seafood harvesters, processors and dealers whose work 
contributes substantially to the productivity of the region. The vast 
majority of local residents make their living from the fishing 
industry, directly or indirectly. Oysters and other local seafood are 
the lynchpin of the region's economic infrastructure. Historically, 
Apalachicola Bay provided approximately 90 percent of Florida's oyster 
harvest (and 10 percent of the national harvest), supported an active 
recreational and commercial fishing industry, served as an important 
nursery area for many marine species, and yielded Florida its third 
largest shrimp harvest. The bay's ability to continue providing these 
services is now uncertain.
    The river and bay ecosystem, as well as the men and women of this 
region, depend on timely freshwater flows to remain healthy and 
productive. The Apalachicola River is the main source of freshwater 
inflow to the bay. That freshwater flow regulates salinity in the bay 
in a way that maintains the biological integrity of a variety of 
sensitive species and habitats that are both ecologically and 
economically important. Equally significant is the fact that the 
Apalachicola River discharges nutrient-rich water into the bay, which 
provides the building blocks of the bay's food web.
    In these ways, the river is the lifeblood of this extraordinarily 
productive estuarine system, which sustains oyster harvesting, 
shrimping, crabbing and fishing. The health and productivity of the bay 
is strongly influenced by the amount, timing, and duration of the 
freshwater inflow from the Apalachicola River. It is vital that we 
restore and maintain this historic flow pattern. Otherwise, this 
ecosystem and this way of life for generations of Floridians will be 
lost.
Adverse Impacts
    Unfortunately, Florida cannot control the volume of water entering 
the State. The region's destiny is subject to upstream influences that 
have undermined the foundation of the area. The amount of water flowing 
in the river and ultimately to Apalachicola Bay is a direct result of 
Georgia's consumption upstream on the Chattahoochee and Flint Rivers 
and the Corps' reservoir operations on the Chattahoochee.
    Since the 1970s, Georgia's consumption has significantly increased; 
so much such that it now uses more than 90 percent of the water 
withdrawn from the system. By comparison, Florida uses about 2.5 
percent. The metro Atlanta area alone uses three times the amount of 
water for public supply than all 16 counties and municipalities of the 
Florida Panhandle combined.
    Georgia's continuously growing consumption expands beyond the metro 
Atlanta area. Another example of this dominating use can be seen by 
comparing the agricultural withdrawals among the states. As shown in 
the attached figure (Fig. 1), in 2005, Georgia had nearly 7,200 center 
pivot irrigation systems, pumping hundreds of million gallons of day, 
on fields in the lower Flint and Chattahoochee basins. The number of 
center pivots in Southwest Georgia has continued to increase to an 
estimated 9,200 today, compared to 239 such systems in the Florida 
portion of the system.
    Even though Florida's consumption in the basin is only a tiny 
portion of what is used upstream, we are still minimizing our use by 
implementing a series of conservation measures. This includes working 
with farmers within the basin to retrofit agricultural irrigation 
systems for more efficient delivery, as well as introducing incentives 
for sod-based crop rotation. This year the District will receive State 
Appropriations to provide additional retrofits within the basin which, 
combined with programs already in place, is expected to save nearly 9 
million gallons per day of water used within the Basin.
    At the same time we continue to reduce our already small 
consumption within the basin, Florida also continues to work to improve 
the water quality within the river and bay. During the upcoming Fiscal 
Year, the District has committed $4.7 million to protecting and 
restoring the Apalachicola River and Bay, including $3 million in 
funding proposed by Governor Scott and approved by the Florida 
Legislature. This includes $2.5 million in cooperative funding 
assistance to the City of Apalachicola to provide stormwater treatment 
and improve the quality of water flowing into the river and bay.
    Despite our best efforts, Apalachicola River flows have been lower 
and low flows have occurred more frequently and for longer durations 
than any other time in recorded history. The problem has grown more 
dire during the last 10 years, and is creating long-lasting impacts to 
the river and bay. In 2012, Florida experienced widespread damage to 
its oyster resource as a result of two years of prolonged low-flow 
conditions. In fact, last year set a record for the least amount of 
water delivered to the bay since record-keeping first began in 1923, 
although this was not the year with the least amount of rainfall. The 
corresponding reduction in freshwater inflow raised salinity levels in 
the bay well above tolerable thresholds, and the continued lack of 
inflow precluded any opportunity to reduce salinity levels. It is well 
documented that elevated salinity levels lead to increased oyster 
mortality through disease and predation.
    State agencies and local fisherman have documented a severe decline 
in the oyster harvests. Drastic declines in all age classes of oysters 
suggest that a collapse of the fishery has indeed occurred. The latest 
state agency reports reveal that oyster production estimates on 
commercially important oyster reefs are the lowest in the past 20 
years. The data suggests that many of the reefs have too few oysters to 
support commercial harvesting, devastating the livelihoods of the men 
and women who make their living harvesting, processing or selling 
oysters on Florida's Gulf Coast.
    As a result, Governor Rick Scott requested the Secretary of the 
U.S. Department of Commerce declare a commercial fishery failure for 
Florida's oyster harvesting areas in the Gulf of Mexico, pursuant to 
Section 312 (a) of the Magnuson-Stevens Fishery Management and 
Conservation Act.
Moving Forward
    The Corps operates Buford Dam and Lake Lanier, along with the other 
downstream dams and reservoirs, as an integral part of the ACF system. 
Since the 1970s, the Corps has entered numerous contracts with Georgia 
water suppliers to permit withdrawals from the system for municipal and 
industrial uses. In 1989, pursuant to the Draft Water Control Plan, the 
Corps essentially began prioritizing reservoir operations to support 
this water supply demand, which has increased dramatically over time. 
Under the Corps' present operating schedule, each new demand placed on 
the system upstream is absorbed, not from reservoir storage, but 
entirely from downstream river flows. In other words, every acre-foot 
of water that Georgia wants is taken directly from flows that would 
otherwise reach Alabama and Florida. These practices have deprived 
downstream interests of basic river flow needs, despite the empirical 
evidence that such operations are devastating Apalachicola Bay and its 
oyster population.
    It is clear that the Apalachicola River needs more flow to help 
recover from the devastating oyster mortality that occurred in the bay 
in 2012, as well as the massive die-offs of endangered mussels, decline 
in fisheries, and drying of the floodplain forest that have occurred in 
recent years. The Corps can no longer assume that all needs can be met 
without proactively insisting on upstream conservation. At a minimum, 
the Corps should mandate that Georgia develop strict conservation 
measures as a condition to entertaining any further withdrawals from 
the ACF system. The Corps' current efforts to revise their Draft Water 
Control Plan offers an opportunity to restructure the priority system 
they use in existing operations to assign greater weight to downstream 
needs and strive to mimic historic flow patterns.
    Thank you for the chance to talk to you today about one of 
Florida's most precious resources, the Apalachicola River and Bay.
Figure 1--Center Pivot Irrigation Systems in the ACF Basin


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Nelson. Thank you, Mr. Steverson.
    Senator Rubio, your questions.
    Senator Rubio. Thank you.
    Let me start with Ms. Menashes.
    I just wanted to get your sense of, once a disaster is 
declared, how is the amount of money necessary to mitigate it, 
how is that determined? What is the process for that?
    Ms. Menashes. We generally work with the state or the 
affected communities, primarily through the state, to identify 
the resources that they would need to address the issue. The 
report from the state did identify revenue impacts; however, 
that is only one part of what the requester may be looking for 
to support both addressing social and economic impacts as well 
as addressing the underlying cause of the disaster.
    Disaster funds have been used for a wide variety of 
activities in the past: direct assistance to fishermen, to 
fishing communities, but also things like oyster restoration, 
research, monitoring, and those kinds of activities. So we 
would really turn to the state to work with the state on 
identifying the activities that are important for them to 
address the issue.
    Senator Rubio. Again, so the funding is ultimately designed 
to mitigate in the short term the damage being done, but it 
doesn't take away the need to find a long-term solution to the 
problem.
    Ms. Menashes. Correct.
    Senator Rubio. Mr. Steverson, I was hoping you could 
elaborate a little bit more, give you a little bit more time to 
talk about the actions that you are taking to help mitigate the 
low flows into the bay. Is there any more we can be doing as a 
state with regards to that?
    Mr. Steverson. Sure. Thank you for the question, Senator.
    And I think on the--because we only control south of the 
line. Like I said, we are working with the farmers in that 
basin. And the agricultural basin is a very fertile, productive 
piece of ground. But we are doing center pivot retrofits. We 
are using mobile irrigation labs to help these guys actually 
determine, I can get by with only this much water. And not only 
does it save the water supply, it saves the farmers money, as 
well, on their pumping costs.
    We have very, very little withdrawal from the river at all. 
And like I said, it flows unimpeded--no reservoirs, no dams, 
you know, the way God made it--down. And I don't know what the 
people of Florida can do to change, but I know what the people 
of Georgia can do to implement some upstream conservation and 
do the measures that we are working hard on down here. And I 
think it is just so often an afterthought, and, you know, the 
people of Georgia can do a little bit less with their water.
    If those low flows are--we are getting low flows, but if 
their water is low up there, that means they can't ride their 
favorite jet ski into their favorite little cove or they can't 
tie off their boat to the dock. For here, it means these guys 
can't make a living. And so we have got to focus on that 
upstream conservation.
    [Applause.]
    Senator Rubio. Taking off on that, Colonel Chytka, my 
understanding is that navigation is one of the authorized uses 
within the basin. Can you speak to how you plan to emphasize 
navigation in the operational manual and what, if any, impacts 
this emphasis is going to have on the bay?
    Colonel Chytka. Thank you for the question, Senator.
    Yes, navigation is an authorized purpose for the ACF 
system. Currently, we are in the process of drafting 
alternatives as a part of our Water Control Manual update. 
Since navigation is that authorized purpose, we will attempt in 
some level to support navigation within the limits of the 
available water and the ability for us to dredge the system. 
Currently, we don't have that ability to dredge, so currently 
the navigational support that we will provide will be during 
the nature's normal, what it provides for high flows.
    As for the impacts on the navigational operations, that 
hasn't been determined because it is a part of the process. And 
I know you didn't want to hear that, Senator Nelson, but it is 
what we have to look at as a part of that impact.
    Senator Rubio. About the environmental impact statement 
that you are going to be conducting, are you required to take 
into account the impacts that any water management is going to 
have on the oyster fisheries in the bay?
    Colonel Chytka. It hasn't been determined exactly what that 
analysis will bring. As the NEPA process, there are a number of 
stakeholders that put information in, and we have gotten a lot 
of comments in our scoping period from Franklin County, and we 
are considering that in that process. If any analysis is out 
there, the best science, we will be putting that into the NEPA 
process and the EIS.
    Senator Rubio. Do you know how much more water Georgia has 
requested? And when you consider that request, how do you 
account for the impact that any additional withdrawal is going 
to have on the entire water system?
    Colonel Chytka. In January of 2013, Georgia did have a 
water supply request. That request included two things: a 
direct withdrawal from Lake Lanier for 297 million gallons per 
day and downstream withdrawals for the Chattahoochee River, 
located in the City of Atlanta, for 408 million gallons per 
day.
    The way we are including that, we are using our modeling 
techniques. And as a part of the EIS process, we will determine 
and evaluate those impacts on the entire ACF.
    Senator Rubio. Well, as you work on the operation manual, 
do you plan to emphasize water conservation?
    Colonel Chytka. Water conservation is a key principle for 
how we manage and operate the reservoir, the dam system, the 
Federal projects. So for us, yes. But we do not have the 
authorities to impose conservation on Florida, Alabama, or 
Georgia. It is not in our authorities.
    Senator Rubio. Well, my last question is, why does the 
process of drafting an environmental impact statement take so 
long? And are there any plans to expedite that?
    Colonel Chytka. Different projects--NEPA, the Natural 
Environmental Protection Act, the environmental impact 
statement for that varies, the timeline varies based on the 
project, the purpose, and oftentimes takes many years.
    In this specific case, the ACF's EIS has been delayed, and 
you all know better than me how much litigation has been going 
on. But that was delayed for that litigation. And then on top 
of that, there were decisions--since we follow the law, there 
were decisions made in the interpretation of that law on how we 
needed to look at that law and interpret that law.
    With that, we went back--so we started the process in 2008. 
We did a rescoping in 2009. We did another rescoping based on 
the Eleventh Circuit's interpretation of the laws in 2012. That 
gave the opportunity to the public and stakeholders to provide 
additional comments, of which we have a lot. We have 3,621 
comments from over 900 entities, so we have a lot of comments. 
All of that went into our scoping report, which we published in 
March of 2013.
    So that is the timeline. We are looking at doing a draft 
EIS. Summer of 2015, we will have that for the public review by 
that time, and we will collect the comments again. And then we 
will go out for our final--we are looking at doing our final 
EIS early 2016.
    And with all of that--that is a lot of stuff, but the 
reason that we don't think we can expedite it is because of the 
technical complexities. And there are more complexities in 
technical. But that is the real reason we don't think we can 
expedite it.
    Senator Rubio. Thank you.
    Senator Nelson. Colonel, anything that needs to be 
expedited can be expedited. And let's just----
    [Applause.]
    Senator Nelson. Hold the response.
    You are at a disadvantage here because you are right here 
just 13 days on the job. You have Mr. Pete Taylor with you.
    And I want you to know that I have talked to the generals 
not only at the Atlanta Corps office but also all the way up, 
the commanding general of the U.S. Army Corps of Engineers. And 
we got a good ruling at the Federal district court level, and 
then when it went up to the Court of Appeals, they seemingly 
reversed that. But what they did was send it back to the Corps 
to do this update of the water manual.
    Now, it is clear what is happening. And we have had the 
testimony here. That chart is very clear. But there have also 
been the water management practices by Georgia as compared to 
Florida. We passed in 1972 the Water Management Districts Act 
in Florida, and ever since there has been regulation of 
consumption of water; 1972, in the state of Florida, the 
legislature passed that.
    A lot of Georgia's consumption has not been regulated, and 
whether it is now, I simply don't know. And as you testified, 
the Corps under the law has to look to the regulation by the 
states of water consumption.
    But when it becomes a matter of water flowing in a waterway 
that is basically being dammed up, then it is a different 
issue. And that is what you all can address administratively in 
this Water Control Manual that you are updating.
    So, for example, in the update, do you take into 
consideration the lost income to the commercial fishermen as 
well as the lost income to the recreational industry?
    Colonel Chytka. I will start, and I will let Pete add on to 
it.
    In the process, we consider anything that people provide us 
during those periods--the draft EIS, the scoping--that is 
provided to us. We consider it, and we address it.
    With that being said, when we operate the actual ACF 
system, there are congressional authorized purposes. And those 
are the things that we have to balance in a prudent way in 
order to make the system function as it was designed.
    Pete, do you want to add?
    Colonel Taylor. Sir, I would echo what Colonel Chytka said, 
that we will develop our operations based on the authorized 
purposes that we have for the project. Apalachicola Bay is not 
part of the Federal project and it is not one of our authorized 
purposes, so we won't develop an operation to accommodate the 
bay specifically. But, clearly, we recognize that releases from 
our projects flow into the bay and have an impact on the bay.
    Senator Nelson. Do you consider lost income of anybody else 
along the river system?
    Colonel Taylor. Sir, to the extent that our operations 
impact something, then we have to consider that in our 
environmental impact statement.
    Senator Nelson. So the answer is ``yes''?
    Colonel Taylor. Sir, I can't give you a definite ``yes'' or 
``no.'' It depends on if our----
    [Laughter.]
    Colonel Taylor. If our operations create an impact, then we 
have to discuss it in our EIS.
    Senator Nelson. Let me ask you this. In your updating of 
the manual, do you assess the freshwater flows that are needed 
to maintain a healthy fish and wildlife population down the 
river?
    Colonel Taylor. Again, Senator, as a part of the ACF, fish 
and wildlife is a part of the authorized purpose. The way we 
work is we work in consult with Fish and Wildlife specifically 
on threatened, endangered species. And so we have flows that 
are required from us in order to meet those requirements.
    Again, it is about following the law. And that is what we 
have to do to fulfill that statute.
    Senator Nelson. So you would consider the Endangered 
Species Act?
    Colonel Taylor. Yes, Senator.
    Colonel Chytka. Senator, yes. Fish and wildlife is an 
authorized purpose for the ACF project. And we work to 
accomplish that through our coordination and consultation with 
the Fish and Wildlife Service, both through the requirements of 
the Endangered Species Act as well as the Fish and Wildlife 
Coordination Act.
    Senator Nelson. Would oysters in Apalachicola be considered 
an endangered species?
    Colonel Chytka. Sir, to my knowledge, they are not 
endangered species, as listed by the Fish and Wildlife Service.
    Senator Nelson. How about some of the fish up the 
Apalachicola?
    Colonel Chytka. Sir, currently we have operations from our 
lowest project on the system, the Jim Woodruff Dam, for the 
protection of threatened/endangered species and habitat. And 
there are three species of mussel and the gulf sturgeon that we 
specifically have to release the water to protect them.
    Senator Nelson. And when you said the mussels, does that 
include the endangered species that I think of as a kind of 
snail in the Apalachicola?
    Colonel Chytka. Yes, sir. Yes, Senator.
    Senator Nelson. So give us an example, then, where you say 
that you have to consider that, then the fact that there is 
less freshwater flowing south, what do you do about that if 
this species is threatened?
    Colonel Chytka. Sir, we have been through several rounds of 
consultation with the Fish and Wildlife Service to develop 
procedures to protect threatened/endangered species in our 
habitat. Those consultations have resulted in minimum flows 
that we have to meet on the Apalachicola River.
    Those flows vary depending on the time of year and how much 
water is coming into the system and how rapidly the river rises 
and falls, et cetera. There are many times during the year, 
particularly during droughts, when we don't receive sufficient 
inflows, basin inflow to the system, to meet those 
requirements.
    And so what happens is we call upon the system, we use our 
storage from the system to meet those minimum flows. So those 
flows are higher than what would have been there were it not 
for our releases.
    Senator Nelson. Would those times of drought mandate that 
you start releasing water at Lake Lanier so that you have 
greater flows downstream?
    Colonel Chytka. Sir, we operate the entire ACF system, all 
those projects, as a system.
    Lake Lanier contains probably 60-plus percent of all the 
stores in the system. It is a large reservoir with a very small 
watershed that fills it. So when we do need to make releases, 
as I just described, yes, it would typically start at Lanier 
and then work its way through the system down to Jim Woodruff 
Dam, then the Apalachicola.
    Senator Nelson. When you have the unanimous elected 
officials, both Federal and State, of two states that are 
requesting of you to update this Water Control Manual so that 
adequate flows are flowing south, what is it going to take for 
you all to get it done quickly and to take into consideration 
the need of water flowing south?
    Colonel Chytka. Senator, as we are going through the Water 
Control Manual process, including the EIS, we really have to 
look at the law and what the purposes of the project were 
intended to do. And there are some locations that Peter has 
already mentioned that we have mandatory requirements for 
release.
    With that being said, there are multiple benefits to 
release for multiple purposes. But the Corps of Engineers, we 
have to follow the law. And so we will, in consultation with 
our other agencies, during this EIS process, take a lot of 
different considerations and comments in effect as well as from 
our public and from our stakeholders.
    But in that whole process--and then I will let Pete add to 
it--we are going to be following the law. So if there is no 
requirement for a flow based on the purpose of the project and 
if it is not within the boundaries of the ACF system, you know, 
we will be considering it, but we have to go back to what the 
law permits us.
    Colonel Taylor. Senator, what I would add to Colonel 
Chytka's statement is that, he mentioned earlier how 
technically complex this is and how much input we received. We 
have received proposals from many different entities from 
throughout the basin on not only what they would like to see, 
how they would like us to operate.
    And we have received proposals from Florida and from the 
Fish and Wildlife Service that I know our team is looking at 
that do include more flows than currently occur. And we are 
looking and considering those as part of this process.
    Senator Nelson. Colonel, again, you are at a disadvantage 
because you are here.
    [Laughter.]
    Senator Nelson. As a matter of fact, what--and I am going 
to try to find out why they sent you. Why didn't they send the 
generals that I have been talking to?
    [Applause.]
    Senator Nelson. I don't want to put you on the hot seat, 
but I want you to take this message back: that this is the kind 
of stuff that we have been hearing for years as we have been 
trying to solve this problem.
    And, please, if you all will not react on this, but I want 
the Corps of Engineers at the Mobile, Alabama, office level to 
understand how serious this matter is.
    And you will hear the testimony in the third panel--and I 
am making the assumption that you all are going to stay to 
hear----
    Colonel Chytka. Yes, sir.
    Senator Nelson.--the third panel--that this is a dire 
situation which has been going on for years. And I mentioned 
that it has been going on since Governor Bob Graham was 
Governor, back in 1978 to 1986. And it still hasn't been 
resolved.
    And then when you get it exacerbated, as you all have 
testified, as the Congressman has testified, in times of 
drought and they are sucking more water out of the water table 
that would be going into the Flint River that flows in and 
joins the Chattahoochee to make the Apalachicola, then it is 
turning it into really a difficult situation that has to be 
corrected.
    And we thought we were on the way when we had the Federal 
district court decision. Then it goes up to the Court of 
Appeals in Atlanta, and that gets reversed and is basically 
kicked back to you.
    Now, if it is going to get solved, you all are going to 
have to do it, or else we have to amend the law. But you 
understand what we have to deal with, with the ability of the 
Georgia delegation to filibuster.
    Now, let me get to you, Ms. Menashes. You described the 
process. I talked to Secretary Pritzker this morning. Do you 
have any idea of a dollar figure on the disaster declaration?
    Ms. Menashes. I don't have that information. I do have 
estimates from the report that Florida submitted to us, where 
they talked about the estimates in the first----
    Senator Nelson. And what is that?
    Ms. Menashes. I believe it was--well, it was a 44 percent 
revenue decline from the recent historical average. I know that 
the revenue for the fishery over all 3 years is generally 
around $7 million.
    But as I mentioned before, the funding that would be 
appropriated for a disaster relief can go to those direct 
revenue impacts, but it is also authorized under the 
legislation to deal with some of the underlying causes and some 
wider impacts to the communities and other activities that the 
state may want to do to address the issue.
    And so I don't have that information about the cost of 
other activities the state may want to do that they would be 
authorized to spend under the Magnuson-Stevens Act or the 
Interjurisdictional Fisheries Act.
    Senator Nelson. Do you remember what the state request was 
in dollar figures?
    Ms. Menashes. I don't off the top of my head, I am sorry.
    Senator Nelson. Do you, Mr. Steverson? Do you know?
    Mr. Steverson. No, sir, I am sorry.
    Senator Nelson. What is the eligibility for the use of 
funds? For example, an economic loss to a number of these 
fishermen, is that a permitted use?
    Ms. Menashes. Yes. In general, the Magnuson-Stevens Act 
talks about funding going to assessing economic and social 
effects, activities to restore and prevent the failure in the 
future, so addressing some of the underlying cause, and also 
assistance to fishermen and fishing communities.
    So it is a very broad set of activities that could be 
funded. And we see variation among different disasters about 
how those funds are used and what the requester thinks is a 
priority for funding.
    Senator Nelson. Would that include economic development of 
the area?
    Ms. Menashes. Yes, economic development has been funded. 
Community assessment, community impact activities have been 
funded in the past.
    Senator Nelson. And it would certainly include re-
establishing the oyster-harvesting areas?
    Ms. Menashes. Yes. We often see funding going to 
restoration activities and similar types of efforts.
    Senator Nelson. Now, this declaration is not just limited 
to the Apalachicola Bay?
    Ms. Menashes. Correct. It is the west coast of Florida. The 
primary impacts that were documented in Florida's report are in 
Apalachicola Bay. That is where the majority of the oyster 
fishing occurs. But, no, the disaster extends to the west coast 
of Florida or in the Gulf.
    Senator Rubio. Yes, I guess the----
    Senator Nelson. Senator Rubio?
    Senator Rubio.--only point I would make, and I don't think 
you would disagree, nor would you, Senator Nelson, is I think 
it is fantastic if we could find funding to help people who are 
suffering to, you know, overcome the short--and midterm burdens 
and what all that means, but ultimately they want to stay in 
this business. I mean, this is a business. They want to do 
this. It is what their families have done; it is what the 
community is grounded on.
    And at the end of the day, unless we fix this water 
problem, this funding isn't going to solve that. I mean, the 
point I want to drive is, I don't want anybody to fall into the 
trap of believing that the money that we are going to gather 
here, if we are able to put it together, solves the problem. 
Because there is a nature in politics and in Washington to say, 
oh, we got some money for it, it is done, we can move on.
    That is going to help people that are hurting to survive, 
but in order to maintain themselves and get ahead, ultimately 
this water issue has to be solved irrespective of what happens. 
I hope the money comes, and we are going to work hard to make 
that happen. But beyond that, what I want to make clear is it 
is not enough; we can't stop there.
    And I think that is important. I just don't want a lot of 
celebration only on the relief side of it and the front end and 
then forgetting that we still have this major--the long-term 
issue remains the water flow issue. And this doesn't 
necessarily solve that.
    Ms. Menashes. Correct.
    Senator Nelson. Ms. Menashes, does this include disaster 
relief for other fish populations that are fished in the area?
    Ms. Menashes. This determination is focused on the oyster 
fishery. That is what the state requested, and that was what we 
analyzed. Certainly, if there was additional information and 
the state wanted to broaden that request, we could look at 
whether some of those other fisheries would be included.
    Senator Nelson. Mr. Steverson, do you have anything to add?
    Mr. Steverson. Yes, sir, Mr. Chairman. We hear the Corps 
talk a lot about, ``We want to operate the way the system is 
designed.'' And I guess my issue with that is it was designed 
either by our Creator or Mother Nature or spontaneous 
combustion, whatever you choose to believe, to deliver 
freshwater down to this gulf and this bay and create that 
vibrant ecosystem that lived there.
    And we talk about, ``Well, we want Georgia to do 
conservation, but the law doesn't allow us to enforce Georgia 
to do conservation.'' But I believe, and they can correct me if 
I am wrong, it is either a policy or a rule, when they mention 
basin inflows. We want to see the true basin inflow.
    Right now, my understanding is the Corps measures the 
amount after they already take out the withdrawals from 
Georgia. So Georgia is getting its piece first before we even 
look at what we are releasing and sending on down. We want a 
calculation of true basin inflows to give us the amount that is 
actually hitting the system and send that down to us first.
    Senator Rubio. Just so I understand, so----
    [Applause.]
    Senator Rubio.--the best way to describe it in layman terms 
to our colleagues is what we want is basically to take a count 
of the volume and then basically have a system of fairness that 
would apportion it across the states that use it. What we have 
now is Georgia gets the first cut and we basically get whatever 
is left over.
    Mr. Steverson. Right. So the good Lord giveth, and Georgia 
and the Corps taketh away. And that gives the system----
    [Laughter.]
    [Applause.]
    Mr. Steverson. We need that.
    Senator Nelson. Senator Rubio, any further questions?
    Senator Rubio. No.
    Senator Nelson. OK.
    Colonel, we are not picking on you. And we want you to know 
we appreciate your service. And if you are like a lot of the 
other Colonels in the Army Corps, you not only have served 
stateside but you have probably served in Iraq and/or 
Afghanistan, as well. And we want you to know how much we 
appreciate that.
    [Applause.]
    Senator Nelson. Now, I want you and Mr. Taylor to take back 
the message. First of all, the two Senators here who have been 
working on this for a very long time, we continue to get the 
same kind of answer, and it doesn't solve the problem. We have 
a problem, and it is in desperate need of a solution.
    If you say that the law absolutely prohibits you, then why 
didn't the court say that? The Corps sent it back to the local 
district court and said to the Corps of Engineers, ``Update the 
Water Manual. You have flexibility.''
    And so we are going to insist, because you can't let this 
situation continue, we are going to insist that you do. Now, 
the easy way to do it is administratively as you all are 
updating the water manual.
    So, again, all of you in public service, you are public 
servants we appreciate very much.
    Senator Rubio, if you don't have any further questions, 
then I will dismiss you all and ask for the third panel to 
please come up.
    Mr. Hartsfield, I owe you an apology. You were listed on 
the official agenda as ``Ms. Shannon Hartsfield.'' Is your 
first name Shannon?
    Mr. Hartsfield. Yes, sir.
    Senator Nelson. Well, that is probably not the first time--
--
    Mr. Hartsfield. No, sir.
    Senator Nelson.--that that has been referred to.
    All right, on panel three--and Senator Rubio will be right 
back--we have Mr. Dan Tonsmeire. He is Executive Director and 
Riverkeeper of the Apalachicola River. We have Mr. Shannon 
Hartsfield, President of Franklin County Seafood Workers. And 
then we have Dr. Karl Havens, Director of the Florida Sea Grant 
College Program. And he is a Professor, School of Forest 
Resources and Conservation, Institute of Food and Agricultural 
Services, IFAS, at the University of Florida.
    We are glad to have you.
    And who is the gentleman with you, Mr. Tonsmeire?
    Mr. Banks. I am with the Franklin County Seafood Workers 
Association. I am the Vice President, Ricky Banks.
    Senator Nelson. And so you are assisting Mr. Hartsfield?
    Mr. Banks. I am assisting the Seafood Workers and Shannon.
    Senator Nelson. OK.
    Do we have him on the schedule?
    Staff. We do not, but Mr. Bank's testimony will be 
reflected in the hearing record.
    Senator Nelson. OK.
    Mr. Banks. Thank you.
    Senator Nelson. Would you introduce yourself?
    Mr. Banks. Ricky Banks, Vice President of the Franklin 
County Seafood Workers Association.
    Senator Nelson. OK, we will show the agenda so amended.
    So we will hear first from, in the order that I mentioned, 
Mr. Dan Tonsmeire.
    All right, your written statement will be issued in the 
record, and if you will summarize your remarks in about 5 
minutes so we can get into questions.
    Mr. Tonsmeire?

STATEMENT OF DAN TONSMEIRE, EXECUTIVE DIRECTOR AND RIVERKEEPER, 
                    APALACHICOLA RIVERKEEPER

    Mr. Tonsmeire. Thank you, Senators.
    Apalachicola Riverkeeper appreciates the opportunity to 
offer our views on the importance of Commerce enacting 
legislation to require the Corps of Engineers to manage the ACF 
system to ensure that Apalachicola River and Bay receive the 
freshwater flows needed to support healthy populations of fish 
and wildlife in a vibrant resource-based economy.
    Apalachicola Bay is one of the most productive estuaries in 
the Northern Hemisphere. The river flows that nourish the bay 
also provide 35 percent of the freshwater flows to the eastern 
Gulf of Mexico and is a driver of the productivity of the 
fisheries over 250 miles out into the gulf.
    Analysis of a 2011 NOAA report on the value of gulf 
fisheries found that commercial and recreational wild-caught 
fisheries create $5.6 billion in sales revenues and support 
55,000 jobs in west Florida. Because of these characteristics 
and high value, the bay has international, national, and state 
designations that are intended to highlight and protect its 
unique and special place in our nation and state.
    The collapse that will be described by Dr. Havens last 
summer heralds the beginning of the end of this last great bay 
and national treasure. During the past 30 years, Florida has 
suffered a 30 to 40 percent decline in the spring and summer 
flows during dry and drought times.
    At the most critical time of year for reproduction and 
productivity of the Apalachicola River floodplain and bay, the 
Corps' management and the needs of upstream users are taking a 
heavy toll on the volume and timing of flows to the 
Apalachicola.
    Over the past 30 years of litigation and state 
negotiations, an entire generation of fishermen have seen their 
livelihoods dwindle to unsustainable levels at the same time 
upstream users have reaped the benefits of the waters of the 
ACF system.
    During this 30 years, great efforts by Florida's 
congressional delegation attempted to restore Florida's right 
to our water, a right that has been lost when Congress gave the 
Corps of Engineers authority to manage the ACF system to 
benefit upstream states without consideration of Floridians.
    As the Colonel stated, after three scoping opportunities 
for the current Water Control Manual EIS and repeated comments 
from stakeholders and congressional delegates, the Corps 
continues to state that the ongoing update will essentially 
validate the current operating plan, which provides minimum 
flow target releases to the Apalachicola for endangered 
species.
    Apalachicola Riverkeeper, the SMARRT group, National 
Wildlife Federation, Florida Wildlife Federation, and many 
others see only one way to change the Corps' dynamic: Congress 
must require in very specific terms that the Corps of Engineers 
manage the ACF projects to ensure that Florida receives the 
water it so desperately needs to sustain the river and bay.
    The freshwater flows provision in S. 601, developed and 
filed by you, Senator Nelson, would provide clear direction and 
ensure that the best available science is used to determine the 
amount, timing, and duration of the needed flows. The 
freshwater flows provision was not adopted by the Senate 
committee, in part because it was not supported by committee 
member Senator Sessions of Alabama. Additional language was 
developed to help address his concerns by providing benefits to 
users on the Chattahoochee River and ensuring that the Corps 
does not impose an unfair burden on Alabama. That revised 
language is attached at the end of my testimony.
    While Alabama offered no opposition to this revised 
language, they also were not willing to support it. Instead, 
Alabama opted to focus on legislation that would stop the Corps 
from giving favorable treatment to Georgia. Their proposed 
language would not change the status quo for Florida and would 
not require the Corps to send more water to Florida.
    All three states have been driven by litigation for so long 
it appears to be impossible for them to think outside the 
litigation box. After 30 years of disagreement and failed 
attempts, it is clear to us that the states are not prepared to 
enter into and/or are not seriously considering entering into 
meaningful compact negotiations.
    Working in the collaborative dimension offers opportunity 
for forward movement and resolution, but it is apparent that 
the playing field must be leveled by Congress to induce the 
states to negotiate in good faith and create the possibility 
that negotiations or compact discussions could be productive in 
achieving the equitable sharing of water.
    The most important aspect of the freshwater flows language 
is it restored the rights of Floridians to water that their 
very survival depends on. Our future lies in Representative 
Southerland overcoming the politics and including the 
freshwater flows language in the House WRDA bill and in our 
entire Florida delegation working to ensure its passage into 
law.
    Our community cannot wait for yet another WRDA, another 
Water Control Manual, or another lawsuit. We desperately need 
Congress to take this action now, not after our fisheries, 
economy, and way of life are destroyed, like the once-vital 
estuaries of the Chesapeake, the Delaware, San Francisco, and 
Florida bays, and so many others before us. Time is of the 
essence. Please, Senators, save this last great bay and its 
people.
    [The prepared statement of Mr. Tonsmeire follows:]

      Prepared Statement of Dan Tonsmeire, Executive Director and 
                 Riverkeeper, Apalachicola Riverkeeper
    Chairman Rockefeller, Ranking Member Thune and members of the 
Committee, thank you for the opportunity to testify on Effects of Water 
Flows on Apalachicola Bay: Short and Long Term Perspectives. I would 
also like to thank Senators Nelson and Rubio for holding this vitally 
important field hearing. Apalachicola Riverkeeper greatly appreciates 
the opportunity to offer our views on the importance of freshwater 
flows to the health of the Apalachicola River and Bay and the 
importance of Congress enacting legislation to require the U.S. Army 
Corps of Engineers (Corps) to manage the Apalachicola-Chattahoochee-
Flint (ACF) river system to ensure that the river and bay receive the 
freshwater flows they need to support, restore, and reestablish a 
thriving ecosystem, healthy populations of fish and wildlife, and a 
vibrant resource-based economy.
    Apalachicola Riverkeeper is a 501c3 non-profit organization founded 
in 1998. Our mission is to provide stewardship and advocacy for the 
protection of the Apalachicola River and Bay, its tributaries and 
watersheds, in order to improve and maintain its environmental 
integrity, and to preserve the natural, scenic, recreational, and 
commercial fishing character of these waterways. Thousands of people 
including oyster harvesters, seafood workers, shrimpers, crabbers, and 
other commercial fishers of the region and state depend upon the health 
of the Apalachicola River Floodplain and Bay and the Eastern Gulf of 
Mexico for their livelihoods.
    Apalachicola Riverkeeper calls on Congress to act now to prevent 
the demise of the Apalachicola River and Bay and to prevent the loss of 
the incredibly important role that this system plays in maintaining a 
thriving Eastern Gulf of Mexico, regional seafood and tourism 
industries that are essential for our local, regional, and statewide 
economy. To do this we urge Congress to act now to require the Corps to 
manage the ACF projects to ensure that the river, floodplain, and bay 
receive the freshwater flows needed to sustain a healthy functioning 
natural system and fisheries that are key to a vibrant economy. The 
Water Resources Development Act currently being considered by Congress 
and Water Control Manual update by the Corps of Engineers offer a rare 
and critically important opportunity for enacting such language. We 
strongly urge you to ensure that the freshwater flows provision 
discussed in this testimony is included in any final Water Resources 
Development Act that becomes law.
Significance of Apalachicola Bay
    Apalachicola Bay is one of the most productive estuaries in the 
Northern Hemisphere. Historically it has supported oysters, shrimp, 
crabs, grouper, snapper, redfish, and multitudes of baitfish escaping 
to the Gulf. It is home to one of the last of Florida's renowned 
commercial fishing communities which cannot be replicated. It is 
nourished by flows from the Apalachicola River and Floodplain, which 
have the highest documented biological diversity of any river system in 
North America. It provides 35 percent of the freshwater flow to the 
Eastern Gulf of Mexico and is one of the primary drivers of 
productivity of the fisheries in the Eastern Gulf. Dr. Felicia Coleman 
of the FSU Marine Lab has clearly drawn the linkages of fisheries 
productivity in the Eastern Gulf to flows from the ACF Basin in the 
context of a Green River flowing over 250 miles out into the Gulf from 
Apalachicola Bay. Her findings were based in part on the research 
contained in the report: Morey, S.L., Dukhovskoy, D.S., and M.A. 
Bourassa. ``Connectivity of the Apalachicola River flow variability and 
the physical and bio-optical oceanic properties of the northern West 
Florida Shelf.'' Continental Shelf Research 29 (2009) 1264-1275. The 
point is driven home further in the attached letter from Representative 
Kathy Castor to the Gulf Coast Ecosystem Restoration Council.
    The attached analysis of the 2011 NOAA report: (http://
www.st.nmfs.noaa.gov/Assets/economics/documents/feus/2011/FEUS%202011-
Revised.pdf) finds that the Commercial and Recreational ``Wild Caught'' 
Fisheries to West Florida create $5.6 billion in sales revenues and 
support 55,000 jobs.
    Because of these characteristics and high value, the Bay has 
international, national, and state designations that are intended to 
highlight and protect its unique and special place in our Nation and 
state. These designations include:

  <bullet> United Nations UNESCO Man in the Biosphere Reserve

  <bullet> National Estuarine Research Reserve

  <bullet> Outstanding National and Florida Water

  <bullet> State Aquatic Preserve

  <bullet> Highest Priority Water on NWFWMD Surface Water Improvement 
        and Management (SWIM) Program

  <bullet> Class II Shellfish Harvesting Area

    The collapse of the Bay last summer heralds the beginning of the 
end of this Last Great Bay and National Treasure. The scientific 
reports concluded that the primary cause of the problems is a result of 
lack of freshwater flows.
WRDA Language
    Over the past 30 years as litigation and state negotiations have 
gone on and on, an entire generation of fishermen have seen their 
livelihoods dwindle to unsustainable levels. Their nets and tongs come 
up with less and less than the hauls pulled in by their fathers' 
families and grandfathers' families before them. At the same time, 
upstream users have reaped the benefits of the waters of ACF system. As 
the devastating impacts to the Floodplain and Bay have grown, so have 
our calls for help to stop the steady loss of freshwater flows to the 
largest and most abundant river and bay in Florida. Time is not on our 
side and the increasing loss of flows to our River and Bay must be 
reversed.
    During development of the Water Resources Development Act (WRDA) of 
2007, Senator Nelson and Congressman Alan Boyd attempted to address the 
lack of attention the Corps of Engineers paid to our River and Bay. I 
have 15 letters Senator Nelson and Representative Boyd sent regarding 
the ACF issue. During his first election campaign, now-President Obama 
said ``Rather than continue to waste time and money on further 
litigation, it was time for national leadership on this issue so we 
resolve it fairly once and for all.'' Despite these efforts, the Corps 
has not changed its management to recognize the needs of our River and 
Bay.
    WRDA 2007 did not include language that addressed Florida's needs. 
Shortly after passage of WRDA 2007, Apalachicola Riverkeeper, National 
Wildlife Federation, and Florida Wildlife Federation again reached out 
to Senator Nelson for help in restoring Florida's right to water, a 
right that had been lost when Congress gave the Corps of Engineers 
authority to manage the Apalachicola-Chattahoochee-Flint system to 
benefit upstream states at the expense of Floridians.
    In response, Senator Nelson developed legislation that would 
require the Corps to operate the Apalachicola-Chattahoochee-Flint 
projects in a manner that ensures the maintenance of freshwater flows 
needed to support and reestablish thriving and resilient fisheries in 
the Apalachicola River and Bay, and to support and sustain a vibrant 
economy. The language would ensure that Floridians receive the water we 
need to sustain our economy, our way of life, and our natural 
resources. The Freshwater Flows legislation is strongly supported by 
the Apalachicola Riverkeeper, Seafood Management Assistance Resource 
and Recovery Team (SMARRT) (see attached letters), National Wildlife 
Federation, Florida Wildlife Federation, and many others.
    Senator Nelson then introduced this Freshwater Flows language as an 
amendment in Committee to S.601, the Water Resources Development Act of 
2013. A copy of this amendment is attached. Apalachicola Riverkeeper 
and many others in the conservation and fishing community are deeply 
grateful to Senator Nelson for developing and filing this critical 
amendment.
    That amendment was carefully crafted to ensure that it does not 
constitute an earmark. As a technical matter, the Freshwater Flows 
language is not an earmark because it: (1) does not increase the 
budgetary impact of managing the ACF; (2) does not authorize funding 
for a new activity; (3) does not require the Corps to carry out an 
activity that it is not already required to do (e.g. undertake a new 
study, construct a new project, construct a new project element); and 
(4) is justifiable as a technical modification to an existing 
authorization. The Freshwater Flows language is also not an earmark 
because it reaches across state lines and will produce tremendous 
regional and national economic benefits, including those derived from a 
healthy fishery in the Gulf of Mexico. The Freshwater Flows provision 
will also save millions of dollars that would otherwise go to 
litigation and will initiate a collaborative process with stakeholder 
input to resolve these long standing water allocation issues.
    Unfortunately, the Freshwater Flows provision was not adopted by 
the Senate Environment and Public Works Committee, in part because it 
was not supported by Committee member Senator Jeff Sessions (R-AL). 
Additional language has been developed that would help address concerns 
raised by Alabama, provide benefits to users in the middle and lower 
Chattahoochee River, and ensure that the Corps of Engineers does not 
impose an unfair burden on Alabama if the Freshwater Flows language is 
enacted into law. A copy of this revised language is attached at the 
end of these comments.
    While Alabama offered no opposition to this revised language they 
also were not willing to support it. Instead Alabama has opted to focus 
on legislation that would amend the Water Supply Act in an effort to 
stop the Corps from giving favorable treatment to Georgia. That 
legislation would amend the Water Supply Act to require congressional 
approval before the Corps grants additional allocations to Georgia for 
water supply from Lake Allatoona and Lake Lanier. While the proposed 
changes to the Water Supply Act might provide some degree of protection 
to Alabama, the proposed changes do little, if anything, to help 
Florida. The proposed changes would not change the status quo--which is 
starving Florida of the water it needs--and would not require the Corps 
to send more water to Florida.
    Apalachicola Riverkeeper has also reached out to other key 
stakeholders including Alabama and Georgia Power Companies. Neither has 
officially responded but discussions indicated that they would not 
likely oppose the Freshwater Flows language because the Federal Energy 
Regulatory Commission (FERC) license they operate under does not 
provide them license to determine the equity of downstream user needs. 
Their concerns would address how the releases from Lake Lanier might be 
changed to impact the arrival of flows at their facility to meet peak 
power demands as the timing of flows is critical to their operations.
Impacts to Apalachicola River Floodplain and Bay
    Dr. Robert Livingston (Livingston, R.L. 2008. ``Importance of River 
Flow to the Apalachicola River-Bay System.'') and others have related 
the importance of Freshwater Flows to Apalachicola Bay. Greg Munson, 
the Deputy Director of Water Policy in Florida's Department of 
Environmental Protection, recently testified to Congress about the 
vital importance of freshwater flows to the Apalachicola River and Bay:

        ``The River and Bay ecosystem, and thus, the men and women of 
        this region, are entirely dependent on timely freshwater flows 
        to remain healthy and productive. The Apalachicola River is the 
        main source of freshwater inflow to the Bay. That freshwater 
        inflow regulates salinity in the Bay in a way that maintains 
        the biological integrity of sensitive oyster habitats. Equally 
        important is the fact that the Apalachicola River discharges 
        nutrient-rich water into the Bay, which provides the building 
        blocks of the Bay's food chain. In these ways, the River is the 
        lifeblood of this extraordinarily productive estuarine system, 
        which sustains oyster harvesting, shrimping, crabbing, and 
        fishing. Therefore, the productivity of the Bay is strongly 
        influenced by the amount, timing, and duration of the 
        freshwater inflow from the Apalachicola River. It is important 
        to restore historic flow patterns. Otherwise, the ecosystem 
        and, indeed, the very way of life for generations of Floridians 
        will be devastated.

        Unfortunately, Florida cannot control the volume of water 
        entering the State. Its destiny is subject to upstream 
        influences that are working to undermine the foundation of the 
        region. The amount of water flowing in the River and ultimately 
        to Apalachicola Bay is a function of Georgia's consumption on 
        the Chattahoochee and Flint Rivers and Corps reservoir 
        operations on the Chattahoochee. Since the 1970s, Georgia 
        consumption has grown substantially on both systems and the 
        Corps implemented its ``Draft'' Water Control Plan to 
        prioritize municipal and industrial water supply operations 
        elevating them above all other uses in 1989.

        As a consequence, Apalachicola River flows have been lower and 
        low flows have occurred more frequently and for longer 
        durations than at any time in recorded history. The problem has 
        been most acute in the last 10 years, and is creating long-
        lasting impacts to the River and Bay. In 2012, Florida 
        experienced widespread damage to its oyster resource resulting 
        from two years of prolonged low-flow conditions. Indeed, last 
        year set a record for the least amount of water delivered to 
        the Bay since records were started in 1923, although this was 
        not the year with the least rainfall. The corresponding 
        reduction in freshwater inflow elevated salinity levels in the 
        Bay well beyond tolerable thresholds, and the continued lack of 
        inflow precluded any opportunity to mitigate salinity levels. 
        It is well documented that elevated salinity leads to increased 
        incidence of oyster mortality through disease and predation.

        State agencies and local fisherman have documented a severe 
        decline in the oyster harvests. Drastic declines in all age 
        classifications of oysters suggest that a collapse of the 
        fishery has occurred. In the latest state agency reports, the 
        oyster production estimates on commercially important oyster 
        reefs are the lowest estimates in the past 20 years. The data 
        suggests that many of the stocks are not sufficiently abundant 
        to support commercial harvesting, devastating the livelihoods 
        of the men and women who make their living directly harvesting 
        oysters or processing oysters on Florida's Gulf Coast.

        It is clear that the Apalachicola River needs more flow to help 
        recover from the devastating oyster mortality in the Bay that 
        occurred in 2012, as well as the previous massive die-offs of 
        endangered mussels, decline in fisheries, and drying of the 
        floodplain forest that has occurred in recent years.''

    (July 22, 2013 Testimony of Greg Munson, Deputy Secretary of 
Florida Department of Environmental Protection on ``Oversight of Army 
Corps of Engineers Water Management in the Apalachicola-Chattahoochee-
Flint River (ACF) and the Alabama-Coosa-Tallapoosa (ACT) River 
Systems'' before the United States Senate Committee on Environment and 
Public Works.)
    During the past 30 years Florida has suffered from a 30 to 40 
percent decline in Spring and Summer flows during dry and drought 
times. At the most critical time of year for reproduction and 
productivity of the Apalachicola River Floodplain and Bay, the Corps' 
management and needs of upstream users are taking an especially heavy 
toll on the volume and timing of flows to the Apalachicola. While some 
of that change is due to changes in rainfall patterns, management of 
flows by the Corps of Engineers is a critical factor as demonstrated by 
a comparison of the comparable mid 1950s drought flows with those of 
2007 and 2012. (See attached Palmer Drought Severity Index figures for 
Drought comparisons). Flows during the most recent drought were over 30 
percent less than the severe drought of 1950s and only 1/3 that of the 
average flow for the entire period of record. See flows based on USGS 
records below.

1922-2012 Annual Average Flow                                 21,400 CFS
1955 Annual Average Flow                                      11,200 CFS
2007 Annual Average Flow                                       9,700 CFS
2012 Annual Average Flow                                       7,600 CFS
 

Corps Operations and Management
    Except for providing a 5,000 CFS minimum flow level, the Corps now 
holds reservoir levels high without consideration of the needs of 
Apalachicola River Floodplain and Bay. The Corps' interpretation of its 
Congressional authorization for managing the ACF and its resistance to 
even assessing the needs of Florida have contributed significantly to 
the Corps' refusal to provide Florida with the water it needs.
    Indeed, even after three Scoping opportunities for the current 
Water Control Manual EIS--where many comments urged the Corps to 
fundamentally reevaluate its operations to account for the needs of the 
Apalachicola River and Bay--the Corps of Engineers continues to state 
that the ongoing update will essentially validate the current operating 
plan. That plan, the Revised Interim Operations Plan, does not include 
any consideration of flows needed to sustain the Apalachicola River 
Floodplain and Bay. The plan's sole objective for maintaining fish and 
wildlife populations is tied to the minimal flows needed to satisfy the 
Federal Endangered Species Act. The plan does this by establishing 
minimal flow target releases to the Apalachicola from Jim Woodruff Dam 
needed to keep the three federally listed mussels and the federally 
listed Gulf sturgeon alive.
    Some of the Corps' top leaders, including General Schroedel, Major 
General Semonite, and Colonels Keyser, Jorns and Roemhildt have 
expressed concerns about the management of the ACF projects and the 
need to consider Apalachicola needs. At a 2009 meeting of the National 
Academy of Sciences, General Schroedel stated that the ACF Basin was 
already over-allocated and that there was not enough water in the ACF 
Basin to meet all demands. Despite their individual recognitions of the 
problems we face on the Apalachicola, Florida's needs remain 
unaddressed.
    Apalachicola Riverkeeper, SMARRT, and many in the conservation 
community see only one way to change this dynamic: Congress must 
require--in very specific terms--that the Corps of Engineers manage the 
ACF projects to ensure that Florida receives the water it so 
desperately needs. The Freshwater Flows provision developed by Senator 
Nelson would provide this clear direction and ensure that the best 
available science is used to determine the amount, timing, and duration 
of the needed flows.
States' Rights and Approaches
    All three states have been driven by litigation for so long it 
appears to be impossible for them to think outside the ``litigation 
box''. During the recent Senate Committee Hearing on ACF that Senator 
Sessions held, the ``ifs and buts'' given by the 3 states made clear 
that an interstate water compact will not be reached in time to save 
the Apalachicola Bay and the jobs that depend on it. After 30 years of 
disagreement, and the failed attempts of the late 1990s and early 
2000s, it is clear to us that the states are not prepared to enter 
into--and are not seriously considering entering into--meaningful 
compact negotiations. Even if the states were so inclined, each state 
uses different data, different models, and their technical advisors 
provide their policy makers with different answers as to what impacts 
will result from different management practices and flow regimes. There 
is no wonder they cannot reach an agreement on sharing water.
    Working in a collaborative dimension offers opportunity for forward 
movement and resolution, but it is apparent that the playing field must 
be leveled by Congress to induce the States to negotiate in good faith. 
With this legislation, that level playing field will be created and the 
possibility that negotiations or compact discussions could be 
productive in achieving equitable sharing of water.
    Georgia has long claimed that it is not the cause of the low flow 
problems facing Apalachicola River and Bay. During the recent drought 
Georgia's Governor Deal declined to institute more aggressive water 
conservation measures, telling Florida's Governor Scott that Georgia 
had a mandate from the Courts to meet his water needs. Furthermore, 
increases in consumptive water use for agricultural irrigation have 
been significantly increased in recent years despite drawdown of the 
Floridian aquifer.
    While we strongly dispute Georgia's position and believe that 
stronger conservation measures in Georgia would benefit all three 
states, it is clear that the allocations for water supply from Lake 
Lanier are just one part of the problem facing Florida. There are many 
other activities that are driving the low flows reaching the 
Apalachicola River Floodplain and Bay. For example, on a hot summer day 
the net evaporation from the 5 Federal Reservoirs in the ACF system 
exceeds the water use by Atlanta and agricultural irrigation is as much 
as 2-3 times municipal and industrial use.
    The diagram below, prepared by the State of Florida using data 
being used by the Corps of Engineers, shows the impact on river flows 
from all uses in the ACF basin. As this diagram makes clear, addressing 
water supply allocations from Lake Lanier is just one part of the 
solution. We need a management perspective that will consider 
operations of all reservoirs, and water uses in the ACF basin.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As discussed above, Alabama is currently focused on legislative 
language that will not address this full suite of activities, and will 
not address Florida's needs.
    For years, Florida's focus has been on litigation surrounding water 
supply withdrawals from Lake Lanier which likewise will not address the 
full suite of activities affecting low flow levels in the Apalachicola 
River and Bay. The litigation has cost millions of dollars of Florida 
funds and appears to have prevented the state from taking additional 
steps forward in resolving the water crisis that is devastating 
Apalachicola River Floodplain and Bay. Even while we know the Georgia 
agricultural use is having impacts, our own Northwest Florida Water 
Management District continues to issue agricultural irrigation well 
permits in the Apalachicola Basin, albeit small compared to Georgia's 
use.
    While our Governor has made significant gestures to help the 
community and focus attention on the Bay's collapse, stakeholders have 
not been included in strategy decisions and our recommendations and 
advice have not been heeded. The six counties along the Apalachicola 
portion of the basin have formed the Riparian County Stakeholder 
Coalition to work together to help resolve the issue with our upstream 
neighbors to undertake a River and Bay Assessment to better understand 
the needs of the Floodplain and Bay.
Conclusion
    The most important aspect of the Freshwater Flows language is that 
it restores the rights of Floridians to water that their very survival 
depends on, not just water from Lake Lanier, but from all portions of 
the basin from the top to the bottom.
    It is our understanding that current draft language in the House 
version of WRDA does not include the Freshwater Flows language. Without 
this language our citizens will be off work as you now see them here 
today, not to attend a Hearing, but due to a lack of jobs and business, 
due to a lack of fresh seafood, and the permanent loss of our position 
as seafood port renowned as a distributor of the best oysters and 
seafood worldwide.
    Our future lies in Representative Southerland overcoming the 
politics and including the Freshwater Flows language in the House WRDA 
bill; and in our entire Florida delegation working to ensure its 
passage into law. Our community cannot wait for yet another WRDA, 
another Water Control Manual, or another lawsuit. We desperately need 
Congress to take this action now, not after our fisheries, economy and 
way of life that are destroyed like the Chesapeake, Delaware, San 
Francisco, Florida Bays and so many others before us. Time is of the 
Essence.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Nelson. Thank you, Mr. Tonsmeire.
    [Applause.]
    Senator Nelson. Mr. Hartsfield?

          STATEMENT OF SHANNON HARTSFIELD, PRESIDENT,

          FRANKLIN COUNTY SEAFOOD WORKERS ASSOCIATION,

                  AND FOUNDING MEMBER, SMARRT

    Mr. Hartsfield. We have always faced hurricanes, tropical 
storms, too much freshwater, always too much freshwater. We 
have never faced lack of freshwater. Since 2000, we have 
dwindled down, and our bay has suffered greatly.
    We have jumped on every bandwagon there is to try to get 
some kind of hope of freshwater. And after hearing everything I 
have heard and going to all these meetings I go to, I just 
don't see any hope in the near future. We don't have a near 
future in the seafood industry. We are facing this today. We 
don't have 6 more months, another year to go. We do not have 
that. This is not going to sustain itself.
    And we need to find a way to get traffic back up that river 
where the Corps has to recognize it and give us back 
freshwater. There is no other way around it without getting 
that traffic, commercial traffic, back up to that river. We 
need to open that river back up and get us some flow down here. 
That is the only way. There are opportunities coming. We see it 
coming. We just got to figure out how to support it and get it 
on through.
    And this is the first time ever out of all this disaster 
that Franklin County has experienced, and the commercial 
industry, that we have had any recognition, and we appreciate 
it greatly. And that said, this is the first time ever that we 
had any help coming in, that we have ever seen it. And it is a 
learning process, and it is appreciated greatly.
    But with that said, we still have to have something to 
sustain. There is a lot of stuff being put forth that is out 
there that needs support. I know you all know the DEO is the 
next one. This last grant we have had, this grant we got from 
the disaster, was greatly needed, but that is just a drop in 
the hat compared of restoring this bay and keeping this small 
town survive.
    You know, I mean, there are guys that try not to use the 
help, because we have never had it before, never, ever. And 
they see that they got to have it to stay here and survive. 
Without it, it is disastrous.
    [The prepared statement of Mr. Hartsfield follows:]

 Prepared Statement of Shannon Hartsfield, President, Franklin County 
        Seafood Workers Association, and Founding Member, SMARRT
``The legal history of the water flows into Apalachicola Bay''
    As a commercial fisherman who has over 30 years of experience on 
Apalachicola Bay and the Gulf region, I have worked in every sector of 
the industry except for the recent clamming aquaculture leases in 
Alligator Harbor. In 2011 I started to rebuild the Franklin County 
Seafood Workers Association as the newly elected President. With that I 
became the representative for the organization on the Apalachicola 
Chattahoochee Flint Stakeholders, where I learned how the Corp of 
Engineers allocates how much water is released below the Jim Woodruff 
Dam. In 2000, we began to notice the impacts of lower flows. Since then 
in 2007, we felt the first significant effects of the lack of 
freshwater and the abundance of predators in the bay. Prior to the last 
drought, the Corp reduced the freshwater flows resulting in the 
collapse of the oyster industry in Apalachicola Bay.
``The impacts these flows have had on the surrounding community and 
        ecosystems''
    The impact on the community from the failure of the seafood 
industry is the economic loss caused by the loss of income from seafood 
harvesters which has a ripple effect throughout the community. The lack 
of available jobs in our county leaves no safety net for those who once 
made their living solely on the bay. The impact of the $1.4 million 
dollars pumped into the economy from the NEG shelling grant created new 
as well as sustained many existing jobs. With 1,800 saltwater product 
licenses in a county with 11,000 people it is not hard to do the math. 
Sixteen percent of our population has directly felt the negative 
financial impact of the fisheries failure. Add to that our dealers, our 
restaurants, grocery stores, and others that have experienced reduced 
sales due to the lack of income of those who rely on the bay for a 
living and you can see the problem probably impacts one third of our 
community members. Reduction of water flows has magnified the lack of 
product from Apalachicola Bay, reducing personal income and eliminating 
re-investment in the industry. Currently, people have had to leave 
their homes to find work, they have had to accept outside help to 
survive and many have had to find any way they can to make a living.
    The ecosystem has suffered because the bay has a higher salinity 
rate, which increases the devastation caused by predators. Also with 
higher salinity, oyster growth is stunted. The natural flow of the 
river, with the proper fluctuation brings the nutrients that are needed 
for the bay to function. The reduced flows have kept the nutrients from 
reaching the bay where they are needed. We understand that this 
reduction in flow of the river has also affected the tupelo forest in 
Wewahitchka, greatly depressing the honey industry there.
``Thoughts on the State and Federal efforts to address the impacts of 
        those flows''
    I do not see any results from the political or legal processes that 
we have experienced. I would ask leaders to compromise on the wording 
required to get legislation passed and support minimum flows that will 
allow the bay to survive. In the process I think we are actually 
receiving less water over the last 13 years.
    As a response to the oyster crisis that began in September, we are 
pleased with the support that the Gulf Coast Workforce Board has given 
with the state and Federal funding. The seafood industry appreciates 
the grants that have funded bay restoration (putting shell back in the 
bay to provide the foundation for new spat) and the employment of the 
displaced seafood workers.
``Any short-and long-term solutions local, state and Federal lawmakers 
        should consider to balance water management priorities 
        appropriately''
    Support the efforts of the ACF Stakeholders as they work to find 
solutions to the equitable sharing of water resources in the basin.
    Pass legislation which fairly distributes water along the ACF 
system.
    It seems that our government gives a lot of support to our farmers 
and those who provide food for Americans. We would like to have that 
same level of support for our seafood harvesting industry. We know that 
American seafood is far safer to eat than those being imported from 
other countries. We hope that you will protect it.
    Prepared on this day, 9th day of August, 2013 as my sworn testimony 
and respectfully submitted,
                                        Shannon Hartsfield,
                                                         President,
                           Franklin County Seafood Workers Association,

                                                   Founding Member,
                                                                SMARRT.

Also, I represent the seafood industry on ACF Stakeholders

    Mr. Hartsfield. And if I could take this opportunity, 
because Ricky is a good--he is a real good guy, been here all 
of his life. I am fourth generation; he is fourth generation. I 
want to give this opportunity for him to have my last few 
minutes, if it is all right with you.
    Senator Nelson. Certainly.
    Mr. Banks?

   STATEMENT OF RICKY BANKS, VICE PRESIDENT, FRANKLIN COUNTY 
                  SEAFOOD WORKERS ASSOCIATION

    Mr. Banks. I would just like to start out by saying my 
grandfather was an oysterman, my great-grandfather was an 
oysterman, my dad was, I am, and my sons have done it with me.
    What we have here is a system that is being run by man that 
was created by God. At one time, there wasn't anything wrong 
with it. But when man steps in, he has a way of messing things 
up, as we can all see.
    Well, we, the seafood workers, have worked together with 
our local county commissioners, our fish and wildlife, our 
Division of Aquaculture to keep our estuary pristine and nice, 
not only thriving but also beautiful, only to see that it is 
being destroyed by a lack of flow.
    We have done our part down here. We can't do anything else. 
Somebody has to step up and do something for us. We are used to 
doing it on our own, but we have come to something we have no 
control over.
    What people need to realize, Atlanta you just said has how 
much in Lake Lanier? They hold 60 percent of the water. Well, I 
would almost bet you there are kids being born in Atlanta 
today. How much are they going to need tomorrow? When is it 
enough? I mean, when is Atlanta going to--I mean, they are 
going to keep having babies, they are going to keep needing 
more and more water.
    But we need our share, you know. You have an ecosystem that 
thrives on it. It is the vein, it is like an artery to this 
bay. And when you cut the flow off, it dies. And if it dies, 
you have a community here that this is all we know.
    I, right now, I am doing another job. I went in this 
morning and told them I am leaving. You know why? Because it is 
not what I love. I love this area, and my family is raised up 
on it.
    And this bay is going to come back someway. We are not 
giving up. We thank you for your help, but this Army Corps of 
Engineers got to come up with something.
    [Applause.]
    Mr. Banks. They are in control. They can sit here and skate 
around the questions all day long, but they are in control of 
the situation. And they can go back to their office today and 
draw up something to say, hey, we are going to give it to them, 
you know?
    Let Atlanta stop watering their grass a little bit. Don't 
give their dog a five-gallon bucket of water that he going to 
set there and let mosquitoes nest in; give him a little bowl, 
you know. Let them conserve a little bit and let us have our 
fair share instead of what they don't want.
    You know when we are going to get our water? When it is 
running down their streets and they don't want no more, they 
will open that dam up and kill our bay again.
    Thank you, sir.
    [Applause.]
    Senator Nelson. Thank you, Mr. Banks.
    Colonel and Mr. Taylor, I think you all understand now, and 
we appreciate you being here so that you can understand the 
passion and the historical livelihoods that have come off of 
this bay.
    And, Ms. Menashes, we want you to know how much we 
appreciate the Secretary of Commerce issuing the disaster 
declaration. But as it has been stated here very eloquently by 
these two, that is just a drop in the bucket, that what we have 
to do is get down the road and solve the problem.
    OK, Dr. Havens.
    Mr. Havens. Yes, sir.
    Senator Nelson. Tell us from IFAS's standpoint, what do you 
think?

   STATEMENT OF KARL E. HAVENS, DIRECTOR, FLORIDA SEA GRANT 
             COLLEGE PROGRAM, PROFESSOR, SCHOOL OF 
   FOREST RESOURCES AND CONSERVATION, INSTITUTE OF FOOD AND 
                     AGRICULTURAL SCIENCES

    Mr. Havens. Senators Nelson and Rubio, thank you for giving 
me the opportunity to talk today about the river flow and about 
the ecosystem health in Apalachicola Bay and especially what 
happened during the last 2 years.
    The Apalachicola is a huge river. This is a bigger river, 
historically, than the Colorado River out west. That is how big 
this river is. It used to be the 13th largest flowing rivers in 
the United States.
    Now, there have been periods of low flow during droughts, 
but there has never been a period as low as in the last 2 
years. As one of the earlier speakers mentioned, they have been 
keeping records for 89 years of river flow, and the river fell 
below that historical record, so it was unprecedented.
    And what happens in the bay when the river flows, then it 
is really important, because that freshwater dilutes the salt 
that is in the bay and it creates an environment called an 
estuary, which is very good for growth of things like oysters.
    Oysters thrive in an intermediate salinity that occurs in 
an estuary. They grow on bars, and they grow very healthy. But 
other things like crabs and conchs and sponges and oyster 
drills that feed on oysters, they don't like that intermediate 
salinity, so they have to stay out in the Gulf of Mexico, and 
everything is good.
    Now, when you reduce the river flow, you change things a 
lot. The bay suddenly becomes favorable to all of those 
parasites and predators and things that like to feed on 
oysters. They move in from the Gulf of Mexico, and the oysters 
are harmed.
    At the University of Florida, we studied the response to 
low river flows that happened during the last 2 years in a 
project that started in September in cooperation with Florida 
state agencies and the Seafood Workers Association. We looked 
at all of the existing data, and there were reams of data that 
have been collected over the years by the agencies, and they 
worked very hard with us to put that information together to 
tell a story.
    And we also went out and collected our own data, again, in 
cooperation with the Seafood Workers Association. We didn't 
hire technicians; we had these folks take us out because they 
know the bay way better than any of us do and helped us do our 
sampling.
    When the river flow is low, salinity increased to a level 
in those years that was just like out in the Gulf of Mexico, 
and predators and parasites were very abundant in the samples 
that we collected. We found that the oysters were heavily 
infested with boring clams, sponges, and worms, and we also 
have found that there was a high rate of internal parasites in 
the oysters compared to normal. Basically, what had been a 
place for oysters to thrive became a place for oysters to die.
    The data we examined indicated a very sudden collapse in 
the oyster population. It didn't happen gradually; it happened 
very quickly, and it happened in August 2012.
    We have a population dynamics model of oysters that we 
developed at the University of Florida to try to figure out 
what caused the collapse. And our data shows very clearly that 
it wasn't caused by over-harvesting and it wasn't caused by 
contamination by the oil spill or dispersant. It was either 
disease or it was an onset of a high density of predators or 
some other natural factor where the population just basically 
collapsed after it couldn't take it after 2 years of such high 
salinity.
    So what do we do, looking into the future? And there are a 
couple things.
    You know, one is that we need to have good monitoring of 
the population in the bay. It is especially important right now 
to know what is going on out there so that we don't have a 
situation develop of over-harvesting. That didn't happen when 
they were healthy, but there are not a lot of oysters left out 
there right now. We need to let them recover.
    Second, we know that the bay needs a restoration project. 
Of all the things right now that you could do for the bay now 
that the river is flowing again, there is a need for an 
increased amount of substrate for oysters to grow on. We have 
been working with these folks on that. On the order of about 
1,000 acres of reef habitat needs to be restored.
    We have done modeling on this, and what we have found is 
that if nothing is done, even with normal river flows, it could 
take up to 10 years for the oyster populations to recover. But 
we could cut that down to 2 to 3 years by doing a large 
restoration project.
    So this river-flow thing is interesting, and one of the 
things that has been discussed is how to operate structures. 
Another is getting a handle on where people are taking water. 
And I think a very important tool that needs to be put into 
place is to have a basin model, like they do in south Florida, 
where you can determine how much water is being taken by the 
various users. And you can run scenarios, and you can look at 
what would happen if you cut off the use to a certain level by 
different users, and then find out what is practical to do. If 
there are things that people can do that are practical and 
reasonable, people could get together and find the solution, I 
think, to the problem.
    And in terms of the bay, let me just provide some final 
comments. We do need long-term monitoring of the oyster 
population in the bay. There has been really good monitoring by 
the state that needs to continue. And we need to get a handle 
on how fishing pressure, river flow, and the reef habitat 
structure interact with each other. Because those three things 
put together determine how healthy these oysters are. And going 
into the future, to have it be sustainable, we need that better 
understanding of that.
    Thank you very much.
    [The prepared statement of Mr. Havens follows:]

   Prepared Statement of Karl E. Havens, Director, Florida Sea Grant 
     College Program and Professor, School of Forest Resources and 
Conservation, University of Florida Institute of Food and Agricultural 
                                Sciences
    Senators Rubio and Nelson, thank you for the opportunity to provide 
information about water flow in the Apalachicola River and health of 
the Apalachicola Bay ecosystem.
Let me first discuss the history of water flows into the bay.
    At one time, the Apalachicola was one of the largest rivers in the 
United States, with flows greater than the Colorado River. In the 
river's history there have been periods of low flow, coinciding with 
regional droughts. Sometimes these events have lasted for a year or 
two. Most recently, in 2011 and 2012, the river basin was the driest 
place in the United States. The low rainfall coincided with river flows 
dropping to the lowest levels ever recorded in the 89 years of record 
keeping by the U.S. Geological Survey.
Now I will discuss impacts the recent low river flow on the bay.
    When river water enters into the bay, it dilutes the salt content 
to a lower level than occurs in the open waters of the Gulf of Mexico. 
Oysters in the bay thrive, and grow in large colonies called ``bars.'' 
Certain other animals, including crabs, conchs, clams, worms and 
sponges--which eat or damage oysters--are kept at lower levels when 
there is good river flow. When river flow is greatly reduced, 
conditions in the bay become favorable to these things that eat and 
parasitize oysters, and oysters are harmed.
    We studied the response to low river flow in a research project 
undertaken by my colleagues at the University of Florida, working with 
scientists from several Florida agencies and the Seafood Workers 
Association. We looked at existing data and did considerable new 
sampling of oysters, other animals, and water quality in the bay.
    When the river flows were low, salinities increased to levels 
similar to those found in the Gulf, and both predators and parasites of 
oysters were abundant. Oysters were heavily infested with boring clams, 
sponges and worms and they had a high level of internal parasites. What 
previously had been a place for oysters to thrive became a place for 
them to die.
    The data we examined indicated a sudden crash in the oyster 
population in August 2012. A University of Florida oyster model 
indicated that the crash was due to high mortality of juvenile oysters. 
Our data analysis and modeling provided no evidence that over-
harvesting was a cause of the decline, and we found no evidence of 
contamination by oil or dispersant. We don't know the proximal cause of 
the sudden decline in oysters, but it is reasonable to link it to a 
disease, predators or some other factor related to the long period of 
low river inflow and high salinity.
How might we help oysters be more resilient to future low flow events?
    First, it is critical that long-term oyster population monitoring 
be done in a manner that provides guidance regarding the amount of 
oysters that can be harvested in any given year. This is especially 
important right now, when the population is greatly reduced and at 
greater risk of over-harvesting.
    Second, there is a need to restore degraded oyster reefs in the 
bay. If nothing is done, our University of Florida oyster model 
indicates that it could take over 10 years for recovery--yet with 1,000 
acres of reef restoration, recovery time could be as short as 3 years, 
assuming that fishing pressure is controlled so that those restored 
reefs can develop robust oyster populations.
What is a logical path towards solving the river flow problem?
    In my opinion, the first step must be getting a clear understanding 
about how human uses of water contribute to the low river flow. There 
is great need for a hydrologic model of the basin that includes 
rainfall, evaporation, reservoir operations and all of the consumptive 
uses of water by people. One of the first things that I would do is run 
that model to compare two scenarios--the last two years with and 
without human withdrawals of water. If there is little difference, 
there may be little opportunity to ``fix'' the problem. On the other 
hand, if the difference in river flow is 10 or 20 percent (or more), 
there could be a solution, and the next step would be to find where the 
water is being used and what kinds of conservation measures are 
practical.
Finally, let me provide some comments on research and monitoring.
    There is a critical need for good long-term monitoring of oyster 
population size, health and levels of predators and parasites--so if a 
drought happens again, we can more effectively identify the cause of an 
oyster response.
    There also is a need for research to guide how restoration projects 
are done in the bay, so that if money is spent, it is done in a cost 
effective manner and has a good outcome.
    Finally, there is a need to understand how fishing pressure, river 
flow and habitat quality interact to determine the sustainability of 
the oyster population in Apalachicola Bay. These factors are 
intertwined, and knowing how they are related is critical to 
sustainably managing the resource.
    Thank you.
                               Attachment

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Nelson. OK.
    Senator Rubio?
    Senator Rubio. Thank you.
    Dr. Havens, so just to summarize your testimony in a 
sequence of how we would want ideally for things to work, you 
want to get the flow back; that is obviously the most critical 
element of it. Simultaneous to that, you need to begin and ramp 
up these restoration projects.
    Can that happen before--in essence, you can't really fully 
do the restorations that you have talked about unless the flow 
is happening? Or are those some of those things that you can 
start to do already?
    Mr. Havens. So we could start right away doing restoration 
projects. In fact, these guys have been doing some of it 
already.
    Senator Rubio. The reason why I ask is that might be one of 
the things we want to include in any sort of funding vis-a-vis 
the emergency declaration.
    Mr. Havens. Right. So oysters are interesting because when 
they are harvested, you are taking the oysters and you are 
taking the substrate that they grow on. And so----
    Senator Rubio. You have to replenish.
    Mr. Havens. And so the more of that substrate that is out 
there when the time of year comes when larvae oysters are in 
the water, the more place there is for them to settle and the 
faster the population----
    Senator Rubio. But that is something we could use emergency 
funding for? And would that be----
    Mr. Havens. Absolutely.
    Senator Rubio. Yes.
    Mr. Havens. That is, I think, right now the highest 
priority.
    Senator Rubio. And then so, when it comes to the flow, are 
human withdrawals the only thing that are impacting the 
ecology? I mean, are there other factors other than this flow 
issue that we should be concerned about as well?
    Mr. Havens. So on the flow issue--so I am not a 
hydrologist, so then we are getting outside of my area----
    Senator Rubio. Neither am I.
    Mr. Havens.--of expertise. And so I can't sit here and say 
I know what part of that low flow is due to climate change 
versus human withdrawals.
    Senator Rubio. No, no. Is the flow the only issue impacting 
the ecology? Are there other issues, other than the flow, that 
are impacting the ecology of the estuary?
    Mr. Havens. The two big things seem to be flow and the 
substrate quality. There are areas of reef that have been 
decimated by tropical storms. There are areas where you guys go 
out and the bottom is flat where there used to be a reef, and 
no larvae are going to settle there no matter how many are in 
the water. Those are the two big issues right now.
    Senator Rubio. Hence the restoration stuff we just talked 
about.
    Mr. Havens. Right. And then, you know, when you restore a 
reef, giving enough time for it to become healthy again before 
you start harvesting oysters off it.
    Senator Rubio. OK.
    You talked about models for a second. Do you have models or 
are there models that exist that could document what the water 
flows were with and without the human withdrawals that you 
discussed?
    Mr. Havens. I don't know, but that is a very logical 
starting point, right? You would have a model of the basin, and 
you would say what was it really like and what would it have 
been like----
    Senator Rubio. You could go back 50 years and see what it 
looked----
    Mr. Havens. Yes.
    Senator Rubio. Do we have models that show where----
    Mr. Havens. I am not aware that a model like I described 
exists.
    Senator Rubio. OK.
    Mr. Havens. But it could.
    Senator Rubio. You were shaking your head ``yes,'' Mr. 
Tonsmeire. Are you saying you can do that, or do you have that?
    Mr. Tonsmeire. Yes, sir. Actually, the Corps has a model, I 
think it is called the ResSim model. And there is also a group 
of stakeholders in the Apalachicola-Chattahoochee-Flint Basin 
that have also put together a similar approach to look at where 
is all the water going, what are the flows that will remain in 
the system based on changes in operations or changes in use in 
the basin. So, yes, sir, they do exist.
    Senator Rubio. And then for Mr. Hartsfield and Mr. Banks, 
we have heard a lot about the technical aspects of it, the 
water flow, the ecology, estuary, all these sorts of things. 
But what is really helpful to us is the human side of this, the 
people side of it. You know, statistics are important and we 
got to look at them, but what really compels people to action, 
particularly our colleagues that aren't from here, is the human 
side of it. So I think you are part of a broader narrative in 
this country.
    You know, we are a nation that has never envied the people 
who have made it. We look at people who have made a lot of 
money and we congratulate them and we look at them as a source 
of inspiration, ``Maybe one day we can do that.'' But they can 
generally take care of themselves.
    We obviously will always have had people that are 
struggling in this country, and, you know, we feel bad for 
that, and that is why we have a safety net program, not as a 
way of life, but to help people to get back on their feet.
    What seems increasingly to be lost in America is everybody 
else. You know, the hardworking people that, you know, take on 
a second job because they don't want to depend on anybody or on 
the government, people who have always paid their mortgage on 
time even if it has been a struggle, people who have done 
everything they can to give their kids a better life, what we 
have always known as the great American middle class, which I 
think your industry is so representative of.
    And I just wanted to hear a little bit more about the 
stories of the people. Because a lot of the things that are 
hurting our middle class across our country, in addition to 
some government policies, is the change in the nature of our 
economy, the globalism, and all these sorts of things. But 
this, what is happening here, is very specific to a concrete 
manmade action, to something that people and governments have 
allowed to happen that is directly impacting people and which 
we know the answer for.
    I want some of the human stories behind this of the people 
who have done this for a living for years. This is how they 
have raised their family. It is not just a cultural tradition, 
it is not just a family tradition, it is their livelihood, 
which they take pride in. You get paid to do something that you 
love. With this, you don't just help raise your families but 
you help build the community.
    What is happening now? I mean, are people leaving? What 
does it look like for people in the real world? What are they 
doing? I mean, how are they dealing with this, and how much 
longer can they hold on? Because I really think on the record 
our colleagues need to hear those stories.
    Mr. Hartsfield. Well, just to give you an idea, since just 
deciding to participate in the shelling program we have been 
doing, we had 239, I think, at the last number, and out of that 
we have lost, like, the number is right around 60 that has 
actually moved away to find work elsewhere.
    Senator Rubio. Two hundred and thirty-nine participants----
    Mr. Hartsfield. Participants, correct.
    Senator Rubio.--of which 60 have already left.
    Mr. Hartsfield. And around about 60 has left.
    Senator Rubio. Left the industry or left the county?
    Mr. Hartsfield. They come back to the county as much as 
they can, but they have gone elsewhere to work. And then they 
are doing shutdowns, they are doing millwork----
    Senator Rubio. Whatever they can find.
    Mr. Hartsfield.--whatever they can find, you know, 
elsewhere. And I don't know what all those jobs are. But, I 
mean, I know that some are going to Louisiana, Texas, all over 
the county--I mean states, finding other jobs to do for a short 
period of time, where they can come back.
    Senator Nelson. Is that just since last August that 60 have 
left?
    Mr. Hartsfield. Yes, sir. That is just the numbers that we 
have participating in our program. You know, there are lot of 
guys that are still diehard that are struggling to try to make 
it. And they are not making it, you know. And you are looking 
at just the oystermen, but it filters on down. You know, you 
got----
    Senator Rubio. Yes, I am sorry, that was my next question, 
so I am glad you are touching on it. So we start at the 
oystermen. Can you describe what that chain looks like all the 
way down the line?
    Mr. Hartsfield. Well, you got your catchers, you got your 
wholesalers, I mean your processors. And then from there you 
got your truck drivers, you got your shuckers, you got half-
shell bars, restaurants. I mean, it goes on, you know. It goes 
from the state of Florida up to Georgia, all the way to New 
York City. You know, our oysters go everywhere, you know. And 
it puts a struggle all the way down that chain.
    So, you know, it is hard to explain something without, you 
know, being out there in the reality of it. You know, that is 
like with our shelling program. DACS, the Division of 
Aquaculture, has been doing a program for over 20 years of 
shelling this bay. We, as seafood workers, always tried to get 
them to come to our natural bottom and to shell, but their 
barges was too big. They could not get on top of our natural 
bottoms. So they just went somewhere and decided they were 
going to make a new bar. Never happened. Twenty years of it. 
Maybe one or two areas actually, in 20 years, that we caught 
oysters off of.
    You know, we are after putting shells back on our natural 
bottom to restore those. There are historical bars; they will 
come back. They have always come back. Tropical storms have 
destroyed them; they have come back.
    This process will speed that process up, you know. And I 
know that there is a lot of stuff now going into aquaculture. 
We are not against aquaculture. It is just that we have done 
that, we have been there. It is not going to work. But we know 
a hatchery would work here. I mean, the struggles we are having 
right now with a hatchery, to speed that process up would be, 
you know, great. And that is just finding the money to do it. 
But it would help us a lot.
    Mr. Banks. I can give you an example of people leaving. My 
brother is gone. Right now he is in Arkansas today doing a job. 
He has oystered his whole life up until 2 months ago. My 
brother, my brother-in-law, both of them are together. My uncle 
is out there with them.
    And not only do people not understand that it is our 
livelihood, but it is breaking our families up. You know, we 
are a tight-knit community. You want to walk outside of this 
door, everywhere I go everybody knows me, you know. And 
everybody knows everybody. And it hurts when you have family 
members that has been as tied as we are that have to leave to 
go make a living because somebody decided to block a waterway 
up that feeds our livelihood, you know.
    Man made this disaster; man can fix this disaster. Man 
needs to do his job. I can tell you, nobody here can understand 
it unless they crawl on that boat and they make a living doing 
it.
    Every day, every day, I have been doing it. I started 
oystering with my dad. I was probably 5 years old sitting there 
coloring. Never did I know it would turn out to be this. You 
know, when I was kid doing it, it was just something to do with 
my dad, you know. I didn't even realize then I was helping him. 
My boys do it now to help me. I realize what it was now, you 
know.
    But it is a livelihood, it is a lifestyle. And it is being 
destroyed because somebody wants to take more than their fair 
share and somebody don't want to do their job. And they are 
here with us today, and I hope they are paying attention 
because they can do something. Just like he said, they can open 
them waterways to traffic. If that is what it takes to get us 
water down here, put some traffic in the river, you know. We 
got to have some water so we can keep our bay.
    And the lady here, she said I think that they could round 
up $7 million. That is great. But I want the taxpayers to know 
just a couple months ago we sent our president to Africa with 
the sum of $110 million. But we can't save this community with 
$7 million? Come on. We can send him on a vacation for $110 
million, but we can't save an ecosystem in a community, a 
livelihood, a lifestyle? We are allowing it to die, and 
everybody is sitting back sleeping while it happens.
    Thank you again.
    [Laughter.]
    Senator Nelson. Mr. Hartsfield----
    Mr. Banks. Sorry, I am passionate.
    [Applause.]
    Senator Nelson.--tell me, you said that several failed 
attempts were made by which department to seed the beds?
    Mr. Hartsfield. The Department of Aquaculture, what we call 
DACS. They have had a program that they have done for years. 
And we have even moved to what we call relaying, which is 
moving oysters from one area to the next, which is out of a bad 
area to a good area, because of the water conditions.
    But with this little bit of money we just got, we are 
finishing up on a 6-month program. We are working on--we worked 
on Cat Point, which we might have touched 35 to 40 percent of 
it, maybe. And we are working on East Hole right now that, by 
the end of the program, we might get close to half, because it 
is a smaller bar than our Cat Point bar. But our Cat Point bar 
runs into--I mean, it is hard to explain our bars. They are 
huge.
    But we have put 7,400 cubic yards of clutch material out in 
these areas. We are documenting them. They are all, you know, 
these areas. So we have already started in a small point. I 
mean, maybe 2 percent of our bay is getting restored right now 
with this little first grant we have.
    Hopefully, with more studies with the University of 
Florida, they are stepping in and trying to help us learn and 
do projects that make sense.
    I mean, there are all kinds of projects we have seen just 
since--we have been in this bay all our life. We laugh at them. 
We already know that is not going to work. Just aquaculture, 
farming oysters, we know it is not going to sustain a living. 
There is no way in one month you are going to harvest enough 
off of a leased area to sustain you for a year. There is no 
way. We know that. It has already been tried, you know.
    But with the right management of this bay--we have already 
started. We got a SMARRT group. It is the Seafood Management 
Restore--my mind has gone blank--Seafood Management Assistance 
Resource and Recovery Team that has somebody in each basin of 
our seafood industry--crabbers, shrimpers, oystermen, dealers, 
associations--to look at these particular areas, not one person 
looking at the whole entire bay. You got somebody representing 
the whole ecosystem. With this committee, with the right kind 
of management of this bay, we can help this bay come back 
quicker.
    But we are not going to help this bay do anything, back to 
the same subject, without this freshwater. But we are making 
the steps, this county is making the steps to make a 
difference. But it is all going to be nothing without 
freshwater.
    Senator Nelson. Dr. Havens, tell us what is the role of 
IFAS with regard to these programs that Mr. Hartsfield is 
talking about. And which agency do you interface with to help 
them in replenishing the beds?
    Mr. Havens. Right. So mostly what we have been working on 
are things that can be done within the bay, because we don't 
have control over the water flow right now. But there are 
things that can be done to help the oysters recover. And these 
guys are on the right track, that if we establish a robust 
community of oysters out there, they will be more resilient to 
the next time the low-water-flow event comes and they will get 
the production going back up again.
    Department of Agriculture and Consumer Services is one of 
the agencies, and the Florida Fish and Wildlife Conservation 
Commission is another agency. Those are the primary two that we 
have been working with. Also, the Florida DEP and the Northwest 
Florida Water Management District. So there are really four 
agencies that we have been working with.
    Senator Nelson. OK.
    Let me ask you, Mr. Tonsmeire, as the Corps starts to 
update the Water Control Manual on the question of flow, can 
any tools such as the Endangered Species Act, be utilized to 
resolve this problem?
    Mr. Tonsmeire. It will not resolve the problem in the bay 
here.
    And maybe this sounds odd coming from me, but I have had 
the privilege of working with three colonels and two generals 
over my time at Apalachicola Riverkeeper and introducing them 
to Apalachicola River and Bay, and I find them to be the 
highest-quality individuals and people and the best-
intentioned. But what they were saying to you today is, we are 
required by law to follow the law. And that is their 
interpretation, is their version of meeting the law is to 
supply water for the endangered species.
    What General Schroedel, two generals back, said before a 
National Academies of Science testimony was, there is not 
enough water to meet all the uses in the ACF system. So 
individually I believe that, but, you know, as officers and 
servicemen, they do not disobey the law. They follow the law. 
And whoever is telling them that is the law, I will disagree 
with them, but essentially they are following their orders, and 
they are not going to change from that.
    And I think until the Congress changes the law so it is 
ultimately clear to them that they have to meet these flows 
down here, they are not going to--there is not the tool in the 
bag for them to do that right now.
    Senator Nelson. Let me ask you about, have we had any 
respected outside entity, such as the National Academies of 
Science, that has gotten into this in helping with the 
interpretation of the existing law?
    Mr. Tonsmeire. The National Academies of Science did hold 
two meetings in Washington to discuss the issue, and that is 
where General Schroedel made his comments. But the 
interpretation of the law has been slugged out in the courts. 
And it is what it is, and the Corps has their position on it.
    Senator Nelson. So, in your opinion, there is no wiggle 
room for the Corps as they develop the water control policy?
    Mr. Tonsmeire. If there is one thing they are, it is 
consistent. And that has been their message for the 30 years I 
have been working in this, is that they are not authorized to 
provide flows to Apalachicola River and Bay. They have their 
authorized purposes of the basin. They meet those. The 
Endangered Species Act requires them to provide flows for 
endangered species. That is their interpretation of fish and 
wildlife authorization. And that is their story, and they have 
stuck to it.
    Senator Nelson. I know you are not a lawyer. Do you have 
any opinion with regard to the lower court, the district court 
judge's ruling that gave that flexibility?
    Mr. Tonsmeire. Well, I think he was a very smart man, of 
course. But the Clean Water Act, the Coastal Zone Management 
Act, there are other ways to interpret what the Corps' 
authority and what their responsibilities are. But for whatever 
reason, they have chosen that.
    I think Judge Magnuson, I think, if you are referring to, 
he clearly made it evident that he felt water supply was not 
one of their authorized purposes. And that has been reversed. 
So I don't----
    Senator Nelson. And what is it in the existing law that 
they think suggests that the upstream water supply takes 
primacy over the water supply for downriver users? What do you 
think of that interpretation?
    Mr. Tonsmeire. I think that Pete Taylor sort of answered 
the question when he said, you know, we interpret the fish and 
wildlife authorization as us needing to abide by the Endangered 
Species Act.
    Senator Nelson. Only that?
    Mr. Tonsmeire. That is--is that right, Pete?
    Colonel Taylor. Fish and Wildlife Coordination Act and 
Endangered Species Act are our main fish and wildlife purposes.
    Mr. Tonsmeire. OK.
    So if you look in the manual in how they determine what 
they release to us, it is based on a biological opinion from 
the Fish and Wildlife Service on what the minimum flow releases 
are to provide for those endangered species--three mussels and 
a sturgeon.
    Senator Nelson. And that is it?
    Mr. Tonsmeire. Yes, sir.
    Senator Nelson. OK.
    Dr. Havens, do you have any comment?
    Mr. Havens. No. Thank you very much.
    Senator Nelson. Senator Rubio?
    Senator Rubio. Yes, just one last question.
    Mr. Tonsmeire, I understand that when we were debating the 
Water Resources Development Act in the Senate, you began a 
dialogue with some of the water managers in Alabama. Is that 
correct?
    Mr. Tonsmeire. Yes, sir.
    Senator Rubio. And can you just describe the progress that 
was made there or the nature of it?
    Mr. Tonsmeire. Well, mostly we talked with Brian Atkins 
from the--he is the director of the Alabama Water Resources 
Department.
    And, essentially, the state of Alabama had their track of 
the best thing for them was to control the Corps' operations in 
Lake Lanier, because they felt like what the Corps was doing up 
there was essentially doing what we think, is they are taking 
the water away that could benefit Alabama. That is both in the 
ACT Basin and the ACF Basin. There are large Corps reservoirs 
in the tops of both of those basins. Both of them affect 
Alabama.
    Their interests were best served by them getting control of 
the Corps' operations to make sure that they don't provide 
benefits to Georgia without considering what was going on in 
Alabama. They didn't want to switch onto a different track that 
would maybe divert the attention away from what they needed. So 
they were not willing to support the freshwater flows language.
    Other stakeholders that we spoke with understand that 
Mobile Bay is actually having somewhat similar impacts from 
Corps operations as Apalachicola Bay. They are just not nearly 
as dramatic as what is going on here. Their white shrimp 
harvest and spawning has been reduced significantly in that 
bay. Their oyster harvest is significantly reduced. But they 
have more oil wells over there in their bay, and we kind of 
like our oysters here. So I know that they have also problems 
on the rivers below some of the Corps dams in Alabama, where 
the rivers have fish kills because of high DO because of low 
releases.
    It is not that--I don't think that I can make any 
statements for them other than they were stuck on their track 
and didn't want to change. I don't know that they will oppose 
the language that Senator Nelson drafted. I never got a clear 
statement on that.
    Senator Nelson. Dr. Havens--and this will be about the 
final question unless, Senator Rubio, you have some additional 
ones.
    But the problem is not just the holding back of the water 
at Lake Lanier and that flow south, although that is the major 
problem. The problem also is illustrated by that map and that 
chart of all the water consumption that is being sucked out of 
the ground that would otherwise flow into the basin, either 
into the Flint and/or the Chattahoochee. And with that chart, 
we were shown just how prolific all of that water consumption 
is. That, of course, is a great agricultural area in southwest 
Georgia that is running right along the Flint there and over to 
the Chattahoochee.
    So that is all governed by state of Georgia law, water 
consumption. And yet, what it is doing is it is affecting an 
adjacent state--two states. How do you think we ought to 
approach that?
    Mr. Havens. Well, yes, so we talk about Atlanta, but there 
is a huge amount of water that is being withdrawn out of that 
Flint River Basin by those agricultural operations.
    Florida has addressed it through implementing ways to 
conserve water with irrigation systems. I don't think it has 
been done to that extent in Georgia. They don't know the 
process. Because then you have to start talking with an 
agricultural engineer. I mean, there may be a way to do it that 
doesn't affect their crop yield, that really doesn't affect 
their bottom line, and it is a win-win for everyone.
    And it has been done other places. I worked in south 
Florida for a long time, and it has been done in big 
agriculture areas like the EAA. And there are ways to conserve 
the use of water and still have a good crop yield and still 
have water going to natural areas. So it isn't inconceivable 
that that could be done.
    Senator Nelson. The fact that recently we have seen an 
enormous amount of rainfall in that part of the southeastern 
United States, are we going to see any relief of the water that 
is coming through the Flint coming down here into the 
Apalachicola?
    Mr. Havens. I think we will have to see what the weather is 
like over the next couple of years and the water withdrawals to 
really know. It is going to take several years of good flow 
conditions for the oyster population to recover.
    There are two interesting things nobody mentioned, but if 
you have ever looked at the river flow history, it goes up and 
down. It looks like the teeth of a saw. And in the wet season 
when we get a lot of rain, it is really high. And that is 
important because that pushes all of those predators and things 
back out into the Gulf of Mexico.
    And in the dry season, it looks lower but there are little 
bumps in it, and that is important, too, because it keeps the 
system in what we call disequilibrium. And last year it was a 
flat line. And a flat line is really good for predators and 
things because it is very predictable. And they get in there 
and the conditions are just always good for them and they don't 
get those little blips.
    And that is probably the part that would be easiest to 
influence by some flow of water down the river. Maybe you can't 
simulate by adding water from reservoirs a wet season pulse, 
but that dry season thing might be something that could be 
influenced.
    Senator Nelson. Mr. Tonsmeire, does this exceptional amount 
of water consumption in the Flint Basin, does that suggest that 
the state of Florida should be considering a lawsuit, how one 
state's water consumption is affecting another state's economic 
and environmental interests?
    Mr. Tonsmeire. I believe there is the case for that, 
Senator. That is probably one of the next lawsuits on the 
horizon if we can't resolve this. That is a direct challenge in 
the original action in the Supreme Court.
    And I think there is no question that we can show the harm 
that we are suffering in Florida, but it is a long, drawn-out 
process, and these guys are not going to survive that. I think 
if there is a way Congress can deal with it in short order, it 
would be best.
    Senator Nelson. Senator Rubio?
    Senator Rubio and I want to thank all of you for coming. We 
want to thank each of the panels. We want to thank the 
Congressman who led off in the first panel.
    The Committee record will remain open for 10 business days 
for Senators to submit questions and for any member of the 
public to submit testimony for the record.
    And we want you to know how much we appreciate everybody 
showing their interest today.
    With that, the hearing is adjourned.
    [Applause.]
    [Whereupon, at 1:17 p.m., the hearing was adjourned.]

                            A P P E N D I X

As solicited at the conclusion of the live hearing on August 13 in 
        Apalachicola, 
        Florida, the following comments are submitted ``for the 
        record'', subject as above:

    I am David McLain, a U.S. citizen voting in Franklin County, 
Florida. I have been closely involved in the water management dispute 
between Florida, Alabama, and Georgia for over 15 years in a variety of 
roles, paid and, lately, as volunteer and community advocate.
    First, I thank our two Florida Senators, Sen. Nelson and Sen. 
Rubio, for their sponsorship and informed leadership of today's Field 
Hearing of this Senate Committee. As all who were present will testify, 
the meeting spaces were jammed to overflowing with concerned citizens 
whose very lives and futures are dependent on subsequent actions taken 
by our Federal Government. As a water management dispute of over 22 
years of failed negotiation, mitigation, and litigation directly 
involving three states, an equitable allocation of the freshwater flows 
of the ACF Basin will not be resolved without active Federal 
intervention in this interstate ``water war''.
    Second, it is entirely too easy to blame the Federally recognized 
catastrophic failure of the Apalachicola fishery on the volume of 
freshwater flows downstream during recent drought conditions. Drought 
is undeniably an unfortunate recurring event in Nature. But I must 
assert as forcefully as I can--the severity and duration of any drought 
are due to the actions of Man, or Man's failure to act. Significant and 
mandatory restrictions on water consumption, plus aggressive repair of 
water-handling infrastructure, and implementation of restrictions on 
permitting of water use are critical management actions during any 
drought.
    Finally, I would argue it does little good to vilify the Corps of 
Engineers, the farmers of the Flint Basin, or the citizens of Atlanta 
while we seek a rational resolution of this shared problem. I might 
even go so far as to say, we will never reach a sustainable solution 
for adequate freshwater flows to a healthy and productive Apalachicola 
Bay until we help Atlanta and the south Georgia stakeholders find a 
mutually acceptable solution to meeting their water needs. A Basin-wide 
agreement has been reached in similar circumstances--such as the 
Delaware Basin Regional Authority. Shared gain or shared pain.
    PS: The most ``Endangered Species'' in our Apalachicola River and 
Bay is a two-legged variety . . . our 4th generation Apalachicola 
Oysterman.
                                              David McLain,
                                            Governing Board Member,
                         Apalachicola-Chattahoochee-Flint Stakeholders.
                                 ______
                                 
    The flow running down the Apalachicola River has impacted our 
organization's philanthropy coming out of Franklin County, Florida. The 
economic impact to businesses and individuals who support our mission 
has shown a sharp decline.
                                               Dan Samborn,
                                                               CEO,
                                        Capital Area Chapter Red Cross.
                                 ______
                                 
    There is no way that any one or two states should have the legal 
right to control a river running through their state, into another 
state. This is one thing I believe that should be under the Federal 
Government. I am not a big fan of Federal control, but in this case, 
there is no other answer. It's time that the politicians in Atlanta 
give up washing their cars and watering their lawns, and do what's 
right. . . .
                                               Gary Shannon
                                 ______
                                 
    Please accept this as my comment on the public hearing held August 
13, 2013, in Apalachicola, Florida. I have lived here all my life (I am 
now 51 years old). I have seen the shift in the balance of freshwater 
and salt water in the Apalachicola Bay. The Bay is now much saltier. I 
have seen the devastating impact on the Bay, the Apalachicola River, 
and our economy. Please help us save the River and the Bay, and our 
seafood industry. Thank you!
                                          J. Gordon Shuler,
                                                           Esquire,
                                   Law Office of J. Gordon Shuler, P.A.
                                 ______
                                 
    To Whom It May Concern:

    I am the Executive Director of the Carrabelle Area Chamber of 
Commerce. I attended the hearing on August 13th in Apalachicola about 
the water flow in the Apalachicola River. It is critical for the 
Apalachicola Bay to get enough freshwater so that our oysters and our 
marshes, where our sea life begins and is nurtured to live. We have not 
received an adequate flow of freshwater for this to maintain our sea 
life. Our main industry is the seafood industry and it has become a 
critical situation for our people. Our seafood industry is a 
generational one and if the Bay does not get the right amount of fresh 
flow, then the Bay will die. This industry has a trickle down effect, 
from our restaurants and all shops that depend on our tourism due to 
our beautiful Bay. There is no other place in our country that has the 
eco-system that we have with our Bay and Estuaries, they are priceless 
and need to be protected and fed.
    Please help us same our Bay and the lives that depend on it.
            Thank you,
                                         Suzanne Zimmerman,
                                                Executive Director,
                                   Carrabelle Area Chamber of Commerce.
                                 ______
                                 
    I personally believe as a restaurant owner on SGI the oysters are 
being over harvested and rules/regulations on size are not being 
properly enforced. We are constantly buying oysters and paying premium 
prices and getting junk. Here lately the bay has been closed several 
times because of too much fresh rainwater as well as the Apalachicola 
River flooding.
                                               Mike Cannon,
                                         The Beach Pit Restaurant, Inc.
                                 ______
                                 
    Funny how all this is happening during a year of heavy 
precipitation which has all the reservoirs filled to the bring along 
the entire ACF basin and a recurring flood stage warning on the 
Apalachicola River. I was on the courthouse steps yesterday to see the 
ludicrous signage mandating that water be released from the Dams 
upstream. The well intentioned but hugely misinformed persons present 
at this protest don't really get the big picture at all. These are 
changing times and the high cost of fuel combined with cheap foreign 
imports and years of overharvesting are as much the cause of collapse 
of the seafood industry as any water flow concern. The reality is that 
it is unreasonable to choke off the drinking water supply to the many 
millions of people upstream to save a few thousand jobs in Franklin 
County. As a sixth generation resident of Apalachicola whose many years 
in the ``real'' world have included military service, eight years with 
the international accounting and consulting firm Ernst & Young, an 
entrepreneur who grew a technology company from a spare bedroom 
operation to a healthcare technology firm with gross revenue of nearly 
$20 million which was purchased by Bank of America, and now retired 
back in Apalachicola, I see the need for innovation and a new economic 
model based on maritime heritage and educational tourism. Is this 
situation so much different than the collapse of the seafood industries 
in the Northeast? NO. . .  Instead of wasting time and money propping 
up economic models that are no longer viable, it is time bring 
investment in visionary new models and help train our citizens to make 
the transitions that so many others have been made. My great great 
Grandfather Samuel Floyd came here in 1842 during the time that 
Apalachicola was a international port made rich by the export of cotton 
from plantations upstream. Through time the area has seen many 
industries come and go including cypress lumber mills that dominated 
the waterfront, naval stores industries that flourished by creating 
many extracts from pine rosin before the advent of petroleum products, 
sponge harvesting and others. Government was not here to prop up those 
industries during transition. Instead entrepreneurs lead the way to 
change as best they could. The statewide net ban which devastated my 
grandfather's business . . . and so another way of life saw a sunset. 
It is time for leadership at all levels to invest in new ideas and 
economies rather than pander to the well intentioned but misinformed.
    My father was the director of Information and Education for the 
Florida Wildlife Conservation Commission where I came to be aware of 
our natural systems and wildlife. I have lived for 23 years on Lake 
Lanier and now live back home in Apalachicola. That gives me another 
perspective not shared by many. I have sponsored the award winning NPR 
documentary at http://www.wuft.org/projects/rivers/intro.html. Upon 
retirement, I founded the Apalachicola Maritime Museum www.AMMFL.org 
where we are in the midst of reviving wooden boat building with a 
program recognized by the Florida Department of Education where we have 
been invited to present at the state conference in Orlando in October. 
We are bringing commercial paddlewheel travel back to the river with 
the first commercial transportation provided since 1927. We are opening 
a 120 acre campus in Chattahoochee FL where the traditional riverboat 
landing exists.
    If every you would like to discuss this I would be enthusiastic 
about the opportunity to share visions for the future.
            Respectfully,
                                        George Kirvin Floyd
                                 ______
                                 
    The U.S. Army Corps of Engineers is starving the Apalachicola River 
and Bay of the freshwater they need to survive. Congress created this 
problem by giving the Army Corps a free hand to manage the 
Apalachicola-Chattahoochee-Flint system to benefit upstream states at 
the expense of Floridians and the River, Floodplain and Bay. Only 
Congress can fix this problem.
    I call on Congress to act now to pass legislation requiring the 
Army Corps to operate the Apalachicola-Chattahoochee-Flint river system 
to ensure that the Apalachicola River, Floodplain, and Bay receive the 
freshwater flows needed to support, restore, and reestablish healthy 
populations of fish and wildlife and the vibrant resource conservation 
based economy that relies on a healthy natural system.

                                                Lesley Cox,
                                             Certified Green Guide.
                                 ______
                                 
    I feel this is an excellent opportunity for every community which 
shares the watershed that Impacts Apalachicola Bay. There are great 
examples of wetland restoration via WRP, CRP, EQUIP that should be 
fully funded and additional allocations made. Also as an organic farmer 
for over 30 years and an advocate for clean water I also know that 
these farming, gardening and lawn care techniques sequester carbon, 
filter storm drain runoff, mitigate the runoff off nitrogen fertilizers 
which create Dead Zones. We know that educating and informing the 
public as to their role and contribution to clean water, healthy food 
and safe lawns in their communities they in turn contribute to the 
health of a clean and thriving bay. This great bay should be protected 
under every means possible. The health of the waters and the strength 
of the economy and local culture depend upon urgent and impressive 
measures.
    There must also be more done to stop sewage runoff into this bay. 
Under no circumstances should there be efforts to attract more tourists 
to the area without first attracting and retaining those who come here 
about the importance of their own stewardship. We have too many now, 
local and visitors who feel entitled to behave how they so choose. This 
is an opportunity to make Franklin County as well as Wakulla, Gulf and 
our neighboring counties and states to the north to become the 
``greenest'' in the country. Let's show the Nation that we really care 
about the future and are going to pull out all the stops to make that 
happen. Schools could also play a huge roll in this endeavor. This area 
is so fragile and attempting to invite more people here is a huge 
mistake. We need Eco warriors as our guests not consumers only. 
Visitors and residents can and should become the voice for the Nation 
as to how together we can create a vibrant watershed shared by many, 
not just a select few that enhances the economy while making the 
environment and its inhabitants the top priority.
    Please take advantage of all the existing resources to adopt non 
polluting, more conserving and over use of our precious water. Every 
home and business should have rain catchment and mitigation plans 
Implemented.
    Thank you for your efforts. If there is anything I can do to help 
with these efforts I would be honored to help.
    God Bless America and God Bless Apalachicola Bay
                                            Lorna Donaldson
                                 ______
                                 
    Help!
    We really need some freshwater down here and hope you'all can make 
that happen.
    It seems like a no-brainer but somehow has stumped even the most 
intelligent folks.
    Please help our water flow into the Apalachicola Bay as it should, 
this is hurting our pristine area, the wildlife, the oysters and our 
businesses.
    Please, please, please do the right thing.
    Thank you so much for your assistance with this crucial matter.
                                           Dixie Partington
                                 ______
                                 
    Water is life. Every plant and animal on this planet needs water to 
survive. When natural conditions deprive an ecosystem of the water it 
needs, that is unfortunate but understandable. When a state deprives an 
ecosystem of the water it needs to survive, so that the citizens of 
that state can have greener lawns and cleaner cars, that is deplorable 
and avoidable. We, the citizens of Florida, are not asking Georgians to 
deprive themselves of the water they need for their life, their 
livelihoods, and the life of their ecosystems--We are only asking that 
they not deprive Florida of its cherished ecosystems by wasting water 
on the pursuit of vanity.
            Thank you,
                                            Erik C Johnson,
                                                      Bristol, Florida.
                                 ______
                                 
Dear Florida Congress,

    Not only did my grandfather drive up to Apalachicola regularly to 
savor fresh oysters in the 1920s and all his life, I, too, fell in love 
with Gulf County when I was a graduate student at Florida State. My 
husband and I vacation in Indian Pass and Port St. Joe several times 
annually to enjoy this perfect place which has already been dealt a 
blow by the Gulf spill. I urge you to proceed with a course of action 
that will preserve both the oyster habitat and the way of life for 
these people. Humans can adapt to water reallocation; oysters cannot. 
That we understand what is happening here and can still do something to 
reverse it is nothing short of wonderful. Please go to heroic lengths 
for the sake of this beautiful Florida coastal gem.
            Sincerely,
                                      Lara Moody McGlohorn.
                                 ______
                                 
    I recently visited Apalachicola as part of the Natural Resources 
Leadership Institute which is focusing on water issues throughout the 
State of Florida. I was incredibly moved by the close-knit community 
there and how real the oyster situation is there. Residents are 
struggling to survive on their long-found culture and heritage. They 
have done all they can as a county to fight these water wars and they 
take pride in the Bay, but they continue to suffer from actions further 
north. The Bay has several recognitions all the way up to the 
international level. If we cannot protect a Bay which have proven to be 
a vital source of life for both people and animals, where are we to 
find hope in the future? We experienced similar water wars here in 
Pinellas County which led to the creation of Tampa Bay Water who helps 
to control the distribution of this critical resource. I ask that you 
take this situation extremely seriously and to heart and our people are 
being affected right now. This is real.
    Thank you for your time and consideration on this issue.
                                                Lara Miller
                                 ______
                                 
To whom it may concern,

    I wanted to take a moment and send an e-mail and voice my concerns 
regarding the current water issue in Apalachicola Bay. I'm quite sure 
that you are aware of the current situation that is taking place there.
    This is a very unique ecosystem and a vital part of life for not 
only mankind but nature as well. Many families, and not just those in 
that particular area would be affected by the loss of the oyster 
industry. The fisherman are a start but it goes deeper than that. The 
truck drivers that transport the harvest, restauranteurs and many more 
would suffer if there were no more oysters.
    Furthermore, this estuary provides habitat for many aquatic species 
as juveniles before they reach maturity and continue their life cycle 
in deeper waters. Grouper, being a staple in many restaurants and food 
supply chains and a sought after species in the sport fishing/tourism 
arena call this area home in its early stages of life. Other fish 
including mullet, which create numerous employment opportunities also 
reside here. Crab and many other forms of shellfish and crustaceans 
rely upon this nutrient rich area as well.
    There are also benefits to be reaped during hurricane season from 
having these oyster beds in Apalachicola Bay in that the structure of 
the beds slows storm surge associated with these tropical systems.
    If something is not done to stop the current trend and the crisis 
that is taking place, it will certainly be devastating on many levels. 
I urge you to take a moment to think and do what is necessary, not to 
mention the right thing to do, to save this important environment. 
Thank you for your time.
            Sincerely,
                                            Clinton M. Dyer
                                 ______
                                 
    If minimum flow standards are not implemented by the ACOE, then it 
is only a matter of time before drought conditions spur Atlanta to 
hoard all the water that the river has to give. This will cause the bay 
to suffer a catastrophic degradation of its estuarine capabilities. 
When that happens the bay dies, the town dies, and the country loses 
one of its great ecological treasures.
                                            Edward Michaels
                                 ______
                                 
Dear Sara,

    I wonder what our priorities are when we come so close to allowing 
the total destruction of indeed the last great bay? I understand the 
economics of the situation clearly: Atlanta wants, no demands, more 
water to fuel its sprawl and like greedy children intent on having more 
than our fair share, we are so myopic in our greed that we turn a blind 
eye to others who have a vested interest in this resource, water. There 
has got to be another way to achieve Atlanta's need to continue growing 
(though I don't see that need and I live here) and the more important 
endeavor (in my eyes) of ensuring sufficient water flow to the 
Apalachicola basin.
    Because if we continue strangling this area by not restoring the 
flow to the rivers that feed it we aren't just killing the bay and all 
its flora and fauna but we are murdering the lives and the livelihoods 
of those who rely on this beautiful national treasure for work and 
play.
    I have been going to the ``Forgotten Coast'' and ``Appalach'' ever 
since I was a young girl. My Daddy owned a large fishing boat we kept 
at the marina there.
    Nothing is better than driving in 98 from Port St Joe to 
Apalachicola. A stop at Boss Oyster is a must, or the Gibson Inn, going 
over the St George Island Bridge and seeing the oystermen tonging the 
oysters up as they have done exactly the same way their daddy's and 
granddaddy's many times removed have done. Or fishing off the dock with 
my family while on vacation. We always catch something in the bay.
    But continue to strangle this national treasure then all the 
economic benefits from tourism, fishing, scalloping, boating, eating 
fresh seafood at The HUT in Eastpoint, Florida . . . well guess what?
    That will all be gone..not to come back any time soon. Can we as a 
nation afford that? You may think it is just one bay, but it's 
not..It's a way of life for many of us whether we live there or not.
    So in this argument over water rights we as Georgians must bear in 
mind that growth is good to a point but what about the greater good for 
our region and our nation? Is our growth as a city more important than 
ensuring that the Apalachicola area remains a healthy and vibrant part 
of our Southeast USA economy? No we don't need more fake lawns to water 
here in Atlanta nor another parking lot for a business office.. Our 
time is now and in that time we indeed need to ``Save the Appalach!!''
            With warmest regards,
                                                 Becky Lang
                                 ______
                                 
    As a former resident of Georgia for over 20 years and a current 
resident of Franklin County, Florida, I am well acquainted with the 
water issues that have been deliberated for longer than anyone really 
wants to recall. I am sure you are well aware of the issues as well.
    The Atlanta population is sprawling with little effort to impose 
any control and without serious effort to develop alternative water 
resources. I am sure you recall that Atlanta only committed to 
rebuilding its polluting sewer system in the last several years after 
numerous suits from the Federal Government, preferring to continue to 
dump raw sewage into the Chattahoochee River for decades and pay fines 
than to take responsible steps to correct the problem. Against this 
kind of environmental indifference, the problems of one of the least 
populous and poorest counties in Florida stands little chance of 
notice. As you are also well aware, because of its role in the 
development of numerous species of water life, the fate of Apalachicola 
Bay will influence communities and commerce far beyond the boundaries 
of Franklin County and even the State of Florida. It would seem that in 
this time of increased recognition of the importance of environmental 
sensitivity, saving the Apalachicola Bay would be a national priority.
    Please work to insure adequate water flow in the Flint-
Chattahoochee-Apalachicola river basin for the benefit of a way of an 
industry, a way of life, and in great measure, the Gulf of Mexico.
            Sincerely,
                                  Francis and Sylvia Giknis
                                 ______
                                 
Hello,

    We are concerned citizens. We love Apalachicola Bay. We love the 
hardworking citizens of Franklin County.
    Please don't let the bay be destroyed.
    My family and I live in Deltona, Florida. We travel to Apalachicola 
Bay to enjoy the fishing and gather oysters when we can.
    Please help find a way to restore the flow of freshwater downstream 
into the bay. The chokehold that our neighbors in Georgia have on this 
valuable resource is killing the bay.
    Thank you and God bless.
                                   Robert and Betty Daniels
                                 ______
                                 
    Dear Senator Gibson [sic]--please keep the water flow to this Great 
Basin. Our livelihood depends on it. Also don't you love clams, shrimp 
and oysters? Where will we get them from? Our other sources have 
radioactivity.
            Basically yours,
                                            Kentucky Parkis
                                 ______
                                 
    I'm a full-time resident of St. George Island and have owned my 
home since 2000 but have been visiting SGI since the mid-1980s. There 
has been significant changes in this time. I live on the water on St. 
George Sound and am extremely concerned about our river, bay and 
estuary systems. In addition to the problems we're experiencing with 
the oysters, I have noticed a significant decline in the number of blue 
crabs in the bay. There's no telling how much the lack of freshwater 
has affected the shrimp, grouper, and other treasured seafood 
populations.
    My husband and I used to catch upwards of 70 blue crabs a week in 
crab traps off our dock. These last 2 to 3 years, we're lucky to catch 
2 to 3 crabs a week. Just a couple of weeks ago, we put out 3 traps for 
3 days and only caught 1 crab. This appalling, concerning and not 
right.
    In addition to our experience with the lack of blue crabs, our 
oyster industry is suffering terribly. Seeing our oystermen and women 
working the bay is one of the things we treasure and attracted us to 
SGI. There is no valid reason this should be put in jeopardy. Florida 
has taken responsibility for actions to preserve water. It is only fair 
and right that Georgia and especially, Atlanta, be required to 
implement water saving measures. They have unbridled growth which is 
negatively affecting others who are downstream in Georgia, Alabama and 
Florida. This needs to be immediately stopped. For what reasons are 
they allowed to continue this practice???!!!
    Please mandate that the Corp of Engineers administratively resolve 
the problem of freshwater flow from Lake Lanier by changing their 
manual to resolve the water war between Georgia, Alabama and Florida.
    Thank you.
            Respectfully,
                                        Gail M. Riegelmayer
                                 ______
                                 
    The town of Apalachicola, sitting as it does on the river and bay 
from which it takes its name, is a near-miracle of preservation of 
Florida as it used to be. It is often cited as a model for New Urbanist 
developments such as Seaside. It's continuing existence as a healthy, 
balanced community is dependent on the continuing health of the 
Apalachicola River and Bay. It is ironic that the health of 
Apalachicola is being sacrificed to the profit of Atlanta, itself often 
cited as an example of the worst excesses of poorly conceived urbanism. 
Please assure the health of the river and of the bay and preserve 
Apalachicola.
                                              Arthur Mazyck
                                 ______
                                 
Dear Senate Committee:

    As a lifelong resident of Florida, it pains me to see what has been 
happening to the freshwater supply for the Apalachicola River and the 
economic problems that have occurred for the seafood industry and for 
the hardworking people of Apalachicola and nearby communities.
    I think it is important to this country that we maintain our rivers 
and bays to be productive for citizens and for the economy. This bay is 
essential to the lives of so many people.
    Please make every effort to insure that adequate freshwater flows 
into the river from Georgia and that the bay is sustained in a way that 
will help the communities. The fishing economy is important not only 
there, but for what it does for people all over the United States with 
products that are part of the food that America eats.
    We cannot afford for this natural resource to be crippled.
    There must be a way to share.
            Sincerely,
                                          Michael E. Abrams
                                 ______
                                 
To whom it may concern,

    It is real simple. Save Apalachicola Bay! People travel around the 
world and come to this area and love it because it is a one of a kind 
place. We have something unique in this area unlike anywhere else. We 
have fresh and salt water habitats that are closely tied to one 
another. Changing this balance and allowing the Apalachicola Bay to 
``die'' will destroy not only the environment but the way of living in 
this area. I ``hog'' my own oysters for my family and my children love 
the experience of going out in the bay and picking our very own oysters 
and taking them home. We do not have to pick our own oysters but we do 
it for the experience. Everyone should be given the opportunity of 
being out on a cool winter morning standing on an oyster bar and 
enjoying the sights and sounds of nature. To coin a popular saying 
``it's priceless.''
    This last winter I went to several oyster bars and was saddened to 
see little to no new growth on these bars. Actually, they looked dead. 
I know this has to be devastating to the industry as a whole and will 
undoubtedly change the way of life people from here expect and deserve. 
We cannot control every aspect of our destiny but our way of life is 
being challenged and we have had no say in this matter--that is not 
right and we respectfully ask that we be allowed to take more control 
of our waterways!
    How many places in the world can you get a bucket of oysters, go 
100 yards away, and catch a monster Black Drum--not many places.
    Help restore and retain the environment we love!
            Thank you,
                                            Ron Baumgardner
                                 ______
                                 
    Federal law mandates that when a river flows between two or more 
states, each state has a right to an equal share of the water. 
Additionally, other laws such as the Endangered Species Act require 
that water be available for threatened or endangered species that live 
in or around Chattahoochee River and Apalachicola Bay.
    If Congress and the U.S. Army Corps of Engineers do not act to 
enforce the Federal law to share equally the southern water flow from 
the Chattahoochee River, which runs through three states, they possibly 
will be causing the extinction of the Apalachicola Bay oyster.
    The Apalachicola Bay oyster, the seafood industry, and working 
families that depend on the oyster for their livelihood, indeed, are 
threatened or endangered by Buford Dam's and Lake Lanier's manmade 
disruption/overuse of the Chattahoochee River's southerly flow through 
south Georgia, Alabama, and Florida to Apalachicola Bay. The 
Apalachicola Bay oyster NEEDS the normal flow of freshwater not only to 
thrive, but to survive! Georgia Senator Johnny Isakson said it right in 
2007 when he stood before his state's General Assembly saying, ``The 
health, safety and welfare of people are threatened. They are 
threatened by an act this Congress passed that had no intention to 
threaten them.''
    Congress, please act to avert this disaster. The Federal ``equal 
share'' law and the Endangered Species Act are there for you to 
enforce. Please Save the Last Great Bay!
            Thank you,
                                           Patricia A. Vest
                                 ______
                                 
    The Apalachicola Bay is one of America's greatest natural 
resources. It's very survival, and that of the thriving American 
communities who live there, depends on adequate water flows from the 3-
state ACF river system.
    Currently, too much water use in Georgia has reduced flows to 
Florida excessively. This is a difficult issue and requires careful 
mediation between the 3 states, at both governmental and civil society 
levels.
    Congress should:

  <bullet> encourage and support a negotiated interstate solution.

  <bullet> instruct the U.S. Army Corps of Engineers to manage, with 
        technical input from the U.S. Fish and Wildlife Service, on 
        behalf of all of the ecological services and values of 
        Apalachicola Bay.

            Thank you.
                                    Robert Buschbacher, PhD
                                 ______
                                 
    Why do I think the Apalachicola river and bay is worth saving? 
Because we all need to believe people can still work together to do the 
right thing. It could be a story to be told for generations, of how 
something so very wonderful and magical as this estuary was saved from 
the brink of destruction. Please be a part of saving one of the few 
last best natural places on earth.
                                           Caroline Weiler,
                                           citizen of Apalachicola.
                                 ______
                                 
    Dear Lawmakers, Please do all you can to save the Apalachicola 
River and Bay. This area is beautiful, historic, and recreational. It 
also serves the tourist and seafood industry. The best oysters in the 
world come from here. I've lived in this area for 45 years. Please 
don't let this major source of tourism, recreation, seafood, and jobs 
disappear. The locals have done their part; now please do yours.
            Thanks.
                                              Janis Courson
                                 ______
                                 
Hello:

    I am appealing to Congress to take steps to save the Apalachicola 
River and bay and to ensure the livelihood of thousands of people in 
Franklin County. I have had the privilege of visiting the river and bay 
since I was a boy. As an adult, I have kayaked the entire Apalachicola 
River twice and I have taken multi-day kayaking trips along the bay 
inside the barrier islands of St. Vincent, Cape St. George and St. 
George, so I feel I know the system well. I have seen a steady decline 
in both water levels and seafood production and fear that this system 
may end up like the once mighty Chesapeake Bay unless strong action is 
taken soon. The Army Corps of Engineers must be mandated to allow 
enough water into the Chattahoochee/Apalachicola system to sustain a 
viable oyster industry in the bay, as well as to support the many other 
life forms that depend on the proper balance of fresh and salt water. 
We cannot afford to wait. Please act now!
                                              Doug Alderson
                                 ______
                                 
    My wife and I owned homes on Lake Lanier in Gainesville, GA and 
Dawsonville, GA over a span of 16 years, and lived in Atlanta for 27 
and 33 years respectively. We have owned a home on St. George Island 
since 2002, and until last year a bay front lot on St. George Island.
    Atlanta, the state of Georgia, and the Corps of Engineers need to 
equitably share the water from the Chattahoochee and Flint Rivers with 
Florida so that one of the most productive fisheries in North America, 
and poorest counties in Florida, can be perpetuated for the good of 
people throughout Florida and elsewhere.
    Having spent most of my life in Atlanta and the Panhandle of 
Florida I can assure you that from my perspective, and that of many 
others, Florida is deserving of it's equitable share of freshwater 
flowing into the Apalachicola Bay versus the excesses of water usage by 
the state of Georgia.
    Assist us in obtaining what is right and necessary to sustain our 
fisheries, the citizens of Franklin County, and others.
    Thanks for your consideration and assistance.
                                                Mark Hillis
                                 ______
                                 
Senate Commerce Committee members:

    I live near the Apalachicola Bay, over in next county over 
(Wakulla). The Apalachicola River and Bay system is truly a unique, 
beautiful, and ecologically important ecosystem, which supports a wide 
variety of nature-based activities. I have personally fished and 
kayaked throughout the Bay, in addition to enjoyed the many beaches, 
and it is no doubt one of the best places in Florida, probably the 
entire Southeast. As a former fisheries scientist for the State of 
Florida, I have firsthand knowledge and experience of the true bounties 
that are produced in that Bay. I have pulled many sampling nets through 
its waters, and have spent many hours on fishing docks sampling fish 
caught by recreational anglers and commercial fishermen. It is ironic 
that many of the out of state residents that I have 'interviewed' on 
the docks originate in the greater Atlanta area. And I have been in 
Atlanta grocery stores where fish caught off Apalachicola are sold. The 
world in not disconnected. We are all in it together. We all have to 
take care off each other's backyards, not just our own. We send men and 
women to Congress to help solve cross-regional problems and issues in a 
bipartisan manner. We expect nothing less. We are counting on you to 
help save the Apalachicola River and Bay.
    The Apalachicola system is much more than just the primary species 
that receives the most media attention: the oyster. While the current 
fate of the oyster population and fishery is truly unfortunate, it 
completely preventable and hopefully reversible. However, oysters are 
but the sentinel species for the health of the Bay. But the 
Apalachicola is one of the most biologically diverse ecosystems this 
side of the equator. The vast array of species, plants and animals, 
need ample freshwater mixing with the seawater flowing through the 
system. Nutrients mixed with the freshwater from the Apalachicola River 
no doubt reach offshore to the multiple and economically important 
species during the right time of the year to provide sustenance for new 
larvae. People and businesses in and around Apalachicola rely on many 
species, too many to list in total, for their livelihoods that are 
connected to the flow of the River. Some of the more economically 
important species include blue crab, gag grouper, red snapper, 
menhaden, mullet, spotted seatrout and redfish (red drum).
    Thus, restoring and sustaining ample freshwater flow into the Bay 
not only can help ensure the longevity and productivity of the oyster 
fishery and population, but will provide assurance that the Bay system 
at large will survive. I am sure there is some compromise or solution 
that is available for the people and ecosystems at both ends of the 
River. Please do all you can to SOLVE the issue as Congress was 
designed by our Founders to do!
            Thank you very much,
                                                Chad Hanson
                                 ______
                                 
Dear Ms. Gibson and Mr. Houton,

    I write to you as part of the public record for the Congressional 
Field Hearing recently held by U.S. Senators Nelson and Rubio in 
Apalachicola, FL. The dispute over the allocation of water has grown 
more intensive through the years as metropolitan Atlanta, GA has 
continued to increase in population and, as a consequence, has 
continued to increase its consumption of water until today we are at a 
point of crisis for Florida, but not for Georgia. Since the affected 
states have been unable to arrive at a formula for allocating water 
flows that would be equitable for all parities, this dispute is the 
proper subject for resolution by Congress.
    In the long run, Atlanta's consumption of a disproportionate amount 
of a limited resource, such as freshwater, is simply not sustainable.
    Someday, even Atlanta will need to face the limits of its resource 
base and find ways of supporting growth through the decrease in the per 
capita consumption of water. However, the fear is that Atlanta will not 
make the necessary resource allocation decisions until it is too late 
for the Apalachicola Bay ecosystem and economic base that depends on 
this ecosystem.
    Therefore, I urge Congress to instruct the U.S. Army Corps of 
Engineers to establish an allocation formula that will ensure 
freshwater flows to sustain Apalachicola Bay, its fisheries and the 
economic base of the area. This action will have the added benefit of 
forcing metro Atlanta to face up now to its finite resource base 
(water). The time for action at the Federal level is now.
            Thank you,
                                             Walker Banning
                                 ______
                                 
    My husband and I owned homes on Lake Lanier in Gainesville, GA and 
Dawsonville, GA since 1986. We lived in Atlanta for 33 and 27 years 
respectively. We have owned a home on St. George Island since 2002, and 
until last year a bay front lot on St. George Island.
    Atlanta, the state of Georgia, and the Corps of Engineers need to 
equitably share the water from the Chattahoochee and Flint Rivers with 
Florida so that one of the most productive fisheries in North America, 
and poorest counties in Florida, can be perpetuated for the good of 
people throughout Florida and elsewhere.
    I have spent my entire adult life in Atlanta and the Panhandle of 
Florida. I join many others in our belief that Florida is deserving of 
it's equitable share of freshwater flowing into the Apalachicola Bay 
versus the excesses of water usage by the state of Georgia.
    Please assist us in obtaining what is right and necessary to 
sustain our fisheries, and the livelihoods of citizens of Franklin 
County and others dependent on the waters that must be shared.
    Thanks for your consideration and assistance.
                                            Nancy C. Hillis
                                 ______
                                 
To whom it may concern:

    Please accept my request for action regarding Apalachicola Bay. My 
family vacations in the area frequently--it is truly a special place 
with such history--Florida history--that should be remembered and 
honored for years to come. The oyster beds are in great danger and 
action is needed to save the environment, the industry and the 
community. I encourage you to investigate all possibilities.
            Thank you,
                                           Emily Forrester,
                                                         Pensacola, FL.
                                 ______
                                 
Sara and Sean:

    I wasn't able to attend the hearing in Apalachicola last week, but 
I wanted to write and share my support for the efforts of Senator Rubio 
to address the issue. The water flows of the Chattahoochee, Flint, 
Apalachicola River system have been an issue for over twenty years. If 
the Atlanta area had addressed its long term water needs years ago, we 
would not be facing the destruction of our bay. Now, the survival of 
the oyster industry and the estuary is at stake. Please convey to the 
Commerce Committee my thanks for their efforts to solve the issue.
                                                       Rick
                                            Charles Richard Watson, LLC
                                        Century 21 Collins Realty, Inc.
                                 ______
                                 
    No more Oysters ???
    The water resources of our country require your utmost attention 
and priority!
    Prioritizing funding and implementing all measures that will insure 
the recovery and return to health of Apalachicola Bay must be your most 
important job!
    Abusing vital water resources like the Apalachicola Bar and the 
gulf of Mexico for the sake of recreational water use and misuse is 
unacceptable.
    Estuaries form a transition zone between river environments and 
maritime environments and are subject to both marine influences, such 
as tides, waves, and the influx of saline water; and riverine 
influences, such as flows of freshwater and sediment. The inflows of 
both sea water and freshwater provide high levels of nutrients in both 
the water column and sediment, making estuaries among the most 
productive natural habitats in the world.
    Apalachicola Bay and Franklin county's livelihood cannot be left to 
die!
    Instruct the Army Corps of Engineers to establish freshwater flows 
that will sustain the Bay.
                                                Cre Woodard
                                 ______
                                 
    Apalachicola Bay has been preserved over the years, and so far, by 
people who understand nature at its best.
    Please do your part to save this bit of fishery, oyster and rural 
culture by insuring the river has the water it needs.
    This area is precious beyond words or money.
                                                Linda Smith
                                 ______
                                 
    Please do all you can to get more water to Apalach bay.
                                                 Rick Hanby
                                 ______
                                 
Sara Gibson

    I am urging Congress to instruct the Army Corps of Engineers to 
please please establish freshwater flows that will sustain the Bay!
    Otherwise we are in grave danger of life altering drastically in 
our whole community here!
    Thank you so much for your help in this urgent need!
            Sincerely,
                                             Julie O'Malley
                                 ______
                                 
    As a long-time homeowner and resident on St. George Island, I want 
to urge--nay, implore--the U.S. Senate to restore adequate water flow 
to the Apalachicola River and Bay. The consequences of inadequate 
freshwater on marine and human well-being in this region are heart-
breaking: sharks swimming up the high-salinity river to attack 
freshwater species while oystermen succumb to destruction of their 
culture as well as income. Once the sea life and sea culture have been 
destroyed, they will be gone forever, diversity sacrificed to yet more 
monotonous suburban development upstream. An article in Scientific 
American compared the unregulated development in Atlanta to a 
metastasizing tumor, and I hope that the cancerous growth does not kill 
all that lies in its downstream path. We need a diversity of healthy 
species and cultures. Please save ours.
            Sincerely,
                                                   Ada Long
                                 ______
                                 
    I am writing to urge Congress to instruct the Army Corp of 
Engineers to protect freshwater flow to the Apalachicola Bay.
    As a nation we must over come the boundaries of states and work to 
ensure the preservation of wet lands and water systems
    to sustain us all. Not only is the oyster industry in danger as 
well as associated livelihoods but the inestimable value of this body 
of water which borders the southern shores of our Nation.
    As our elected representatives I urge your stewardship and forward 
thinking in saving this great bay for future generations of Americans.
                                            Clarissa Mickle
                                 ______
                                 
Dear U.S. Senate Committee on Commerce, Science and Transportation:

    I live at the top of the Apalachicola River in Chattahoochee, 
Florida. Our little city sits just below the Jim Woodruff Dam that 
creates Lake Seminole. I moved here because of the natural areas that 
can be explored, and once here started volunteer stewardship of our 
city park on the Apalachicola River. For six years I have led volunteer 
workdays to remove invasive exotic species from the rare slope forest 
community as well as the floodplain along the river.
    The lowered river level and less frequent inundation of the 
floodplain resulting from the dam, historic navigation channel 
maintenance, unnatural flow management practices, and upstream water 
withdrawals have, I believe, altered the floodplain community in a 
detrimental way. The floodplain is dry too much of the year so upland 
species have moved in. For instance, naturalized sabal palms (Sabal 
palmetto) that normally occur near the coast where water levels are 
relatively stable and the state-endangered lanceleaf trillium (Trillium 
lancifolium) that normally grows on slopes now are common in the 
floodplain. But what really concerns me is the infusion of species not 
native to the United States and highly invasive into the floodplain. 
Species such as Nandina (Nandina domestica), coral ardesia (Ardesia 
crenata), Chinese tallow (Sapium sebiferum) and privets (Ligustrum 
spp.) have overwhelmed the floodplain, which would not be the case if 
flood waters inundated the area more often and for longer duration. The 
city has been able to knock the exotic plants back with grant funding 
and volunteer sweat, but these plants continue to be a problem and seed 
source for us on adjoining private property that our grant funds don't 
allow us to treat.
    Changes to the river and the flow regime have impacted not just the 
oysters in Apalachicola Bay, but riparian areas and human communities 
all along the river. There are potential economic impacts, such as to 
the honey business that depends on our native tupelo (Nyssa spp.) trees 
whose decline has been documented from changes in river management. 
Botanists from around the world know of the high biodiversity of the 
Apalachicola region and even in Chattahoochee we get visitors from 
England and Australia who have travelled specifically to see our 
unusual plants. The same can be said for almost any taxa group--
invertebrates, reptiles, salamanders, etc. Science tourism may suffer 
if our natural communities decline.
    Thank you for doing all you can to return a pattern of more natural 
flows and a higher volume of water to the Apalachicola River, 
floodplain, and bay.
            Respectfully submitted,
                                               Leigh Brooks
                                 ______
                                 
                     THE APALACHICOLA RIVER SYSTEM
                             A CLOSER LOOK
    With so much attention being focused on the Apalachicola River and 
Bay and considering the political game that commercial traffic has 
always been at play on this issue, the following history calls out to 
be told.
    Before all the old timers who remember a much different river 
system have passed on and the sources of years of degradation have been 
suppressed or unacknowledged, let these words remain. For to celebrate 
the system as a unique and wonderful treasure is akin to placing a 
crown on a once beautiful and innocent princess after she has been 
repeatedly raped and tortured and now facing the possibility of 
continued abuse.
    Had you not know her before; you might be forgiven for not 
recognizing her pain. You wouldn't see the bends that were cut from her 
body; you might not know that the wide and shallow body was once deep 
and narrow. The sand bars that you take to be normal, isn't. They are 
dredged spoil sites. There are 140 of these sites in addition to 28 
dike fields, some of which tend to redirect the flow of water and 
straighten the river. And across from every one is an eroded bank. Many 
are on point bars some of which direct the force of the water to the 
neck of a bend on the opposite bank, thereby severing the bend in time. 
The practice of mechanically cutting bends from the river was stopped 
years ago but like the old saying goes, ``there is more than one way to 
skin a cat.''
    Dredged spoil was first piped onto the floodplain, then on the 
banks of the river and going from bad to worse, the 140 spoil sites 
were allowed by DEP to be placed within the banks of the river and in 
open water sites. During the past 70 years, in excess of one-half 
million cubic yards of spoil was dredged annually from the river and 
not removed from the system. Much of the spoil was dredged repeatedly 
as it was washed off the spoil sites during the high water season and 
back into the main channel. Repeated dredging changes course river sand 
into silt which is a greater concern as it is more dense and acts as a 
better seal, changing the composition of the bottom of the river, 
creeks, sloughs and even large areas of the floodplain. Native plant 
species are negatively affected by the sand and silt which affects the 
land animals habitat. A fairly recent study stated that forty percent 
of the tupelo trees had perished due to the drying of the floodplain 
and the change in soil composition. The Apalachicola River System 
contained the most diverse plant and animal species in the Nation. Off 
river lakes and ponds have filled with sand and silt due to dredging. 
The mouths of all sloughs are plugged. The veins that carried life to 
this vast floodplain for thousands of years are blocked. The 
tributaries and distributary's present forty years ago and on which 
rookeries of Ibis and Heron nested in the spring are no more. The 
mouths of many of the sloughs are no longer visible from the river as 
they have filled and now support trees and other vegetation. Spoil 
sites are located adjacent to or just upstream of the majority of all 
sloughs, assuring that sediment will erode into them. Also assuring 
that more water will remain in the river. For commercial barge traffic?
    There have been many studies done on the river (so easy to ride in 
a boat) but of the swamps and floodplain, only what can be determined 
from aerial survey. We contacted the Apalachicola Research Reserve and 
only a few pages exist. These areas are so diverse and full of wonder 
and not a little mystery.
    Prior to the floodplain being degraded, otter and alligator dens 
were located well off the river where they lived during the seasonal 
low water. The big turtle inhabited water holes around old tussocks. 
Areas where people seldom went. Where every tree exhibited it's own 
personality and in the spring, a chorus of insects and land animals let 
their voices be heard. A basket half full of crawfish could be caught 
in half a day. The abundance of crawfish was never acknowledged even 
though documentation was turned over to the agency charged to protect. 
The crawfish are an important part of the food chain for many land and 
aquatic animals. This year, after three years of being forced to stay 
underground due to the absence of seasonal high water, very few 
survived to come fourth when water did arrive.
    Through out the years, the politicians, the Corps of Engineers, the 
Florida Department of Environmental Protection, and other agencies seem 
to have been playing a macabre game concerning the Apalachicola River 
System at which the System has continued to loose. DEP stopped the COE 
from disposing dredged spoil in the floodplain but allowed them to 
deposit it on the banks of the river. Later it was decided that the 
most environmentally sound way was to deposit it within the river banks 
and in open water sites which only increased the speed of filling in of 
sloughs from far out in the floodplain to the mouth at the river. 
Across from the spoil sites, the opposite bank erodes. At some spoil 
sites the spoil site has caught up more sediment to the point that the 
site has enlarged in width to reach the middle of the channel. A boat 
trip down the river from Blountstown to the mouth of the Chipola River 
when the river gage at Blountstown is at five feet or below will reveal 
some the major damage suffered by the system. In a 1986 study conducted 
by the Florida Fish and Wildlife, it is stated that dredging practices 
have created twenty-five miles of sand banks that game fish do not 
inhabit.
    For years DEP permits issued to the COE contained requirements such 
as the opening of Point-Poll-Away, Corley Slough and bends to be 
reconnected. A play was made at opening Corley Slough but the prior 
placement of Sand Mountain beside the mouth of the slough insured that 
it would continue to be blocked. A very large amount of spoil was also 
placed in the mouth of Virginia Cut.
    For a period of eleven years, spoil was allowed to be piled in 
large quantities along the river then pushed back into the river with 
bulldozers. This was called ``mechanical Redistribution.'' The practice 
was no longer allowed in the 1999 permit.
    As more spoil was dredged, more had to be dredged to ensure a 
channel for the few barges going to or from Alabama and Georgia. A few 
barges operated from one and one-half mile below the dam at 
Chattahoochee and back through the dam to upstream points. Yet the 
remaining 105 miles of the river was ``maintained'' that accommodated 
very few barges annually during the last 20 years that maintenance was 
conducted. Also of concern was the cargo hauled which included 
fertilizer, jet fuel, and other farm chemicals (not identified).
    Loaded barges have an 8-9 foot draft. Stranding on sand shoals was 
fairly frequent and the tugboat operator would have call to the dam for 
a release of more water. Barges, while trying to maneuver around a bend 
would crash into the bank several times in order to make the turn. The 
cost of shipping on the Apalachicola River has been determined to be 
the highest in the Nation.
    DEP is now on the verge of issuing the COE a permit for snagging 
the river and at the same time a Water Quality Permit and an 
Environmental Resource Permit. The water quality permit was denied in 
2005, which effectively prevented the COE from maintenance work on the 
river. The reasons given in the denial have not been resolved to date. 
The COE is already mandated by Congress to maintain a 9 by 100 foot 
navigation channel (should have been de-authorized years ago) and by 
issuance of these three permits; it will all begin once more. The 
reason given by the COE in it's request for permit is that ``emergency 
parts or equipment may be needed up stream that could not be moved 
another way.'' We are living in the year 2013, not 1713.
    The practice of ``Snagging'' the river, which was done annually 
just prior to dredging, is destructive in many ways. The bottom of the 
food chain is the microscopic organisms that live on the snags. Snags 
are protection areas for juvenile fish, create shade which cools the 
water in the summer, they slow the flow of the water, some are 
inhabited by fish that are territorial, they serve as sunning spots for 
turtles and alligators and as fishing platforms for water birds. Many 
rivers across the nation, including the Chipola River have never been 
snagged and recreational boaters continue to use them.
    Restoration projects conducted by the COE and a few by other 
resource agencies have seemed to be another part of the game. Many 
millions of taxpayer dollars have funded ill-conceived and reckless 
``restoration'' projects on this river and only one a partial success. 
Many have caused further harm to the system in part by the failure to 
understand how the system worked. An example is the fact that a swollen 
river will cause tributaries to act as distributary's until the 
floodplain has filled and the water in river and floodplain is 
equalized. When the water level in the river recedes, distributary's 
will act as tributaries until the water in the floodplain has emptied. 
A good example of this is Battle Bend at river mile 26.
    Battle Bend, measuring one mile, was mechanically severed from the 
river in the 1960s. Spoil was repeatedly placed in the upstream mouth 
in an effort to prevent water from the river entering the bend. An 
adjacent upstream spoil site was extended across the upper mouth and in 
a final effort, a borrow pit was dug and an earthen berm placed across 
the inside mouth.
    In 2008, a restoration project was started by another agency at 
Battle Bend whose stated purpose was to increase fish habitat by 
dredging a nine-foot deep and two hundred feet long wide and one 
thousand feet long at the lower mouth of the bend. First came the 
engineering and then a study to determine where the sand came from that 
had continued to accumulate at the mouth of the bend, the COE had 
dredged spoil from the mouth several times over the years but it just 
as quickly filled in. When the project was completed except for the 
plug at the mouth, which was the last to be removed, the contractor 
left the area. When questioned, the head of the project stated that the 
contractor had ``inadvertently'' left the plug at the mouth but was 
going to come back and remove it. They might possibly have realized 
that it was that old swollen river syndrome again and that river water 
was entering the bend and exiting sloughs inside the bend and on into 
the floodplain and in the process the heavy load of sediment in the 
river water created the plug at the mouth of the bend and would 
continue to even with the dredged channel that had just been dug. The 
plug still remains with a stand of willows growing on it. At this time 
the project was identified as Phase one and Phase two came into being 
that was to be the creation of two inlet channels at the upper mouth in 
the belief that water would enter, flow through the bend and prevent 
the plug forming in the lower mouth. Phase two was completed and water 
from the river did flow into the channels but failed to enter the bend 
as sediment that had been placed at the upper mouth to stop the water 
entering had filled the upper one-third of length of the bend beginning 
near the ends of the inlet channels. River water now flows into the two 
inlet channels at the upper mouth but is diverted into the floodplain 
by the spoil that exist further inside the bend. The flow runs on to 
the mud flat that runs parallel to the river from Florida River south 
to Brushy Creek. This project cost taxpayers in excess of two million 
dollars, failed to achieve it's stated purpose and caused more harm, 
which harm could increase in the future.
    Water that has been arbitrarily withheld upstream from the 
Apalachicola River (and much of it wasted) resulting in harm to the 
River, floodplain and Apalachicola Bay is no greater environmental 
crime than to allow the COE back in the system. As for Restoration 
Projects; the only way the system can heal is if it is left alone to 
heal itself. Any effort made by people would have to be periodically 
maintained. A slough mouth that is opened today would need reopening in 
another three or four years. The overload of sediment in the system 
will be a problem for some time. After so many years of abuse, it will 
take many years to heal.
    Two projects that might feasible be accomplished without further 
harm and to help the system is to make a serious attempt to reconnect 
Battle Bend to the river by excavating the spoil in the upper one-third 
section and block the water from entering the cut section. The second 
is to develop some measure to prevent the increasing amount of water 
from entering the Cut-Off at river mile 41\1/2\ . The spoil site on the 
opposite bank, measuring a mile has directed the flow of water to the 
mouth of the Cut-Off that over time has widen and the quantity and 
force of the water has eroded the banks on the Cut-Off to the point 
that houses and two roads are endangered. There are major sand shoals 
just down stream on the Apalachicola River from the Cut-Off, which 
tends to prevent the unimpeded flow of water in the river and helps to 
increase the flow into the Cut-Off.
    If the Apalachicola River System is important to you, be aware of 
its history and the very real possibility that abuse (from what ever 
source) of the system could very well begin again and you might be able 
to prevent it.
                                          Marilyn Blackwell
                                 ______
                                 
Dear Senators,

    As tourists from Gainesville, Florida, we have made several 
delightful and memorable visits to Apalachicola and surrounding 
environs. We visited the town, stayed in bed and breakfasts, and 
browsed the museum. We kayaked with the Riverkeeper one windy (and 
sunburned) afternoon on the bay where the river flows into it, ate a 
delicious oyster dinner, and learned about the oyster industry and its 
ongoing plight.
    There is no better spokesman for the river than Dan Tonsmeire, but 
his job has been a difficult one. The stress suffered by the bay was 
evident long before the BP oil spill. Alabama and Georgia, and Atlanta 
in particular, drain the river of vital water long before it reaches 
Florida. Our state has had far too small a voice in determining the 
fate of the region downriver, as cities and agriculture grow and place 
an ever greater burden on the river. It is time now to support the 
industries served by Apalachicola River and Bay, and the beautiful 
environment itself throughout that region.
    Please help maintain the flow of our river and the health of the 
Florida environment and industries. This is a cause worth fighting for!
                                  Jeffrey P. Shapiro, Ph.D.
                                 ______
                                 
    Here's what Georgians want Floridians to know: In the past ten 
years our water usage has actually dropped by 14-18 percent even though 
our population has increased. You can check that fact with PolitiFact. 
We have instituted so many water conservation measures that the water 
utilities have had to increase their rates just to make budget. We have 
some of the highest water rates in the country. Again, you can check 
that statistic on PolitiiFact. My average monthly water bill runs $130. 
Meanwhile, we do not see the people of Florida and Alabama instituting 
any water saving measures. On a recent trip to north Florida I saw many 
people watering their lawns. It's true that people in Atlanta once did 
that too, but you NEVER see it anymore. It became illegal back in 2007 
and has been strictly monitored since 2009. Ever since it became legal 
again, with strict rules, people won't do it because it is too 
expensive and the fines for forgetting the rules are too high. Here is 
another fact for you from the USGS. Florida is the 4th biggest user of 
water in the country. Alabama comes in at 14th and Georgia at 29th. 
Alabama, with a population that is half of Georgia's uses almost twice 
as much water each day. Florida uses almost 4 times as much water as 
Georgia. People either fail to realize, or choose to ignore, the fact 
that over 80 percent of metro Atlanta is on sewer. That means we 
withdraw the water from the system, use it, clean it, and then put it 
back into the system. During droughts we cannot even use gray water 
(water from washing dishes, clothes or from the tub) to water our 
outside plants and gardens because the devotion to getting water back 
into the river is so crucial. (Plus, you could get a $1,000 fine for 
doing that) The real ``culprits'' of water use in the Chattahoochee/
Flint basin are the farmers and power plants. The water they withdraw 
is lost through evaporation and doesn't go back into the river. We are 
not sure why the people of Florida choose to ignore these facts. We 
drive your local economy through tourism and then you repay the favor 
by wanting to prevent us from using the water that falls as rain on our 
streets and boils forth from the springs in our backyards. There is 
something wrong with that.
                                           Mary Jane Gordon
                                 ______
                                 
    Our livelihood is just as dependent upon the health of Apalachicola 
Bay as if we were commercial fishermen. As adventure tour guides and 
artists, we rely on people that come here from all over the world to 
visit our unique and incredibly rich estuarine habitat. It is what 
attracted us to this area over 23 years ago and what keeps us here 
today. For many years we have told our guests, ``Yes, Apalachicola Bay 
is very healthy but also very fragile.'' Now Apalachicola Bay is in 
dire straits and soon we can no longer boast health due to the 
imbalance of freshwater coming down the Apalachicola River. I don't 
carry crackers and hot sauce on my tours and hog oysters at sunset 
anymore; now I say, ``We are hopeful that the health of Apalachicola 
Bay and the Gulf Of Mexico is as important to our leaders as it is to 
you and me!''. This crisis is now in your hands and on your watch. 
Please choose wisely for the sake of our shared generations to come.
                           David Harbaugh and Beth Appleton
                                 ______
                                 
    I am David McLain, a U.S. citizen voting in Franklin County, 
Florida. I have been closely involved in the water management dispute 
between Florida, Alabama, and Georgia for over 15 years in a variety of 
roles, paid and, lately, as volunteer and community advocate.
    First, I thank our two Florida Senators, Sen. Nelson and Sen. 
Rubio, for their sponsorship and informed leadership of today's Field 
Hearing of this Senate Committee. As all who were present will testify, 
the meeting spaces were jammed to overflowing with concerned citizens 
whose very lives and futures are dependent on subsequent actions taken 
by our Federal Government. As a water management dispute of over 22 
years of failed negotiation, mitigation, and litigation directly 
involving three states, an equitable allocation of the freshwater flows 
of the ACF Basin will not be resolved without active Federal 
intervention in this interstate ``water war''.
    Second, it is entirely too easy to blame the Federally recognized 
catastrophic failure of the Apalachicola fishery on the volume of 
freshwater flows downstream during recent drought conditions. Drought 
is undeniably an unfortunate recurring event in Nature. But I must 
assert as forcefully as I can--the severity and duration of any drought 
are due to the actions of Man, or Man's failure to act. Significant and 
mandatory restrictions on water consumption, plus aggressive repair of 
water-handling infrastructure, and implementation of restrictions on 
permitting of water use are critical management actions during any 
drought.
    Finally, I would argue it does little good to vilify the Corps of 
Engineers, the farmers of the Flint Basin, or the citizens of Atlanta 
while we seek a rational resolution of this shared problem. I might 
even go so far as to say, we will never reach a sustainable solution 
for adequate freshwater flows to a healthy and productive Apalachicola 
Bay until we help Atlanta and the south Georgia stakeholders find a 
mutually acceptable solution to meeting their water needs. A Basin-wide 
agreement has been reached in similar circumstances--such as the 
Delaware Basin Regional Authority. Shared gain or shared pain.
    PS: The most ``Endangered Species'' in our Apalachicola River and 
Bay is a two-legged variety. . . . .our 4th generation Apalachicola 
Oysterman.
    Please add to my submission for the record (see e-mail below) due 
to subsequent actions reported in the Tallahassee newspaper this 
morning (8/14):

    Florida's Governor Scott announced his intent to file an original 
action suit against Georgia in the U.S. Supreme Court in September of 
this year. He obviously did not hear the urgent plea by the seafood 
workers representatives that time to correct deficient freshwater flows 
is almost gone. An original action before the Supreme Court is YEARS 
away from resolution, even if Florida's suit is eventually upheld. 
Significant testimony at the Field Hearing yesterday pointed to the 
official finding by the U.S. Department of Commerce of a ``fishery 
collapse'' in Apalachicola Bay. A point of no return, the ``tipping 
point'' beyond which recovery of the Bay may be impossible is months, 
not years, away. Without assured freshwater flows the health and 
productivity of the Bay will not be restored. No amount of BP oil spill 
fines money can restore our Bay absent freshwater flows.
    Gov. Scott's return to the 20+ years of failed litigation is hard 
to understand. An original action before the Supreme Court will 
undoubtedly delay and defer promising alternatives such as a 
discretionary ruling by the U.S. Corps of Engineers in a revised Water 
Control Plan, or any possibility of an amended Water Resources 
Development Act passing out of the U.S. House in the near-term. 
Meanwhile the clock is ticking and continuation of the catastrophic, 
unprecedented low freshwater flows is all but assured.
    Our only hope, in the face of this action by the state of Florida, 
is that our Federal elected officials will assert rightful jurisdiction 
over this interstate water allocation dispute and pass Federal 
legislation to ensure an equitable allocation of the waters of the ACF 
Basin.
                                              David McLain,
                            Franklin County Florida Representative.
                                 ______
                                 
    Please reestablish a freshwater flow to The Appalachicola Bay! This 
is one of the most ecologically diverse bays left. We need this area as 
part of our food chain, as without it we will eventually be greatly 
affected as humans. The tourism and fishing industry has also been 
drastically affected. Without freshwater, the ocean by surrounding 
islands is not as clear--our family used to go here yearly but we don't 
as much now due to the water clarity. This is a vital area that 
deserves to and must be protected. Establish the freshwater flow and 
use restrictions in Atlanta and other cities to make them responsible 
for the water they use and not just waste it! The people of the 
forgotten coast and millions of others across the country are begging 
for you to help!
                                     Kristina Ilgner Lamons
                                 ______
                                 
    The Apalachicola Bay Chamber and its 400+ members urge Congress to 
act on our behalf. For decades the U.S. Army Corps of Engineers has 
starved the Apalachicola River and Bay of the freshwater that it needs 
to survive. The Corps has kept water flows at level to ensure that 
users at the top of the system in Georgia get the majority of the 
water. This is now killing Apalachicola Bay and the Apalachicola 
national estuary, one of the last great estuaries in the world. Florida 
has conserved this resource and should be rewarded not punished.
    Almost a decade ago the U.S. Army Corps determined 8,000 cfs would 
keep the three endangered species alive in the river system. We 
protested that this would be detrimental to our ecosystem and our 
economy. That has now occurred. This man-made drought is killing our 
bay and our economy. The Apalachicola River and Bay is the life blood 
of our economy and the economies for towns up and down the system in 
Florida. It is the economic artery that connects us to the world and 
sustains our livelihoods. We have been responsible stewards of the 
system and deserve an equal share of the resource we allow to flow 
unimpeded.
    Congress must act now to pass legislation requiring the U.S. Army 
Corps to operate the Apalachicola-Chattahoochee-Flint river system to 
ensure that the Apalachicola River, Floodplain, and Bay receive the 
freshwater flows they need to support, restore, and reestablish healthy 
populations of fish and wildlife and the vibrant resource conservation 
based economy that relies on a healthy natural system. Please act on 
our behalf.
                                               Anita Grove,
                                                Executive Director,
                                  Apalachicola Bay Chamber of Commerce.
                                 ______
                                 
    It seems we human beings are intent on destroying our life 
sustaining ecosystems and so far, the present on going destruction
    of Apalachicola Bay is a good example of that.
    Please help stop this destruction--this one is in your hands--you 
can do it!!! For our children do it, for their children do it!!!
    You know well the extreme negative consequences of letting the 
Apalachicola Bay die. It's not just about oysters and the people who 
make their living directly on the Bay.
    Be smart, be brave, save the ``Bay''!!!!!
            All the best,
                                           Fred & Mary Vogt
                                 ______
                                 
Dear Ms. Gibson and Mr. Houton:

    My wife and I are residents of Franklin County. We would like to 
offer our public comment concerning the Save the Apalachicola Bay 
congressional field meeting held last week.
    Neither my wife or I are directly employed in the local fishing 
industry, but many people in the local community are so employed and 
the fishing industry is crucially important to both the community and 
the county here. The oyster fishery in particular, outside of the 
harvest and sale of oysters, provides important economic benefit by 
being a major local draw for tourism in the area. Apalachicola Bay-
tonged oysters, harvested ``the old-fashioned-way'' make our community 
a target destination for both American and international tourists 
alike.
    As important as the local economy here is to us, presumably those 
people arguing for the ever increasing siphoning of water off the upper 
tributaries of the Apalachicola River in South Georgia, would argue 
that in terms of economy, their economies are much larger, employ more 
people, and they have more voters, so therefore, why should a 
comparatively small community in Franklin County, Florida have any say 
whatsoever about the issue, nor for that matter, why should downstream 
areas receive any water at all from the Apalachicola, especially seeing 
as good agricultural freshwater is being wasted going into the sea. 
Stating this is rather harsh view of reality. But in terms of money and 
people, Georgia clearly has Franklin and neighboring counties beat. 
Presumably this harsh reality is why the Apalachicola water wars yet 
still rage today, unresolved after so many years. There is however a 
bigger issue.
    Sometimes our area is labeled the forgotten coast (as these 
lingering water wars might seem to attest), but some of us here prefer 
the name the wilderness coast. We are entirely surrounded here by 
contiguous Federal and state protected lands including: St Vincent's 
Island National Wildlife Refuge, Julian Bruce St George Island State 
Park, Tate's Hell State Forest, St Marks National Wildlife Refuge; the 
Apalachicola National Estuarine Research Reserve and Apalachicola 
National Forest. The combined areas of these contiguous protected lands 
is well over 1MM acres. If these lands happened to be so designated, 
they would comprise the 5th largest National Park outside of Alaska. 
The only thing our area is not protected for is sustained water flow 
from the Apalachicola River.
    In the western states, the once mighty Colorado River has been 
similarly diverted and siphoned off to satisfy the ever increasing 
water demands of commercial agriculture in Arizona and California and 
the metropolitan areas surrounding Los Angeles. Except in rare years of 
heavy Colorado snowpack, water from the Colorado River now never 
reaches the ocean. We ask Congress--is the eventual and ultimate fate 
of the Apalachicola River to be that of the Colorado? The Apalachicola 
is not a small river. It is the second largest watercourse on the U.S. 
Gulf Coast next to the Mississippi and it comprises largest drainage 
area in the U.S. southeast. And yet, owing to ever increasing upstream 
siphoning, the Apalachicola river may eventually, without action by 
Congress, one day no longer make it to the sea.
    Is this something Congress would, by its inaction, actually allow 
to happen? Would Congress similarly allow the draining of waters from a 
National Park? The analogies are clear. Congress' inattention to the 
ever increasing diversion and siphoning of the Apalachicola River water 
to satisfy metropolitan and commercial agricultural interests in the 
State of Georgia is akin to Congress permitting Everglades National 
Park to be drained in order to supply metropolitan and agricultural 
areas around Miami, or the draining of the Yellowstone River from that 
park, or for that matter, the additional diversion of the Colorado 
drying up the Grand Canyon. Clearly this is a fate for the Apalachicola 
River that Congress should not want to deliver to future generations. 
Action is needed.
    We respectfully request that Congress act decisively on this 
matter.

                                   Dr. James and Susan Mott
                                 ______
                                 
    I support the Army Corp sustaining river flow in the entire system 
flowing into the Apalachicola River. Commerce on and because of river 
flow is vital to the economy of Florida.
                                        Debbie McKnight, RN
                                 ______
                                 
    Please enact positive legislation to save/protect the waterways of 
the Apalach. It must survive and thrive. Thanks for listening.
                                           Susan B. Emrich,
                                           Chief Operating Officer.
                                 ______
                                 
To whom it may concern,

    The Apalachicola River systems is one of our nations precious 
resources. Please fund the renewal of management of the dam system on 
the river. The economic impact on those who depend on the downstream 
water flows is devastating those citizen who rely on this ecosystem for 
their livelihood.
            Thank you,
                                                       John
                                        John C. Devlin, PMP
                                 ______
                                 
    Please let the U.S. Senate Committee on Commerce, Science and 
Transportation hearing record know that the Bay County community needs 
the freshwater to continue flowing along this river system. This 
supports the ecosystem that drives so many different industries in our 
region. Commercial and recreation fishing provides jobs and tourism 
dollars to the community we serve. Those jobs and dollars are 
reinvested in our community and support the folks who live in our 
community.

                                        Jeremy Hinton, CPA,
                                      SVP, Chief Financial Officer.
                                 ______
                                 
                    INNOVATIONS FEDERAL CREDIT UNION
    Please do what's best for our Apalachicola Bay/River and require 
the Army Corps of Engineers to operate the Apalachicola-Chattahoochee-
Flint river system to ensure that the Apalachicola River, Floodplain, 
and Bay receive the freshwater flows they need to support, restore, and 
re-establish healthy populations of fish and wildlife and the vibrant 
resource conservation based economy that relies on a healthy natural 
system.
                                            David Southall,
                                                     President/CEO.
                                 ______
                                 
                    INNOVATIONS FEDERAL CREDIT UNION
    Lack of freshwater reaching the Apalachicola Bay has caused the 
Bay's oyster, shrimp, crab and fish populations to collapse, 
devastating the regional economy and causing untold harm to the many 
people who rely on a healthy River, Floodplain and Bay for their 
livelihoods and way of life. The lack of freshwater also negatively 
affects the gulf's recreational fishing industry as many species are 
birthed in estuaries like Apalachicola Bay.
    Please act now to pass legislation requiring the Army Corps of 
Engineers to operate the Apalachicola-Chattahoochee-Flint river system 
to ensure that the Apalachicola River, Floodplain, and Bay receive the 
freshwater flows they need to support, restore, and re-establish 
healthy populations of fish and wildlife and the vibrant resource 
conservation based economy that relies on a healthy natural system.
            Respectfully,
                                            Jason Whitaker,
                                                       Panama City, FL.
                                 ______
                                 
    Please pass legislation requiring the Army Corps of Engineers to 
operate the Apalachicola-Chattahoochee-Flint river system to ensure 
that the Apalachicola River, Floodplain, and Bay receives the 
freshwater flow they need to support, restore, and re-establish healthy 
populations of fish and wildlife!
    The lack of freshwater reaching the Apalachicola Bay has caused the 
Bay's oyster, shrimp, crab and fish populations to collapse, 
devastating the regional economy and causing untold harm to the many 
people who rely on a healthy River, Floodplain and Bay for their 
livelihoods and way of life. The lack of freshwater also negatively 
affects the gulf's recreational fishing industry as many species are 
birthed in estuaries like Apalachicola Bay.
    Our Northwest Florida region is dependent upon natural resources 
such as the Apalachicola Bay/River for the ever precious oyster 
industry. The negative effect on this region's economy is certain to be 
catastrophic to our fishermen/oystermen, our restaurants and ultimately 
this region and the State of Florida's number one industry, tourism.
            Thank you,
                                  Tiffany Despard, CPA, MBA
                                             Carr, Riggs & Ingram, LLC.
                                 ______
                                 
    Our Northwest Florida region is dependent upon natural resources 
such as the Apalachicola Bay/River for the ever precious oyster 
industry. Lack of freshwater reaching the Apalachicola Bay has caused 
the Bay's oyster, shrimp, crab and fish populations to collapse, 
devastating the regional economy and causing untold harm to the many 
people who rely on a healthy river, floodplain and bay for their 
livelihoods and way of life. The lack of freshwater also negatively 
affects the gulf's recreational fishing industry as many species are 
birthed in estuaries like Apalachicola Bay.
    I am calling on Congress to act now to pass legislation requiring 
the Army Corps of Engineers to operate the Apalachicola-Chattahoochee-
Flint river system to ensure that the Apalachicola River, Floodplain, 
and Bay receive the freshwater flows they need to support, restore, and 
re-establish healthy populations of fish and wildlife and the vibrant 
resource conservation-based economy that relies on a healthy natural 
system.
                                            Pamn Henderson,
                                                      Commissioner,
                                             City of Callaway, Florida.
                                 ______
                                 
    This is a real issue that impacts real people right now. It is not 
one to debated, researched, publicized and played too. All that has 
been done and resulted in lost jobs, broken families and deteriorating 
natural resources. Please be the leaders we so desperately need and 
resolve this problem now!
    The problem is not really complicated, though it involves many and 
has far reaching impact, it is really simple. Establish reasonable 
water flow, protect that standard for the future and then stand back 
and watch the local parties move forward within that framework.
                                               Rick Pettis,
                                            Planning Director, AICP
                            David H. Melvin, Inc. Consulting Engineers.
                                 ______
                                 
Ms. Gibson,

    Given recent declarations and notifications regarding the above 
referenced river system, we offer the following comments.
    The current crisis in the ACF river system--the call for legal 
action, not discussion--is portrayed in some quarters as if the State 
of Florida escalated a 25-year conversation into a battle. We contend, 
as professionals who have worked in natural resources throughout the 
southeastern United States and have witnessed a number of ``wicked 
problems,'' that the State of Georgia and metropolitan Atlanta are the 
aggressors here and escalate the conflict on a daily basis by the 
solicitation of residents, new businesses, and other water consuming 
entities.
    We see Congress as one of the governmental keepers of a civilized 
society, one in a collection of elected and appointed bodies 
responsible throughout the Nation and the individual states for setting 
policies to regulate and manage natural resources. Sometimes, in a case 
where human use and need for such resources cross state lines, the 
situation begs for a national level solution taken by a Congress that 
aims to resolve--not politicize--such conflict. Certainly the time has 
passed for the regional solutions for the use of the Apalachicola River 
system, at least as proffered by state governments time and again since 
the mid-1980.
    At face value, it appears that the problem focuses on how to divide 
the water between the people and businesses in Atlanta and the people 
and businesses downstream in Georgia, Alabama, and Florida. We suggest 
that the issue is one of expectations--can a metropolis expect to 
continue unabated growth and have unlimited access to the public water 
supply under the generally accepted principles of reasonable use in 
Eastern Water Law; must all downstream users continually adjust direct 
and indirect dependencies on water to the limitations imposed by 
upstream cities? This is not a voter driven issue; this is a resource 
management issue that must be balanced for the entire river system.
            Sincerely,
                                                Linda Lampl
                                                Tom Herbert
                                 ______
                                 
Good Morning--

    Our oyster, shrimp, crab and fish populations in the bays of our 
area (Apalachicola, Chattahoochee, etc.) have been devastated due to a 
lack of freshwater. This has cost the economy in our area to be on the 
decline, much higher than other regions, because there are so many 
families who depend on the rivers and bays for their livelihood. It has 
affected the recreational fishing industry, which is well-known 
throughout the eastern part of our country, to be negatively impacted. 
Apalachicola oysters are known throughout the country for their 
outstanding taste and the quantity available but this is on the decline 
due to the negative flow of freshwater into our bays and rivers.
    I am asking Congress to pass legislation to require the Army Corps 
of Engineers to operate the Apalachicola-Chattahoochee-Flint River 
System to ensure these rivers and floodplain receive the freshwater 
flows needed to support and re-establish healthy populations of fish 
and wildlife as well as help the economies in these areas to once again 
prosper due to a healthy natural system for years to come.
    Thank you for taking the time to read this e-mail.
                                              Sandra Hirth,
                                     Assistant to the City Manager,
                                             City of Callaway, Florida.
                                 ______
                                 
Dear Ms. Gibson,

    This has been an ongoing issue for better than a decade, if not 
almost two decades. It seems that in two decades, Atlanta could have 
built a new reservoir and could then allow more water to be released 
into the watershed. The Federal Government has always had issues with 
protecting the environment. I have had several projects, that were 
halted or postponed due to the protection of (just they easy ones I 
remember):

  <bullet> Harper Beauty (a flower)

  <bullet> the Panama City Crayfish

  <bullet> the st. andrews beach mouse

  <bullet> the perdido key beach mouse

  <bullet> a bald eagle

  <bullet> indigo snake

  <bullet> ground owl

  <bullet> gopher tortoise

    As we are seeing along our gulf coast not only will some of our 
wildlife suffer, but the lives of its residents are now beginning to 
suffer. Instead of making our citizens reliant on handouts from the 
government (food stamps, welfare or other means to replace the pay for 
those that live along the coast), it would seem it is in the best 
interest for the Federal Government to step in and mandate a larger 
release of freshwater from the areas around the watersheds that flow to 
the Apalachicola basin and to the gulf. If the government would step in 
and act as a parent to the three states (Alabama, Georgia and Florida), 
maybe some of this would get solved before:

  <bullet> people lose their means of making a living

  <bullet> plants and animals whose habitat requires freshwater become 
        endangered or extinct

            Sincerely,
                                               Arthur Hooks
                                 ______
                                 
    Please get our Senitors and Congressmen to plead our case for Core 
of Engineers to open up our freshwater supply and flow to grow marine 
life. Thank you. We are counting on them.
                                                 Ken Sandel
                                 ______
                                 
Dear Ms. Gibson:

    I add my name to the list of those who have deep concern about our 
river, our cities, our region and the way the United States protects 
our most precious natural resource: our waters. Our ``water war'' as 
some have named it, is small in comparison to what ``wars'' will be 
waged in the future as this resource is squandered. I believe that the 
steps needed to save the Apalachicola should model how our country 
plans to protect our waters in the future. It about far more than the 
oyster or even other marine life-although the ripple effect is huge. It 
is about small communities survival when big city wants something they 
have and need. Can Atlanta not dig deep in to the granite and access an 
aquifer there? Is the cost of that so much that they can destroy other 
areas for their needs? Are folks along this coast going to be able to 
point to our very own government and say, ``They did not care about our 
way of life, our homes and our livelihoods?''
    I did not grow up here, I moved here because this was a beautiful 
and pristine place. People visit here to escape the big cities like 
Atlanta. Life is good here. Please consider the minority in this 
struggle for existence. The oyster industry is getting the focus but it 
far bigger than the lowly oyster. At least it is to me and mine.
            Sincerely,
                                             Denise Butler,
                                                             Agent,
                                                     The Butler Agency.
                                 ______
                                 
Hello and good day !!!

    You have heard all the different testimonies on why this is so 
important--not only for now--but for the future generations. . . . What 
are we leaving for them?
    Portion taken from our neighboring county to the west--Panama City 
area
    ``Our Northwest Florida region is dependent upon natural resources 
such as the Apalachicola Bay/River for the ever precious oyster 
industry. The negative effect on this regions economy is certain to be 
catastrophic to our fishermen/oystermen, our restaurants and ultimately 
this region and the State of Florida 's number one industry, tourism.
    Apalachicola Bay/River should be viewed by all as a manufacturing 
facility. It produces a sustainable product that is well known and is 
shipped nationwide.
    Lack of freshwater reaching the Apalachicola Bay has caused the 
Bay's oyster, shrimp, crab and fish populations to collapse, 
devastating the regional economy and causing untold harm to the many 
people who rely on a healthy River, Floodplain and Bay for their 
livelihoods and way of life. The lack of freshwater also negatively 
affects the gulf's recreational fishing industry as many species are 
birthed in estuaries like Apalachicola Bay. Bay County--Chamber of 
Commerce
    I'm sure you have several (hopefully hundreds) of similar 
responses. I saw this and liked it. Only copied a portion of their 
memo.
    Very well stated even though they have their own resources--but 
reading the last line above--we have one of the LAST pristine estuaries 
in the U.S.--most of the rest are polluted--we efforts to restore--
let's not wait till that happens the Apalachicola River and basin.
    In the circle of life--we (mankind) are the ones that can make a 
difference--nature tries it's best--and we are destroying nature.
    Thanks to all that are supportive and trying to make this happen.
    I'm an environmentalist first--local homeowner--retired from 
Atlanta (they need to fix their problems and not use our water--that 
causes us problems) and a local Realtor . . . this does affect our 
business--which is tourism, fishing, etc, then people wanting to turn a 
vacation into a lifetime . . . buying property . . . See the circle ??
    Thanks for your time,
    CA:)
                                        Cheryl Ann Griffin,
                                                           Realtor.
                                 ______
                                 
    As a Franklin County resident, I am thankful that Senators Nelson 
and Rubio expressed their concern for the natural and human resources 
in Franklin County by attending the Congressional Field Hearing on 
August 13. It is critical that the natural system and the unusual human 
community that has been developed on the shores of the Apalachicola Bay 
be protected. I understand the difficulty in moving political processes 
to insure the continued integrity of the Apalachicola River and Bay. We 
must find a way to maintain our needed freshwater flow from upstream 
users and decision makers.
    Our future in Franklin County rests with your ability to provide 
adequate legislation to protect the flows necessary for the life of 
this river and estuary. This will require Congressional action and 
authorization for the Army Corps of Engineers to manage the river 
without detriment to Florida. We have been good stewards of this area 
and we hope you will be good stewards of this national treasure. Please 
do whatever it takes to insure adequate freshwater in the Apalachicola 
River and Bay.
            Very sincerely yours,
                                           Patti McCartney,
                                               Saint George Island, FL.
                                 ______
                                 
    Please help to require the Army Corps of Engineers to operate the 
Apalachicola-Chattahoochee-Flint river system to ensure that the 
Apalachicola River, Floodplain, and Bay receive the freshwater flows 
they need to support, restore, and re-establish healthy populations of 
fish and wildlife and the vibrant resource conservation based economy 
that relies on a healthy natural system.

                               Pamela Osborne, RN, BSN. MSM
                                               Clinical Supervisor,
                                             Bay Correctional Facility.
                                 ______
                                 
Ms. Gibson,

    I am concerned about the Apalachicola basin. We have been fighting 
the water issue for years and to no avail. The fishing/oyster industry 
is vital to our country and cannot be ignored. Just letting the upper 
entities drain all the water they want is not a solution. They do have 
other options, the river does not. The Army Corps must be given the 
authority to operate the river with adequate freshwater to the 
Apalachicola basin.
    Thanks you for your time. I look forward to seeing a positive move.

                                                 Vic Jones,
                                        Manager, Coal Feed Systems,
                                                    Merrick Industries.
                                 ______
                                 
    Apalachicola oysters are some of the finest in the world, but they 
are in danger of being wiped out because water naturally intended to 
reach Apalachicola Bay is being diverted for residential use. Please 
stop this travesty. Once the ecosystem is destroyed it will be too 
late. Please act now while there is still time to save this pristine 
and unique environment.
                                             Patsy Roberson
                                             D. Stephen Foster, CPA, PA
                                 ______
                                 
    Stop restricting the flow of the river into Florida, it is damaging 
our eco system and out lively hoods.
                                               John Dunaway
                                 ______
                                 
    I am very concerned about our oyster population in the state of 
Florida. Please do your part to keep freshwater flowing into 
Apalachicola Bay. We need our oysters, shrimp, crabs and fish 
populations to stay self-sustainable. We do not need to begin a multi-
million dollar program when we can save our bays now! We can prevent 
this: http://nynjbaykeeper.org/resources-programs/oyster-restoration-
program/
            Thank you,
                                         Jenna Leigh Burger
  Restaurateur, former Vice-Chair of the Greater Fort Walton Beach 
 Chamber of Commerce, former Vice-Chair of the City of Fort Walton 
Beach Community Redevelopment Agency, current Junior League of the 
                                            Emerald Coast Historian
                                 ______
                                 
    Lack of freshwater reaching the Apalachicola Bay has caused the 
Bay's oyster, shrimp, crab and fish populations to collapse, 
devastating the regional economy and causing untold harm to the many 
people who rely on a healthy River, Floodplain and Bay for their 
livelihoods and way of life. The lack of freshwater also negatively 
affects the gulf's recreational fishing industry as many species are 
birthed in estuaries like Apalachicola Bay.
    Please act now to pass legislation requiring the Army Corps of 
Engineers to operate the Apalachicola-Chattahoochee-Flint river system 
to ensure that the Apalachicola River, Floodplain, and Bay receive the 
freshwater flows we need to support, restore, and re-establish healthy 
populations of fish and wildlife and the vibrant resource conservation 
based economy that relies on a healthy natural system.
    Thank you for your support of this important issue.
                                              Carol Roberts
                                 ______
                                 
    I encourage the passage of legislation requiring the Army Corps of 
Engineers to operate the Apalachicola-Chattahoochee-Flint river system 
to ensure that the Apalachicola River, Floodplain, and Bay receive the 
freshwater flows they need to support, restore, and re-establish 
healthy populations of fish and wildlife and the vibrant resource 
conservation based economy that relies on a healthy natural system.
    Thank you for your time,
    Jennifer
                                          Jennifer Conoley,
                               Economic Development Representative,
                                                    Gulf Power Company.
                                 ______
                                 
    While we cannot control Mother Nature, we can certainly control the 
equitable allocation and flow of waters into the Apalachicola-
Chattahoochee-Flint river system.
    Action is needed now to authorize the Army Corps of Engineers to 
operate and better manage the Apalachicola-Chattahoochee-Flint river 
system. Dead oysters beds and unemployed fishermen in Gulf-Franklin 
Counties on the Gulf of Mexico are proof that current policies--or the 
lack thereof--are not working. We are calling upon Rep. Steve 
Southerland and our Florida delegation to spearhead efforts to ensure 
that the Apalachicola River, Floodplain, and Bay receive the freshwater 
flows they need to support, restore, and re-establish healthy 
populations of fish and wildlife and the vibrant resource conservation-
based economy that relies on a healthy natural system.
                                             Jamie Shepard,
                                           Democratic Candidate for
                          Florida House of Representatives, District 6.
                                 ______
                                 
    Lack of freshwater reaching the Apalachicola Bay has caused the 
Bay's oyster, shrimp, crab and fish populations to collapse, 
devastating the regional economy and causing untold harm to the many 
people who rely on a healthy River, Floodplain and Bay for their 
livelihoods and way of life. The lack of freshwater also negatively 
affects the gulf's recreational fishing industry as many species are 
birthed in estuaries like Apalachicola Bay.
    Call on Congress to act now to pass legislation requiring the Army 
Corps of Engineers to operate the Apalachicola-Chattahoochee-Flint 
river system to ensure that the Apalachicola River, Floodplain, and Bay 
receive the freshwater flows they need to support, restore, and re-
establish healthy populations of fish and wildlife and the vibrant 
resource conservation based economy that relies on a healthy natural 
system. Submit your comments by e-mailing the following:
                                              Annie Jordan,
                                                    Office Manager.
                                 ______
                                 
    Dear Senator Gibson [sic]: please consider the following 
documentation in your decision making process and help save the 
Apalachicola River that so many people and so much wildlife depend on 
for survival.
            Thank you,
                                Barbara Rutherford-Dorris ,
                                                Cape San Blas, Florida.
                                 ______
                                 
Greetings.

    It is my honor to serve as chairman of the Panama City Beach 
Chamber of Commerce. I am sending this e-mail in support of the 
Apalachicola Bay/River fishermen and businesses and in support of Gov. 
Scott's decision to take action against the state of Georgia over their 
consistent abuse of Northwest Florida water rights.
    I am also a local resturant owner who regularly purchases oyster 
from the hard working families on the Apalachicola Bay/River. I have 
seen the steady decline in the quantity and quality of the product that 
has been delivered from the Apalachicola Bay/River. I encourage Gov. 
Scott to take any and all action to protect our valuable God given 
resource.
    Thank you.
                                            Derrick Bennett
                                 ______
                                 
    I would ask that you please endorse the Army Corp of Engineers to 
operate the Apalachicola-Chattahoochee-Flint River system to protect 
our waters and the oyster/seafood industry. You attention to this 
matter would be greatly appreciated.

                                           Vicki R Paul LPN
                                              Bay correctional Facility
                                                     Medical Department
                                 ______
                                 
Ladies & Gentlemen,

    I grew up enjoying the Apalachicola River system. I remember when 
the water flow was abundate and never thought we would encounter the 
current problems of today. I can remember as a small boy watching the 
barge traffic engaged in commerce traveling up and down the River. 
Unfortunately, the Corp stopped maintaining the channel and commerce on 
the River has stopped and the Bay system has suffered great damage to a 
once great eco-system. Today in some places on the upper part of the 
River, small boats encounter problems from running aground. Larger 
boats and barges are out of the questions. What a shame that a great 
natural resource has been forsaken for misplaced priorities to upstream 
interest. Consideration needs to be given for all to enjoy this 
``Jewel''. Please take action to allow the Army Corps of Engineers to 
resume the operation of the Apalachicola-Chattahoochee-Flint river 
system to ensure that the Aplachicola, Floodplain and Bay receive the 
freshwater flows needed to restore this area.
            Sincerely,
                                          Wallace C. French
                                 ______
                                 
    Please take necessary Congressional action to allow, and indeed 
require, the Army Corps of Engineers to supply a seasonally-
appropriate, dependable and sufficient flow of freshwater from the 
Flint-Chattahoochee-Apalachicola river system to Apalachicola Bay. As 
was brought out in testimony at the hearing, the health of the bay and 
estuary requires a natural flow of freshwater--not just for oysters in 
the Bay, though that is important, but for the whole estuary ecosystem 
that supports fisheries and natural communities throughout the Gulf of 
Mexico. We can think of the oyster population as a sort of ``canary in 
the mine''--if oysters cannot thrive, then the ecosystem services that 
the whole river/estuary/bay system supplies are in danger. The Atlanta 
metropolitan area can certainly do much more to use water from the 
system economically than it is doing now.
                                         Richard S. Hopkins
                                 ______
                                 
    It is impossible for individual states to manage interstate 
resources without impacting the commerce of other states. The 
interstate waters of the Apalachicola River and its tributaries must be 
managed by an entitiy that represents the interests of all the states 
othewise the state of Georgia will manage the resources of the river 
without any consideration to the rights of citizens in Florida and 
Alabama. Control of the Apalachicola River resources clearly must be 
managed by a Federal entity.
                                           Joseph Schuster,
                                      President and Soil Scientist.
                                 ______
                                 
    I have seen the decrease in river levels for the past several years 
due to upstream useage of water from the Chattahoochee-Apalachicola 
River. This has affected recreation use of the River itself. Also, lack 
of freshwater reaching the Apalachicola Bay has caused the Bay's 
oyster, shrimp, crab and fish populations to collapse, devastating the 
regional economy and causing untold harm to the many people who rely on 
a healthy River, Floodplain and Bay for their livelihoods and way of 
life. The lack of freshwater also negatively affects the gulf's 
recreational fishing industry as many species are birthed in estuaries 
like Apalachicola Bay.
    Congress must act now to pass legislation requiring the Army Corps 
of Engineers to operate the Apalachicola-Chattahoochee-Flint river 
system to ensure that the Apalachicola River, Floodplain, and Bay 
receive the freshwater flows they need to support, restore, and re-
establish healthy populations of fish and wildlife and the vibrant 
resource conservation based economy that relies on a healthy natural 
system.
                                           W Gregory French
                                 ______
                                 
                                                    August 22, 2013
U.S. Senate,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Senators Nelson, Rubio and Honorable Committee Members,

    Thank you for coming to Apalachicola last week. Also, I sincerely 
thank you for choosing to serve our county in your elected leadership 
capacity.
    It is without exaggeration that I am writing to tell you that 
Apalachicola Bayand its once-thriving communities are on the brink of 
total economic and ecological collapse. Jobs are vanishing. House are 
being foreclosed on. Families are suffering and children are living 
with relatives while fathers have left to find work elsewhere. These 
families do not comprehend how our government can give us idle excuses 
while a real environmental collapse is happening before our eyes. There 
is simply no time for time for more talking.
    Regrettably, I am skeptical of real action by this Congress. It 
seem little gets done but excessive talking coupled with political 
party finger pointing. Please, please prove me wrong. I am seeking 
action, real action by elected officials. Fast action. The governors 
have let us down. They have not solved the Florida-Alabama-Georgia 
water struggles. Lawsuits take decades. Additionally, the citizens of 
the three states are inclined to share, but the special interest groups 
are controlling the people's water. I have slowly grown disenchanted 
with our leaders over this issue.
    As a former small business owner of kayak eco-toursim/outfitter, I 
can confidentially tell you that a healthy river and bay equates to 
jobs. But, I will defer to the strong testimony from the generations of 
commercial fisherman to explain that to members. We are all seeking 
efficient action This will require true risk-taking measures and 
steadfast leadership on your part.
    Please contact me if further detail is needed.
            Respectfully,
                                           Georgia Ackerman
                                 ______
                                 
My Distinguished Colleagues, Senators, and Congress,

    I could not let this opportunity pass by without expressing my 
passion for the Apalachicola Bay; most of you know me as a long time 
advocate for the bay, the seafood workers and the industry as I was the 
former Secretary/Spokesperson for the seafood workers, and a 
representative of the seafood industry from 2005 through 2009.
    What many of you may not know or understand is why. My late 
husband; Vince Raffield was himself a seafood worker when we met, and 
for almost thirty five years I was married into one of the first 
families of seafood who's heritage, culture and traditions have 
included being some of the largest landings both commercial and charter 
in Bay, Gulf and Franklin Counties. He was of a fourth generation 
seafood worker, and very proud of his heritage. When we moved back to 
Franklin County, over ten years ago we knew he was terminally ill and 
this is where he wanted to live his remaining days.
    His love and respect for the bay and the people who work it never 
ceased, and he was determined to bring attention to the plight of the 
seafood workers and the industry which he held so close to his heart. 
Unable to work the bay any longer and barely able to speak he asked 
that I relay his feelings, his concerns and be his voice in an effort 
to bring attention to what he saw as the beginning of an end to a vital 
seafood industry and decades of culture, heritage and traditions which 
would be lost by the wayside. Little did I know at the time, that not 
only would I do it for him, for my love for him, but I would resonate 
with that same passion with every fiber of my being for my own love and 
concern for the bay and the men and women who work it.
    Whether in my writing, public speaking or general conversation; 
that love has never ceased, the concern remains as well as the passion 
to defend it, protect it and voice the genuine concerns and love for 
the bay, the people who work it and the industry which struggles to 
survive still today.
    I beseech you on behalf of myself, my community, our industry, our 
workers, and in remembrance of my late husband; don't allow this 
injustice to continue. While many enjoy themselves recreationally, 
others here struggle just to put food on their tables and a roof over 
their heads and are paying the price for the luxury of that recreation. 
Species are dying, at risk of being extinct, marine life, aquatic 
foliage, and the ecosystem itself hangs in the balance on one side 
while greed and politics controls the other. What cost should be paid 
and by whom? When in fact the need of the many clearly should out way 
the greed of a few, we are being robbed of the vital nutrients and 
sediments that it takes to make the ``World Famous Apalachicola 
Oyster'' and to continue to have a sustainable seafood industry in one 
of the most precious jewels of Florida, Apalachicola and it is about 
time that changed.
    Without your help it could mean the end of our industry, culture, 
heritage and traditions. Please support us and help us to continue to 
be sustainable and pass this on to future generations. Ask for the 
release of that water flow and ask those that are responsible to try to 
understand how they would feel if they were in our shoes?
    When history is recorded on this will it paint a picture of 
compassion, working together for a balance of equality or will it paint 
a dismal picture of the end of an era and the beginning of the end for 
the ecosystems, environment, and economy tipped by politics and greed. 
I beg of you to please help save our bay, our future and restore our 
faith that justice will prevail.
            Respectfully,
                                             Linda Raffield
                                 ______
                                 
    Please recognize that the diversion of river water for lawns and 
sport in Georgia is killing aquatic life and consequently destroying 
industry and livelihood in Florida.
    Thank you for your consideration.
            Sincerely,
                                                Jim Padgett
                                 ______
                                 
Dear members of the committee,

    In light of the legislation you will be considering that will 
greatly affect the management of the Apalachicola-Chattahoochee-Flint 
river system, I am writing to you as a resident of nearby Tallahassee, 
Florida to present my experiences of and perspectives on Apalachicola 
Bay and the surrounding area. I thank you for taking the time to read 
this and hope you will consider the views expressed when deciding on 
the legislation.
    I moved to Tallahassee one year ago and was immediately amazed by 
the beauty of the surrounding area, including Apalachicola Bay. I have 
been fortunate enough to enjoy much the area has to offer from kayaking 
on the Apalachicola river, eating local seafood, spending the night in 
one of the old hotels in Apalachicola and swimming at St George Island. 
As an oceanographer, I know that such a spectacular variety of 
ecosystems and large biodiversity can only come from a delicate balance 
of environmental conditions. The oysters that live in Apalachicola Bay, 
for example, depend on clean water with a specific salinity to survive. 
This balance is one I know very well, having grown up with a view of 
the mouth of the Thames Estuary in the UK. In this area, oysters were 
big business. However, between 1940-1970 water quality degraded as the 
river became increasingly polluted. The oyster beds, that had been 
farmed since Roman times, declined and the towns that depended on the 
oysters suffered huge loss. As I grew up during the 1980s and 1990s 
things slowly turned around. Pollution was reduced and eventually the 
oysters came back. Today even seals have been spotted in the estuary, a 
sure sign the fish are plentiful and the water clean. Some rejuvenation 
of the commerce and life of the towns affected has been possible but 
they are still not what they once were and will most likely never be 
again. This kind of story is all too common, whether it is due to 
pollution, over-fishing or over consumption of water. It would be 
devastating and demonstrate a huge amount of ignorance and lack of 
learning on our part if this were to happen to the Apalachicola-
Chattahoochee-Flint river system.
    Water is unquestionably our most precious resource. Good management 
and effective distribution of water is key, not only to our lives today 
but also for the generations that follow us. As well as our need to 
consume it directly, water provides us with further resources such as 
food and energy and a habitat that both supports us and keeps us in 
good health both physically and mentally.
    I urge you to consider these points when making your deliberations 
and hope that you will help prevent consumption driven decisions and 
short term easy options from destroying both livelihoods and the 
environment that sustains us.
            Yours faithfully,
                                             Hannah Hiester
                                 ______
                                 
    I am writing to express my concerns about the future of the 
Apalachicola River and Bay unless Congress takes action now to increase 
and stabilize the freshwater flows into Apalachicola Bay from the 
Apalachicola River. The Apalachicola River and Bay ecosystem is a 
national resource that provides jobs for thousands of people who 
harvest and process oysters and other seafood. This oyster industry is 
in grave danger under present water flow management practices, 
primarily because of too much water used or held back by upstream 
states. This needs to change.
    The oyster industry is a key economic driver of the Apalachicola 
Bay area and supplies some 90 percent of Florida's oysters. In addition 
local seafood is a key part of what draws tourists to this region. We 
are not Florida residents, but usually spend two months of each year in 
the Apalachicola area. Local seafood is one of the primary reasons we 
come to this area. The other is to enjoy the natural resources of the 
area including the Apalachicola River and its surrounding watershed. A 
healthy Apalachicola River is critical to the future of the tourist 
industry as well as the seafood industry. Many more thousands of jobs 
and the prosperity of the entire Big Bend region of the Florida Gulf 
are at stake here.
    Years and years of inter-state bickering and neglect have led to 
the present dire situation. Action be Congress is needed and needed 
immediately.

                                            Randall Downing
                                 ______
                                 
Dear Ms. Gibson and Mr. Houton:

    We would like to have our comments included in the U.S. Senate 
record on the importance of freshwater flows for the Apalachicola River 
and Bay.
    We live in Tallahassee, though are no strangers to the Apalachicola 
as we have boated on the river and its bay for many years (houseboat, 
sailboat, motor boat and canoe). It is a majestic and powerful river, 
its waters and surrounding lands supporting large numbers of 
terrestrial and aquatic wildlife as well as the people who fish its 
waters. A whole oyster industry is dependent on sufficient freshwater 
flow from farther north. But you know all this.
    We believe that the freshwater needs of the ecology of the river 
and bay are just as important as the water needs of the City of 
Atlanta. Both should be considered. Certainly there need to be limits 
to growth based on the availability of water. Certainly there need to 
be widespread water conservation practices implemented throughout the 
watershed such as low flush toilets in every hotel and home, limits to 
lawn watering, water reuse on farms and so on.
    The bottom line is that we must restore the flow of freshwater to 
the Apalachicola River and Bay. It is important.
            Sincerely,
                             Donna Legare and Jody Walthall
                                 ______
                                 
Dear Ms, Gibson,

    As a native Georgian but now a resident of Florida, I request that 
action needs to be take by Congress to increase the water flow into the 
Apalachicola Bay. I have been coming to this area of Florida since 1976 
and have valued the beauty and seafood abundance of the Last Great Bay. 
I lived for a decade in Atlanta and have noted firsthand how my native 
state capital uses its water supply from the Chattahoochee River. 
Indeed, Atlanta has never met a developer it did not like. I understand 
there are water needs in Georgia, but due consideration must be given 
to those downstream who also have needs for that water. The restriction 
of the water flow to South Georgia and the Apalachicola Bay is 
strangling the life out of the those communities downstream from 
Atlanta. The current ruling of the courts will result in the death of 
the seafood industry and a way of life in the Bay. I plead for action 
before the it is too late.
            Respectfully,
                                           Michael Cumpton,
                                                St. Augustine, Florida.
                                 ______
                                 
Dear Senator Gibson [sic],

    Preserving the ecosystem of the Apalachicola River is critical for 
our survival. We must find a way to compromise with all parties that 
wish to use our precious and diminishing resources. It is unacceptable 
to let an entire habitat that many use for their livelihood be 
destroyed.
    Have you played Jenga. Removing one critical piece causes the whole 
tower to collapse. Don't be responsible for the suffering of our 
children and our children's children. The Apalachicola and its human 
and other inhabitants NEED freshwater.
            Sincerely,
                                              Rachel Kelley
                                 ______
                                 
Dear Mr. Houton and Ms. Gibson,

    As you may be aware the Apalachicola Bay is one of the last places 
in the U.S. that wild, rather than farmed oysters are available. This 
bay is an invaluable natural resource for many reasons, oysters being 
just one. A large amount of the wild caught fish from the Gulf of 
Mexico begin life in the brackish water of the great estuary. These 
fisheries account for large numbers of jobs as well as important tax 
revenue for Florida, Alabama, Mississippi and the U.S. Government.
    This bay is being strangled by a lack of freshwater coming down the 
Apalachicola River. The head waters of this river are north of Atlanta, 
Georgia. The Atlanta region has been able to tap into Lake Lanier and 
the Chattahoochee River as a water source. Lake Lanier was not built as 
a water source for Atlanta, this is a matter of public record.
    As one who lives in the Atlanta metro area I see tremendous water 
wastage almost daily. The metro region just gives lip service to water 
conservation, and makes no serious efforts to conserve water.
    These two competing interests do not have to be at odds. 
Apalachicola Bay needs can be met, as well as those of Atlanta metro, 
if serious and substantive conservation efforts are invoked soon.
    Please do not let the expansionist goals of North Georgia 
politicians destroy one of the last great estuaries in the United 
States.
            Sincerely,
                                       Dr. Jonathan Goodson
                                 ______
                                 
TO WHOM IT MAY CONCERN:

    I own and have operated Water Street Seafood for 26 years in 
Apalachicola, FL. Water Street Seafood processes and distributes 
oysters, shrimp, crabs and fish harvested from Apalachicola Bay and the 
Gulf of Mexico. Water Street Seafood employs about 50 people and buys 
from over 100 fishermen. All of these jobs are dependant on the health 
of Apalachicola Bay. Because of the lack of freshwater from the 
Apalachicola River, our oyster production has dropped over 75 percent, 
crab production has dropped 90 percent, shrimp and fish have dropped 
over 50 percent.
    I have also owned The Blue Parrot Restaurant on St. George Island, 
FL for the past 17 years. The Blue Parrot employs over 70 people during 
the summer season. The Blue Parrot is known for its fresh local 
seafood. The visitors who come to Franklin County come here to enjoy 
all the activities Apalachicola Bay offers. Without all the 
recreational activities related to the bay and its biodiversity, the 
visitors would not come here. Most of the jobs in our tourism industry 
would be lost.
    The lack of water flow from the Apalachicola River will eventually 
destroy Apalachicola Bay and all the jobs which depend on a healthy 
bay. We desperately need all our Florida politicians to do everything 
possible to insure that Apalachicola Bay gets the river flow it needs. 
The state of Georgia must be required to create and follow very serious 
water conservation laws which will be in the best interest of all 
Americans. The United States Senate and Congress must act to create the 
required laws directing the Army Corps of Engineers to make 
Apalachicola Bay one of the top priorities in the management of water 
flow in the Apalachicola River.
    Mankind is destoying the Earth one river, one bay at a time. 
However, we have the power and ability to preserve the Earth. 
Apalachicola Bay is a very unique and special ecosystem which can only 
be found one or two other place on this planet. Please do eveything 
possible to save the Apalachicola Bay.
            Berst Regards,
                                            Steven C. Rash,
                                                         President,
                                             Water Street Seafood, Inc.
                                 ______
                                 
Dear Respected Senators,

    While my home is in Wilmette, Il. My wife, Lydia and I own 2 
Vacation Rentals in Gulf County, Fl. and land in Franklin County, Fl. 
We pay our fair share of real estate taxes and Revenue taxes from our 
weekly rentals. We have been in the area since 1998 and absolutely love 
the ``Forgotten Coast'' as it is referred to often. The natural beauty 
and pristine nature balance is truly one of the most beautiful area in 
all of the U.S. ``Old Florida'' is alive and well down here.
    There is absolutely no way we can let the Apalach Ecosystem become 
endangered any more than it already is!!!!!! We have to let the water 
from Georgia come down and protect this beautiful gem. The statistics 
of oyster density has gone down by 75!!!!! Please help and prevent this 
potential ECO disaster from happening. Not to mention the potential 
further disintegration of the Oyster production industry and all the 
``Unintended Consequences'' that would bring.
    Save the Apalachicola River and Bay!!!!!!!!!!
    Thank you!!!!
                                Peter J. and Lydia A. Burns
                                 ______
                                 
    This is a plea for Congress to act on behalf of the Florida 
citizens who live in Franklin County and elsewhere to protect the 
Apalachicola River and Bay. The Corps of Engineers needs to be directed 
to provide freshwater flows necessary to save Apalachicola Bay and the 
seafood industry here which is so vital to our economy.
                                          Marcia M. Johnson
                           Clerk of Circuit Court, Franklin County.
                                 ______
                                 
    The health of the Apalachicola Bay and the livelihood of the 
citizens that live in Franklin County, Florida are at risk. This is not 
something that might occur, rather it is happening now and has been for 
the last several years. The restricted water flows into the 
Apalachicola River and therefore the Bay have caused a major change in 
the ecology of the region. The primary industry in Franklin county is 
oyster harvesting. Oysters require a delicate balance of both salt and 
freshwater to thrive and grow. The town needs Oysters to continue to 
thrive and grow. Neither are getting what they need.
    Congress has an opportunity to take action and make a difference. 
The Governors of Florida, Georgia and Alabama have been ineffective in 
collaboratively resolving the issue. Rather, they are drawn to opposite 
corners by special interests. The result has been a stalemate, inaction 
and continued loss of jobs and a unique American way of life.
    Please take action to support increased water flows into the 
Apalachicola River. Thank you for your consideration.
                                               Rick Zelznak
                                 ______
                                 
    I am writing to have my voice heard regarding the need for 
freshwater in the Apalachicola River and subsequently, the Bay. The 
idea that Georgia has the right to ``own'' the water that has been kept 
captive and is being overused by that state is ludicrous.
    Not only is a way of life and the oyster industry at stake, but the 
environmental balance of this entire area of North Florida.
    Water levels must be restored to the Apalachicola River.
            Sincerely,
                                           Carla Marie Reid
                                 ______
                                 
    The time has come to consider filling in the man-made Bob Sykes 
Cut! This huge breach of what was once a barrier island (St. George) in 
1953 results in two tidal salt water flushes and two freshwater 
syphonings out of the bay each day. This is not natural and was never 
intended. It is the root of the oyster production problem.
    Yes, we have gotten away with this ill conceived shortcut to the 
gulf for decades. But like all tamperings with nature, unintended 
consequences usually occur, later than you think and greater than you 
anticipate. Such is the case with today's dieing oyster industry!
    There is no argument that water flows are substantially down due to 
long-term reduced rain fall in North Georgia. Also, Atlanta's increased 
consumption of water is greater than ever before. However, suing 
Georgia will have no affect on the weather or the growth of the city's 
population. An alternative approach is required which is immediate, 
affordable, and calculated to produce no adverse impact on government 
relations between states or negatively impact the ecology of the oyster 
beds.
    If the cut were refilled, it is my contention that there would be 
sufficient freshwater flooding the oyster beds to sustain profitable 
harvests, even with the reduced river flow. Let the scientist, rather 
than the politicians, evaluate and settle the merits of the issue. Then 
have the politicians act to effect the closing of the cut. In fact, the 
cut would only require a modest loose-rock dam across it. Then just let 
nature fill it in with sand as it will in due time since all dredging 
will have cease.
    I challenge you to accept my cost-effective hypothesis and at least 
study the oyster problem from a water salinity perspective rather than 
a legal challenge to our neighboring state. Thank you very much for 
your time and consideration.
            Sincerely,
                                                Lee Avirett
                                 ______
                                 
    The lack of freshwater flow down the Apalachicola River has now 
reached crisis stage. This is a disaster not only for the oystermen of 
the bay but all the people who enjoy the healthy food from the Gulf of 
Mexico. The estuary supports 90 percent of the sea life at some stage 
of their development.
    As a native-born Floridian, I beg you to not waste this opportunity 
to save an American Treasure for my grandsons and those that come after 
them. We have already lost too much of natural Florida as I knew it as 
a child. The sea life may well be the canary in the mine for this 
planet.
                                               Dona Carbone
                                 ______
                                 
    Congress needs to instruct the Army Corp of Engineers to establish 
freshwater flows that will sustain the Apalachicola Bay.
    Economically, the livelihoods the oystermen and fisherman depend on 
the Bay continuing to produce the bounty it is capable of producing.
    Furthermore a damaged estuary will not support the robust tourism 
industry that depends on this vibrant ecosystem. The livelihoods of 
many other local residents now depend on continuing to attract visitors 
looking to experience what is fast becoming a vanishing wonder of 
nature.
    I am sure that the inland residents of Georgia also feel that 
upstream water extraction is also crucial to their economic livelihood.
    The difference is that that the Bay is a treasure of biological 
diversity of flora and fauna that deserves protection as a regional if 
not national importance. As a part of the National Estuarine Research 
Reserve System, the Federal Government has already recognized the 
importance of this bay.
    Now Congress needs to take the necessary steps to protect it.

                                          Edward Schroering
                                 ______
                                 
    I want the Senate Commerce Committee to urge the Obama 
administration to direct the Corp or Engineers to revise the Water 
Control Manual for the Apalachicola Chattahocheee Flint Rivers (ACF) 
system to restore necessary water flows for the Apalachicola River to 
protect endangered fish and wildlife and Apalachicola Bay. The 
Declaration of Fisheries Disaster for the bay and its oyster population 
further justifes the restoration of historic river flows necessary to 
provide adequate freshwater for the Bay. The State of Florida has been 
robbed of water long enough. The reversal of Judge Magneson's brilliant 
and correct opinion--that the COE's violated the law by allowing water 
for consumption and boating in Atlanta at the expense of the 
Apalachicola River and Bay--is a travesty of justice. As a former 
General Counsel for the Florida Fish and Wildlife Conservation 
Commission, I know first hand the damage done to endangered mussels and 
oysters and to the small businesses that depend on the oyster harvest.
    I thank Senators Nelson and Rubio for conducting the hearing in 
Apalachicola.

                                              James Antista
                                 ______
                                 
    I was born in Apalachicola in 1948 and my father was a boat builder 
there. I've spent a great deal of my life appreciating and enjoying the 
Apalachicola River and its ecosystem, its culture, and its people and 
realize that this may be our last chance to take a stand and do the 
right thing for the future of this area. The Apalachicola River is one 
of the most beautiful and sensitive areas in our country. It 
desperately needs your help. The water flow that originates in Georgia 
has been diminishing for years and this has a profound effect on the 
area. Floridians are asking for a fair share of that water to preserve 
a national treasure. Please help. We all need to be doing everything we 
can to protect and save what's left of our wildlife for generations to 
come. Clean water is at the core of our survival. The time is now and 
you can make a difference. Thank you very much for caring and realizing 
the importance of this issue.
                                              Wanda Phares,
                                                  Tallahassee, Florida.
                                 ______
                                 
Good evening,

    I regularly kayak the Apalachicola-Chattahoochee-Flint Rivers 
system. Mismanagement of the rivers system affects the flora and fauna 
that other non-consumptive recreationists and I wish to see. Non-
consumptive recreationists provide another economic boost to the 
communities around the rivers, one that is threatened by current 
management practices.
    Please, keep water levels such that they sustain the rivers. We 
Floridians matter.
    I am calling on Congress to pass legislation requiring the Army 
Corps of Engineers to operate the Apalachicola-Chattahoochee-Flint 
Rivers system to ensure that the rivers receive the freshwater flows 
they need to support healthy populations of fish and wildlife and the 
vibrant resource-based economy that relies on a healthy, natural 
system.
    Thank you.
                                            Elizabeth Slack
                                 ______
                                 
    I do hope that all of this is seriously taken. The lively hood of 
the residence of Franklin County is dependent on Apalachicola Bay. We 
are all connected in some way. If it is harvesting oysters, developing 
tourism, or try to live in a vibrant economy that we don't see people 
eking out a living. The River and Bay are life of Franklin County.
    I live on East Bay, I own an Art Gallery on St George Island, I 
served on Northwest Water Management District Governing Board for 12 
years and I am on the board of the Apalachicola Riverkeepers. I see 
firsthand the devastation that occurs when we do not get the freshwater 
that we need to replenish the bay and keep it healthy.
    This is not a political plight of who is right and who is wrong. It 
is about the life of our God Given treasure called the Apalachicola 
River and Bay. It must not be a political pawn as it is now being used 
as.
    I do hope and encourage Congress to act accordingly to save our 
River and Bay.
    Thank you for listening, we all wait in hopes that the right 
decisions will be made in this critical moment.
            Blessing,
                                               Joyce Estes,
                                                      Sea Oats Gallery.
                                 ______
                                 
    The locals of the northwest FL in the region of the Apalachicola 
Bay are asking your help as members of the Senate Committee on 
Commerce, Science, and Transportation regarding the upcoming hearing to 
support the continuing legislation to protect our water rights and save 
our bay, oyster industry and restore the precious balance of salinity 
and the health of the Bay.
            Sincerely,
                                               Diane Cofer,
                                                           Realtor,
                                                       Panama City, FL.
                                 ______
                                 
                    Georgia Department of Natural Resources
                                       Atlanta, GA, August 23, 2013

BY ELECTRONIC MAIL AND U.S. MAIL

Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Re: Submission to Record of Committee Hearing on ``Effects of Water 
            Flows on Apalachicola Bay: Short and Long Term 
            Perspectives,'' August 13, 2013

Dear Members of the Committee:

    The U.S. Senate Committee on Commerce, Science, and Transportation 
held a field hearing in Apalachicola, Florida, on August 13, 2013, on 
the topic ``Effects of Water Flows on Apalachicola Bay: Short and Long 
Term Perspectives.'' Although there was a great deal of discussion at 
the hearing about Georgia's water use in the Apalachicola-
Chattahoochee-Flint (ACF) River Basin, the Committee did not invite 
anyone on behalf of the State of Georgia or its water users to speak at 
the hearing. The Committee did, however, provide that the record of the 
hearing would remain open for ten days for any member of the public to 
submit written information that they desired to be included in the 
record. Accordingly, I make the timely submittal of this letter and the 
attached analysis for you to include in the record.
    The data refute the assertion that Georgia's water use is causing 
or contributing to the reported decline in the Apalachicola Bay oyster 
population. Recent decades have seen droughts of increasing frequency 
and severity. These droughts are natural phenomena that stress the 
environment throughout the ACF Basin. Stream flows have accordingly 
declined in recent decades as a result of reduced natural inflow and 
other factors unrelated to consumptive water use in the State of 
Georgia or the U.S. Army Corps of Engineers' ACF reservoirs. In fact, 
contrary to what some have erroneously suggested, flows in the 
Apalachicola River have been higher during recent droughts than they 
would have been in a state of nature, because the Corps releases large 
amounts of water stored in reservoirs in Georgia to augment the flow in 
the Apalachicola River. Moreover, salinity in the Apalachicola Bay 
generally, and specifically at the most productive oyster beds, is 
highly variable and not affected in any material way by variations in 
the flow of the Apalachicola River of a degree equivalent to the amount 
of Georgia's water use. Among other things, the saltwater inflow from 
the man-made Sikes Cut has a much greater impact on salinity at the 
oyster beds.
    As even the Governor of Florida, the University of Florida, and 
others have noted, the decline in the oyster population in the 
Apalachicola Bay appears to be related to poor management of the oyster 
habitat in Florida. Oyster harvesting reached record-high levels in the 
2011-2012 time period, with the predictable result that the oyster 
population experienced a substantial reduction. It would appear that 
the State of Florida should direct its resources at restoring the 
affected substrate and more tightly controlling harvesting. 
particularly of sub-legal oysters, rather than making unjustified 
claims against Georgia.
    I trust that you will find the attached analysis informative. 
Please let me know if you have questions or desire additional 
information.
            Sincerely,
                                          Judson H. Turner,
                                                          Director,
                                     Environmental Protection Division,
                               Georgia Department of Natural Resources.
Enclosure
                                 ______
                                 
                               Attachment
   Statement by the Environmental Protection Division of the Georgia 
                    Department of Natural Resources
Georgia Environmental Protection Division
    The Environmental Protection Division of the Georgia Department of 
Natural Resources (EPD) is the primary agency responsible for the 
management of water resources in Georgia. EPD ensures that adequate 
water supplies and water quality are maintained through permits issued 
to local governments, industry, farmers and subdivisions for surface 
water and groundwater withdrawals, and through the permitting of 
treated wastewater discharges. EPD ensures that Georgia's public water 
systems are operating properly to supply safe drinking water to 
citizens, works to control nonpoint sources of pollution, including 
erosion and sedimentation, and regulates storm water discharges. EPD 
also conducts water quality monitoring and modeling of Georgia's 
waterways.
Analysis
    EPD has reviewed the Oyster Resource Assessment Report issued in 
August 2012 by the Florida Department of Agriculture and Consumer 
Services, Division of Aquiculture; the April 24, 2013 Apalachicola Bay 
Oyster Situation Report; the 2012-2013 Florida Gulf Coast Oyster 
Disaster Report published by the Florida Fish and Wildlife Conservation 
Commission in May 2013; and testimony filed by various parties for the 
August 13, 2013 field hearing conducted by the U.S. Senate Committee on 
Commerce, Science, and Transportation in Apalachicola, Florida. A 
number of these documents assert erroneously that consumptive use of 
water by the State of Georgia is the cause of the decline in the 
Apalachicola Bay oyster fishery. These assertions are flatly incorrect 
and ignore the facts showing that drought and fishery mismanagement are 
the most likely causes of the decline in the oyster fishery, not 
Georgia's reasonable use of the water resources within its borders.
    Below, EPD corrects some of the key errors in the above-mentioned 
reports and testimony, and demonstrates that (1) Georgia's water 
consumption is reasonable; (2) this use has little, if any, impact on 
conditions in the Apalachicola Bay; and (3) the steep decline oyster 
populations coincided with record overharvesting and mismanagement of 
oyster populations in Apalachicola Bay.
The Decline in Flows into the Apalachicola Bay is a Natural Phenomenon 
        Experienced Throughout the Southeast
    Florida asserts that stream flow in the Apalachicola River has been 
lower during recent droughts than in previous droughts, and that 
Georgia's water consumption is the reason. The facts do not support 
this assertion. To the contrary, stream flows have been declining 
throughout the ACF River Basin and other basins in Northwest Florida 
feeding into the Gulf of Mexico for reasons that have nothing to do 
with water consumption in the State of Georgia. The trend of decreasing 
Apalachicola River flows has been seen in other rivers throughout the 
region. The following two figures show this trend in the Apalachicola 
River and Florida's Choctawhatchee River, which does not flow through 
Georgia.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The same trends holds for other tributaries to gulf bays. The 
figure below shows seven gages, including the two shown above; the 
flows have been normalized by drainage area so the trends can been seen 
on a single plot. As can be seen, stream flows show a general declining 
trend over the period from 1972 to the present. Moreover, as discussed 
in greater detail below, this trend is entirely unrelated to water use 
in the State of Georgia.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In fact, this downward trend is even more pronounced in the Florida 
drainage area of the ACF Basin. The figure below shows the Apalachicola 
River flows at the Florida state line (USGS Chattahoochee, FL Gage) and 
the incremental flow entering the Apalachicola River between the 
Chattahoochee, FL Gage and the Sumatra Gage further downstream.\1\ The 
flows again are normalized by drainage area for comparison. The decline 
in the incremental flow in the Florida portion of the Apalachicola 
River drainage obviously is not caused by Georgia's water use or the 
Corps' reservoir operations. This decline, like the decline in the 
inflow within the basin in Georgia, is attributable mainly to natural 
hydrological changes.
---------------------------------------------------------------------------
    \1\ Sources: 1978-2012, USGS gage 02359170; 1972-1978 (not 
available from USGS), Corps of Engineers records provided with ACF 
ResSim model (ACFHEC_10.dss file).


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As seen below, similar trends are observed in ``reference'' stream 
gages such as the Suwanee River (White Springs, FL) Gage, identified by 
the USGS as representing a natural or least-disturbed condition. Thus, 
these trends appear to include a climatic component, as the observed 
declines in stream flow are occurring without regard to consumptive 
withdrawals within these basins.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Natural Unimpaired Flows (Without Human Influence) Have Been Lower In 
        Recent Droughts Than In Previous Droughts
    The Florida Fish and Wildlife Conservation Commission's May 2013 
Disaster Report includes a graph (Figure 2, on p. 37 of the Disaster 
Report) suggesting that upstream consumption and the Corps' management 
have produced ``significantly lower flows.'' The FFWCC graph is 
misleading and FFWCC's assertion is false. As a matter of fact, the 
cause of the increase in low flow days is a change in the natural, 
unimpaired flow.\2\
---------------------------------------------------------------------------
    \2\ Unimpaired flows are historically observed flows with human 
influences removed. Human influences considered in derivation of 
unimpaired flows include flow regulation by and net evaporation from 
large reservoirs, and water withdrawals and wastewater returns by 
municipal, industrial, thermal power, and agricultural water uses. 
Groundwater pumping is also considered to the extent surface water 
flows are reduced. The use of unimpaired flows, as opposed to 
historical observed flows, allows resource assessments to be founded on 
the ``natural'' hydrology of the stream network. This approach enables 
consistent, unbiased evaluation of the impact of past, present, and 
future water regulation and consumption activities on stream networks.
---------------------------------------------------------------------------
    The green bars below show the unimpaired flow \3\ available to 
support flows over 6,000 cfs for the same period presented in FFWCC's 
graph. The lower the green bar, the less water was available in nature, 
and the more days below 6,000 cfs (blue bar). As can be seen, the 
increase in the number of days below 6,000 cfs has corresponded with a 
sharp reduction in the unimpaired flow. In fact, the 2008-2012 period 
was the only period during which the mean unimpaired flow was less than 
6,000 cfs. It is therefore not surprising that this period would have 
the greatest number of days with flows below 6,000 cfs.
---------------------------------------------------------------------------
    \3\ The Corps of Engineers' unimpaired flow data set was used for 
the available period (1939-2008). Chattahoochee, FL Gage data was used 
from 1925-1938, and values were calculated using the Corps' methodology 
for 2009-2012.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Florida Overstates Georgia's Consumptive Use
    As explained above, flows in the Apalachicola River have been 
decreasing overall in recent years for reasons unrelated to upstream 
consumptive use. Nevertheless, some in Florida continue to assert that 
water use in the Atlanta region is a significant factor in this 
decline. This is simply not the case.
    Consumptive water use within Metropolitan North Georgia represents 
only small fraction of the flow in the Apalachicola River downstream in 
Florida. Indeed, since 2000, Metropolitan North Georgia's total 
municipal and industrial consumptive use in the ACF Basin \4\ has been 
equivalent to only 0.5 to 3 percent of the average annual flow at the 
Sumatra, FL Gage.\5\ Note that Metro Atlanta's use has been decreasing 
since 2000, as shown in Figure 8. The below figures include Metro 
Atlanta's municipal and industrial consumption from both the 
Chattahoochee and Flint River Basins.
---------------------------------------------------------------------------
    \4\ Source: 2000-2009, Metropolitan North Georgia Water Planning 
District, Water Metrics Report, 2011 (water Table 3-4, wastewater 
Tables 4-3, 4-5); 2010-2011, PROVISIONAL DATA calculated from data 
provided by the State of GA EPD.
    \5\ USGS gage 02359170, average annual flow (calendar year).
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    
    Much of the information concerning the scale and impact of upstream 
water consumption presented to the Committee is inaccurate and 
substantially overstates evaporation and consumptive use in the ACF 
Basin. For example, Dan Tonsmeire of Apalachicola Riverkeeper stated 
that total average evaporation and consumption from May to September 
2007 was 3,365 cfs. Mr. Tonsmeire's estimate is based, in part, on 
evaporation numbers derived from a draft report to the ACF Stakeholders 
Group; these numbers were revised in the final report. Mr. Tonsmeire's 
numbers have not been peer-reviewed and are incorrect.
    Mr. Tonsmeire also overstated consumptive water use by a large 
margin. The recorded 2007 annual average municipal and industrial water 
use in Georgia was 399 cfs. This included 283 cfs for the Metro Atlanta 
area (including Metro consumption from the Flint Basin). For the period 
May through September, the average municipal and industrial water use 
in Georgia was 567 cfs, including approximately 420 cfs for the Metro 
Atlanta area (including the Flint). When we add an annual average of 54 
cfs and a May through September average of 79 cfs of consumptive water 
use in Alabama, the annual average non-agricultural water consumption 
was only 453 cfs, and the May through September average water 
consumption was 646 cfs. These are much less than the 525 cfs (2007 
average) and 735 cfs (May through September) presented by Mr. 
Tonsmeire.
Minimum Flows in the Apalachicola River During Recent Droughts Have 
        Been Higher Than They Would Have Been in a State of Nature
    As discussed above, the State of Florida and Mr. Tonsmeire assert 
that upstream consumptive use and reservoir management practices of the 
Corps of Engineers are almost solely to blame for reduced flows in the 
Apalachicola River. Though not pointing exclusively to upstream 
consumption, Karl E. Havens, Director of the Florida Sea Grant College 
Program, offered testimony that the cause of the ``sudden crash in the 
oyster population in August 2012'' was some factor ``related to the 
long period of low river inflow and high salinity.'' Havens suggested 
that ``one of the first things'' he would do is run a computer model 
with scenarios of ``the last two years with and without human 
withdrawals of water.'' (Emphasis in original.) Havens suggested that 
if ``there is little difference,'' addressing the inflow might not be a 
solution to fixing the program, but that if the ``difference in river 
flow is 10 or 20 percent (or more), there could be a solution.''
    As discussed elsewhere in this analysis, Metro Atlanta's 
consumptive use is far less than 10 percent of the average flow or even 
low flow at the state line. Moreover, actual flows in the Apalachicola 
River were even higher than they would have been in an unimpaired 
scenario, or in a scenario where there is no consumption and the Corps 
operates the Federal reservoirs in ``run-of-river'' mode, without any 
storage of water or flow augmentation.
    This unaltered flow regime is known as the unimpaired flow. 
Comparison of the actual flows entering the Apalachicola River at the 
Florida state line and unimpaired flows computed by the Corps of 
Engineers demonstrates that, during periods of low flow, actual minimum 
flows (the lowest flows that occurred) in the Apalachicola River were 
significantly higher for extended periods of time than they would have 
been in a state of nature.
    The figure below compares the 2007 observed flow at the 
Chattahoochee, Florida Gage with the Corps' unimpaired flow for that 
period. The combined effects of management actions and return flows 
back into the system actually INCREASED the flow across the Florida 
line into the Apalachicola River during the May-November drought period 
in 2007. From May through November of 2007, observed minimum flows in 
the Apalachicola River were higher, and often much higher, than what 
nature alone would have provided.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Another way to see how actual flow in the Apalachicola River flow 
was better than unimpaired flow is to place all the numbers in the 
context of the total flow in the basin. The following bar charts 
present a comparison of the total flow in the Apalachicola River to the 
unimpaired flow for May-November 2007 and the entire year of 2007, 
using data from the USGS gage at Chattahoochee, FL, and the Corps' 
Unimpaired Flow Data Set.
    As can be seen:

  <bullet> Florida received only slightly less (7 percent) water than 
        the entire natural flow of the Apalachicola River for the 
        entire year. In other words, despite the fact that 74 percent 
        of the ACF Basin is in Georgia, Florida received 93 percent of 
        the flow during one of the worst droughts in the hydrologic 
        record.

  <bullet> More importantly, Florida actually received more water than 
        the entire natural flow of the river for the May to November 
        drought period, when flows tend to be the lowest. Thus, during 
        the record-breaking drought period of 2007, the impact of all 
        water use in the basin upstream of Florida on the average flow 
        was eliminated by the river management about which Florida 
        complains.
        
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    The Corps maintains at least 5,000 cfs at almost all times at the 
Chattahoochee, FL Gage, and provides additional augmentation at certain 
times when natural flows are above 5,000 cfs. In the below graph, the 
number of days in which the unimpaired (natural) flow would have been 
below 5,000 cfs is compared to the number of days in which the actual 
flow fell below 5,000 cfs. The dramatic reduction (327 reduced to 59) 
in the number of days when flow fell below 5,000 cfs is the direct 
result of Corps management and return flows from upstream users. The 
extraordinary benefit Florida receives, in terms of maintaining minimum 
flows, is abundantly clear.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As Dr. Havens suggested, it is possible to use a hydrologic model 
to compare the flows that would have occurred both with, and without, 
upstream withdrawals and the effects of reservoir operations. This 
modeling, which Florida has notably declined to provide, demonstrates 
the benefits of the Corps' reservoir operations and the minimal effect 
of upstream consumption.
    The figure below compares two scenarios. The green line represents 
present conditions and includes existing water withdrawals within the 
State of Georgia and the existing operational plans for the Corps' ACF 
reservoirs. The purple line shows the flows that would have occurred 
without any upstream withdrawals within the State of Georgia and the 
Corps' ACF reservoirs operated in a ``run-of-river'' mode where the 
Corps neither stores water nor releases water from storage. As can be 
seen, the entirety of Georgia's water withdrawals make little if any 
difference to downstream flows. Moreover, the upstream reservoirs 
substantially supplement flows during the periods of greatest scarcity.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Georgia's Water Consumption Has Negligible, if Any, Impact on Salinity 
        in Apalachicola Bay
    The overriding premise of the testimony presented to the Committee 
at the hearing is that upstream withdrawals within Georgia have caused 
reductions in freshwater inflows to Apalachicola Bay, and that these 
reductions have caused oyster populations to decline as a result of 
substantial increases in Bay salinities. Again, this is false. Even if 
Georgia's upstream water consumption in the ACF Basin did not occur, 
there still would be little to no reduction in salinity in Apalachicola 
Bay.
    Salinity in Apalachicola Bay is highly variable due to numerous 
factors, including tides, wind, and freshwater inflow (both from the 
Apalachicola River and local sources). A time series plot of daily 
average salinity concentrations for the bay at two of the larger oyster 
beds--Cat Point and Dry Bar--in 2002 (based on data collected by the 
National Estuarine Research Reserve System (NERRS)) and the 
corresponding flows in the Apalachicola River at the Sumatra Gage (USGS 
02359170) illustrates this.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Because of the many factors that affect salinity, flow in the 
Apalachicola River is only loosely correlated with salinities at the 
main oyster beds in Apalachicola Bay. The following figures compare 
observed salinity in Apalachicola Bay and flow in the Apalachicola 
River at the Sumatra Gage. Salinity data again are from NERRS for Cat 
Point and Dry Bar, and the flows are in the Apalachicola River at the 
Sumatra Gage. Days with flow of 10,000 cfs or less, and 20,000 cfs or 
less, were selected to represent two ranges of flow in the Apalachicola 
River. At both sites, significant variation in salinity concentration 
is apparent at each level of flow, indicating the influence of factors 
other than Apalachicola River flow on salinity concentration at the 
oyster beds.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Using regressions based on the data above, the predicted effect on 
salinity of a reduction in flow corresponding to 160 mgd of upstream 
consumptive use--the projected year 2045 municipal and industrial 
consumptive of Metro Atlanta--is shown in the below bar charts. 
Consumptive use of this magnitude--even assuming it resulted in a 1/1 
reduction in the flow in the Apalachicola River during a low flow 
period (flow ranging from 4,500 to 7,000 cfs), which it would not, 
under the Corps' current reservoir operations, would increase the 
number of days with salinity above 24 ppt by less than 3 percent, while 
the number of days with salinities above 20 ppt would increase by less 
than 1 percent.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Moreover, even assuming higher levels of consumption within the 
entire ACF Basin, the impact on salinity is negligible. Regression 
models were used to estimate bay salinity concentration distributions 
under other flow scenarios where observed river low was increased each 
day by 200, 500, or 1,000 cfs.
    The distributions of salinity concentrations for each of the flow 
scenarios is summarized with a ``box and whisker'' plot as shown below.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The ``box'' represents the median, 75th and 25th percentiles of 
salinity concentrations, and the ``whiskers'' represent the minimum and 
maximum concentration. For each of the flow scenarios, a day was 
included if the observed flow was on the specified range of 10,000 cfs 
and below, or 20,000 cfs and below. The flow scenarios, however, 
include flows that may be above the range if they occurred on a day 
that the observed flow was within the range.
    Increased flow, represented by the flow scenarios, is shown in the 
figures below to have little effect on the distribution of salinity in 
the Apalachicola Bay.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Sikes Cut Has a Greater Effect on Salinity
    Research has shown that salinity throughout Apalachicola Bay and at 
oyster bar locations in particular is affected by the flow of salt 
water through artificial inlets like Sikes Cut. The Corps created Sikes 
Cut as a navigation channel in the 1950s to shorten travel time for 
boats leaving and entering Apalachicola Bay. Modeling work by Jones et 
al., (1994) indicates that Sikes Cut impacts salinity throughout 
Apalachicola Bay and can impact the salinity at Cat Point oyster bar, 
for example, by 2-4 ppt.\6\ If this is so, the influence of Sikes Cut 
on salinity is two times or more greater than the influence of all 
upstream consumptive uses combined. In addition, Sikes Cut provides an 
entry path for marine oyster predators directly to the heart of the 
oyster beds in Apalachicola Bay.
---------------------------------------------------------------------------
    \6\ See, Jones, W.K., Galperin, B., Weisberg, R.H. and Wu, T.S., 
Influence of Sikes Cut on Apalachicola Bay, FL; a Preliminary Analysis 
from a Three-Dimensional Perspective.
---------------------------------------------------------------------------
There Is No Correlation Between Flows and Oyster Landings
    In light of the foregoing, it should come as no surprise that there 
has been no correlation between the amount of water flowing in the 
Apalachicola River in a given year or consecutive years, and oyster 
landings in those years or following years.
    The figure below provides oyster landing data for the Florida Gulf 
Coast as shown in Florida's 2013 Disaster Report and as compiled by 
NOAA Fisheries. It shows that there is no correlation between river 
flow and annual oyster landings.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

The Current Decline in Landings and Population Appears to Be Caused by 
        Overharvesting
    From NOAA monthly landing data and the discontinuous monthly 
landing data provided by the FFWCC May 2013 Disaster Report, it is very 
clear that the general level of oyster harvest in the most recent 6 
years has been unprecedentedly high. The level of monthly harvest 
starting around October 2011 and lasting well into 2012 in particular 
was higher than any seen before. As later graphs will show, this 
record-breaking level of harvest was then followed by the steep decline 
of the oyster population at major oyster bars. Despite the fact that 
the predicted population began to decline in 2010 following several 
years of higher-than historical harvests, Florida allowed harvesting to 
increase to unprecedented levels.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The below graphs show the monthly quantities of oyster landings 
(NOAA data) plotted with estimates of the remaining oyster population 
at the Dry Bar and Cat Point oyster bars, based on 2013 Florida 
Disaster Report data. This data shows that despite the fact that the 
predicted population began to decline in 2010 following several years 
of higher-than historical harvests, harvesting activity increased, 
hitting an all-time peak between late 2011 and early 2012.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The above charts appear to show that the current decline in oyster 
landings is directly related to the unprecedentedly high levels of 
oyster harvesting in the years from 2007 to 2012. As Governor Scott of 
Florida himself acknowledged in his September 6, 2012 letter to the 
U.S. Department of Commerce seeking a commercial fishery declaration 
for Florida's oyster harvesting areas in the Gulf of Mexico, 
``Harvesting pressures and practices were altered to increase fishing 
effort, as measured in reported trips, due to the closure of oyster 
harvesting in contiguous states during 2010. This led to overharvesting 
of illegal and sub-legal oysters further damaging an already stressed 
population.''
    Similarly, the April 24, 2013 Apalachicola Bay Oyster Situation 
Report, published by the University of Florida, Florida Sea Grant, and 
others points to ``a historically high level of oyster harvesting'' as 
a cause of the declining oyster population, stating further that 
``oyster harvesting trips reported by fishermen reached the highest 
levels observed since the mid-1980s.'' The Report states, 
``Additionally, fishermen raised concerns about large harvests of sub-
legal (less than 3 inch) oysters over the same time period,'' and 
concludes that ``oyster demand, prices, and fishing effort, combined 
with insufficient fishery management enforcement and adjudication, led 
to a large portion of the oysters being harvested.'' The Report 
mentions upstream water consumption in Georgia and Alabama as a 
possible contributor, but it makes no effort to show any decline in 
flow or increased salinity related to that consumption.
    The concurrence of the dramatic rise in oyster harvesting with the 
decline in the available oyster population is illustrated in the below 
the figures, derived from data reported in the August 2012 Oyster 
Resource Assessment Report, compared with the estimated oyster 
populations at the Dry Bar and Cat Point oyster beds.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Georgia's Water Use is Reasonable
    The underlying premise behind much of the information and testimony 
provided by the State of Florida is that withdrawals in the Metro 
Atlanta Area are unreasonable and have harmed Florida's interests. As 
shown above, there is no impact to Florida from Metro Atlanta's 
consumption. This should not be a surprise, because Metro Atlanta's 
municipal and industrial water use is about 1 percent of the water 
flowing from Georgia into the Apalachicola River in an average year. 
During extreme drought, the percentage depletion of the annual water 
budget is somewhat higher, but it is never much higher than 2-3 
percent.
    As a result of the aggressive conservation measures described 
below, water use within the Metro Atlanta Area has declined 
substantially over the past decade, even as population increased. Per 
capita usage for the Metro Atlanta Area compares very favorably to peer 
communities nationwide, and it is much lower than in other communities 
in Alabama and Florida. According to a report by the firm CH2MHill 
based on information provided by state agencies, in 2006, the per 
capita use rate for Atlanta was 128 gallons per capita per day (gpcd). 
For Tampa, Florida, the use rate was 148 gpcd; for Mobile, Alabama, was 
159 gpcd; for Montgomery, Alabama, was 162 gpcd; for Birmingham, 
Alabama, was 167 gpcd; and for Tallahassee, Florida, was 176 gpcd.
    The Metropolitan North Georgia Water Planning District, which is 
comprised of 15 counties, 92 cities, and 56 water supply systems, has 
developed comprehensive long-term plans for water supply and 
conservation, wastewater management, and watershed management for metro 
Atlanta. The plans are implemented by local water systems and local 
governments and are enforced by the State of Georgia through water 
permits and through eligibility for grants and loans.
    Water conservation is an important element of the Metro Water 
District's Water Supply and Water Conservation Plan. The water 
conservation measures in the Plan are the most aggressive in Georgia 
and among the most aggressive in the United States. The water 
conservation measures in the Metro Water District Plan include: (1) 
conservation pricing; (2) replace older, inefficient plumbing fixtures; 
(3) pre-rinse spray valve retrofit education; (4) rain sensor shut-offs 
on new irrigation systems; (5) sub-unit meters in new multi-family 
buildings; (6) assess water losses with IWA/AWWA water audit 
methodology and develop programs to reduce systems water loss; (7) 
residential water audits; (8) low-flow retrofit kits for residential; 
(9) commercial water audits; (10) education and public awareness 
activities; (11) high-efficiency toilets and urinals in government 
buildings; (12) new car washes to recycle water; (13) expedited water 
loss reduction; (14) multi-family high-efficiency toilet (HET) rebates; 
(15) meters with point of use leak detection; (16) private fire lines 
to be metered; (17) maintain a water conservation program; (18) water 
waste policy or ordinance; and (19) HET plumbing fixtures in new 
construction consistent with state legislation.
    The Metro Water District has made water conservation a priority, 
and local water systems have shown a strong record of implementation of 
water conservation measures. In annual progress surveys, the District 
has found: that tiered water conservation rates are in place throughout 
the metro area; that water systems serving 96 percent of the population 
offer toilet rebates, and over 76,872 older toilets have been replaced 
since 2008; that the larger systems have implemented programs to reduce 
system water losses, and, in 2010, over 10,000 leaks were repaired; and 
98 percent of the population of the metro area is targeted with 
educational and outreach programs by local governments.
    In 2010, the Georgia Water Stewardship Act was passed by the 
Georgia General Assembly and signed by Governor Sonny Perdue. The Water 
Stewardship Act amplified and supplemented the 19 water conservation 
policies and programs identified in the Metro Water District's Water 
Supply and Water Conservation Plan. Among the Act's provisions that 
supplement the Metro Water District's demand management initiatives 
are: (1) requiring state government agencies to examine their programs, 
practices, and rules to identify opportunities to provide for voluntary 
water conservation; (2) requiring local governments to include water 
conservation measures in local comprehensive plans; (3) incentives for 
public water systems to use full cost accounting; and (4) technical 
assistance to local governments and public water systems for water loss 
abatement activities.
    In the area of agriculture, Georgia and its farmers are taking 
concrete steps to improve water efficiency. Working in conjunction with 
Federal cost-share programs, Georgia is implementing installation of 
low-pressure conversions of pivots (retrofits), soil moisture 
monitoring to support advanced irrigation scheduling, strip till, 
micro-irrigation systems, and irrigation water management plans. In 
2011, it was estimated that a combination of Federal cost share and 
private sector funds had supported work with over 1,000 farmers in the 
basin to implement water conservation practices, such as installing 
100,000 more efficient nozzles on 250,000 acres that collectively 
conserve up to 15 billion gallons of water in a dry year. Farmers in 
the basin and the State of Georgia have also invested in metering of 
agricultural water withdrawals for two purposes: (1) to improve our 
ability to manage the basin's water resources and (2) to provide an on-
farm management tool for individual growers. To date, nearly 12,000 
meters have been installed statewide with just over 5,000 installed in 
the Lower Flint Basin. Information from these meters allows individual 
growers to monitor and adjust their water use over the course of a 
growing season. These are but a few of the many measures that Georgia 
is taking to responsibly steward the use of the water resources of the 
Chattahoochee and Flint Basins for one of the Nation's most productive 
agricultural regions.
    These conservation measures are a major reason why Georgia's per 
capita use rates have fallen in recent years. According to the 
September 2012 Water Efficiency and Conservation State Scorecard by the 
Alliance for Water Efficiency and the Environmental Law Institute, only 
five states (four of which are west of the Mississippi River) received 
a better grade than did Georgia for their laws and policies promoting 
water efficiency and conservation. Alabama and Florida received lower 
grades than Georgia.
                                 ______
                                 
                                 ______
                                 
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
                              Lake Lanier Association, Inc.
                                   Gainesville, GA, August 21, 2013

Senator William Nelson and Senator Marco Rubio,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Senate Commerce Committee,
Washington, DC.

Attn: Jeff Lewis, Majority Staff and Kelly Pennington, Minority Staff

Dear Senators Nelson and Rubio:

    The Lake Lanier Association, a 3,400 member organization has been 
an advocate for the health and safety of Lake Lanier for over 45 years. 
We have been a significant voice in the water wars between the states 
of Georgia, Florida and Alabama for the past 20 years. Additionally, we 
have been an active participant with the ACF Stakeholders (ACFS) 
organization since its inception in 2008. Our commitment to that 
organization is based on the belief that a technical understanding of 
the ACF basin is critical to making water policy decisions regarding 
the equitable sharing of water.
    It is with significant concern that we observed the special Senate 
hearing last week and the announcement by Florida Governor Scott that 
Florida will initiate another law suit to try and take more water from 
Georgia to support the Apalachicola Bay. We feel that several facts 
represented in the referenced meeting were provided in error. North 
Georgia and Atlanta have been unjustly vilified by statements reported 
from the meeting.
    Attached is a report that identifies many of the issues that were 
not described during the Senate meeting. Specifically:

  1.  There are many contributors to the problems of the oyster 
        industry; many of them the responsibility of the state of 
        Florida.

  2.  If Atlanta did not exist and therefore did not use any water, the 
        resulting increase in water flow into the Apalachicola Bay 
        would be minimal (not even a 2 percent increase).

  3.  The recent drought of 2007-2008 was devastating to most 
        stakeholders on the ACF system, not just the oyster industry.

  4.  North Georgia has implemented many effective conservation 
        strategies over the past 8 years that have resulted in a per 
        capita water usage reduction of approximately 20 percent.

  5.  Numerous Georgia municipalities, corporations, and organizations 
        have been working towards a solution to the problems of the 
        Apalachicola Bay and the entire ACF system. As an example, the 
        ACF Stakeholders group is developing computer models that will 
        assist in the management of the water flowing through the 
        system.

    We hope that the facts described in the attached report will 
provide a needed balance to the data presented at the senate meeting.
            Respectfully submitted
                                                 Val Perry,
                                                         President.
                                              Wilton Rooks,
                                          Executive Vice President.
                                 ______
                                 
                               Attachment

             Report from the Lake Lanier Association, Inc.

    The Lake Lanier area knows first-hand the devastating impact that 
prolonged drought periods can have on economic factors. During the 
drought of 2006--2008 when Lake Lanier reached its lowest recorded 
point in its 50 year history, the lake economy lost over a 1,000 jobs 
and suffered a $90 million loss in economic productivity. That was 30 
percent of the annual contribution of the lake to the north metro 
Atlanta economy. So it is not without a level of empathy that we view 
the oyster industry collapse in 2012. However, we urge the review of 
all of the factors that have resulted in the collapse before a ``rush 
to judgment'' on the causes.
    As Dr. Carl Havens of the University of Florida based Oyster 
Recovery Task Force reported at the hearing, the accumulative impact of 
multiple years of drought is a major factor in the collapse of the 
oyster industry. During the devastating drought of 2006-2008, 50 
percent of the water above the conservation level in the Federal 
reservoirs on the Chattahoochee River, including Lake Lanier, was 
discharged into the Apalachicola River in order to meet the minimum 
required flow of 5,000 cfs. That amounted to over 200 billion gallons 
of water over the 2 year time period. Except for the fact that it 
started raining in January 2008, even more would have been discharged 
with the inevitable collapse of the entire reservoir system with an 
impact on the health clover 5 million people in the Georgia part of the 
ACF Basin. There are no provisions in the operation of the Corps of 
Engineers reservoirs to avoid such a catastrophic occurrence. 
Apalachicola would have been in even worse shape if there were no water 
left to discharge.
    The conclusion has to be drawn from this event that the reservoirs 
served their purpose and that there was ``shared pain'' among all of 
the water users in the basin.
    The recurring droughts since 2008 have only further illustrated the 
need to store water when it is available in the reservoirs so that they 
can serve their intended purpose in the basin during severe droughts. 
Unfortunately NOAA is not able to predict the severity of a drought 
with sufficient clarity in order for the Corps to store even more water 
when it is available in anticipation of a severe drought. The result is 
that millions of gallons of water that could be stored are discharged 
from the reservoirs during conditions that do not require such 
discharges to meet the downstream user's requirements, including the 
Apalachicola Bay.
Oyster Collapse Causes
    In addition to the drought, Dr. Havens and Mr. Shannon Hatsfield 
referred to the poor oyster bed re-shelling project performed by the 
Florida Department of Agriculture and Consumer Services (DACS) over the 
last several years. Further, even Governor Scott in his public 
statement regarding the intended lawsuit to be filed by Florida against 
Georgia referred to the over harvesting in the bay subsequent to the BP 
oil spill as a contributing factor as did the oyster community in 
Apalachicola.
    All of these factors that contributed to the collapse of the oyster 
economy in the bay are well documented in the work of the Oyster 
Recovery Task Force.
Atlanta's Consumptive Use of Water
    There is also well documented data available now that metro 
Atlanta's consumptive use of water (withdrawals minus returns) amounts 
to less than 1 percent of the total flow of the ACF Basin during an 
average year and only 2 percent-3 percent during even the worst 
droughts. Too often only the withdrawals are quoted are ``gross 
withdrawals'', which disregards the estimated 70 percent in reclaimed 
water that metro Atlanta returns to the both the Chattahoochee and 
Flint Basins. In reality, our inability to track ``lost'' water leads 
to even an over estimation of the net consumption.
    Water that is supposedly ``consumed'' in the past will eventually 
find its way back into the surface water system since Atlanta is built 
on granite and has no significant ground water storage. So we have 
water re-entering the surface water system today that was counted as 
consumed some months or years ago through septic tank discharges and 
leaks in water utility pipes. Water does not disappear. It simply finds 
different paths to flow to its ultimate destiny; rivers and then to the 
oceans. The only water really unrecoverable over time to the ACF Basin, 
and ultimately to Apalachicola, consists of the inter-basin transfers 
of water to the Atlantic Ocean and that absorbed by plants in the 
transpiration process and through evaporation. And of course, even the 
evaporation returns to the surface water systems in the form of rain 
but sometimes in different water basins.
    The uncertainties associated with much of the interaction of 
precipitation with surface water and ground water systems leads to 
engineering assumptions of the most conservative nature since it is 
difficult and un-wise to establish water policy based on un-verifiable 
data. For example, water withdrawn from water utilities by homes and 
then discharged into septic tanks is considered 100 percent consumed. 
We know that is not accurate. We just don't know what the correct 
amount is for a short time return estimate. That the ``grass is always 
greener over the septic tank'' certainly attests to some amount of that 
water being caught up in transpiration. But a significant, but unknown, 
amount flows through the ground and eventually into surface water 
systems. And of course, the geology of the area impacts the time for 
migration of the water, leading to even further uncertainties.
    While it is convenient to identify a ``bogey-man'' as the main 
causative element in a complex environment, the hard data just does not 
support the conclusion that metro Atlanta deserves that label. There 
has been analysis done that suggests that if Atlanta did not exist, 
there would be even less water flowing into the ACF basin since there 
would be even greater transpiration of water into vegetation. A major 
city's impervious surface does have the benefit of rapidly flowing 
precipitation back to surface waters. We don't suggest that as a long 
term viable ``solution'' for the 20,000 square miles on the ACE 
watershed, just pointing out that this is a complex issue and does not 
succumb to sound-bite explanations often preferred by the media.
Atlanta's Conservation Efforts
    At the hearing, much was said regarding Atlanta's efforts--or lack 
thereof--at conservation of water. Those perceptions just do not match 
reality. Since its beginning by the state legislation in 2001, the 
Metropolitan North Georgia Water Planning District, has established 
tough conservation practices for 91 municipalities and 15 counties, 
which coincidentally is the largest metro area water planning district 
in the United States. These practices have led to results such as:

  <bullet> Metro Atlanta's total water consumption has dropped by 
        approximately 15 percent over the same years that its 
        population has increased by over three-quarters of a million 
        people.

  <bullet> Metro Atlanta's water consumption tiered water rate plan is 
        among the highest in the Nation thereby encouraging voluntary 
        conservation by home owners and businesses.

  <bullet> Atlanta's per capita water withdrawal demand has dropped 
        from around 170 gallons per day per person (gpdcd) in 2000 to 
        an estimated 145 gpdcd currently and a projected 135 gpdcd in 
        2035. With the exception of Seattle Washington and Portland 
        Oregon, this is lower than any other major municipal area in 
        the United States. Even this does not take into consideration 
        the amount of water returned to the ACF Basin but is the basis 
        for comparison among other municipalities.

    To further illustrate the ongoing conservation program for Atlanta, 
the following is taken from the MNGWPD Water Supply and Water 
Conservation Management Plan dated May 2009 as amended:

  WATER CONSERVATION PROGRAM
  Water conservation is a critical element in meeting the water supply 
    needs within the Metro Water District. When fully implemented, 
    these water conservation measures will reduce the Metro Water 
    District's water demand by the end of the planning period. Much 
    progress related to water conservation has been achieved since the 
    adoption of the 2003 Water Supply and Water Conservation Management 
    Plan, The Metro Water District's plan has been instrumental in 
    making water conservation a priority in north Georgia. The Metro 
    Water District is the only major metropolitan area in the country 
    with more than 100 jurisdictions that is implementing such a 
    comprehensive long-term water conservation program that is required 
    and enforced. Tiered water conservation rates have been put in 
    place throughout the Metro Water District. All of the largest water 
    systems have implemented programs to reduce system water loss. 
    Toilet rebate programs are in place and ahead of schedule. The 
    water conservation measures in this Plan update include and go 
    beyond the measures in the 2003 Plan. This update includes:

  <bullet> The 10 water conservation measures from the 2003 plan

    <ctr-circle> Conservation pricing

    <ctr-circle> Replace older, inefficient plumbing fixtures

    <ctr-circle> Pre-rinse spray valve retrofit education program

    <ctr-circle> Rain sensor shut-off switches on new irrigation 
            systems

    <ctr-circle> Sub-meters in new multi-family buildings

    <ctr-circle> Assess and reduce water system leakage

    <ctr-circle> Conduct residential water audits

    <ctr-circle> Distribute low-flow retrofit kits to residential users

    <ctr-circle> Conduct commercial water audits

    <ctr-circle> Implement education and public awareness plan

  <bullet> 3 of those 10 water conservation measures are strengthened

    <ctr-circle> Irrigation meter pricing at 200 percent of the first 
            tier rate

    <ctr-circle> 1.28 gpf toilet rebate program only by 2014

    <ctr-circle> Minimum local education requirements and optional 
            toolbox of examples is provided.

  <bullet> 2 new water conservation measures are added

    <ctr-circle> Install 1.28 gpf toilets and low flow urinals in 
            government buildings

    <ctr-circle> Require new car washes to recycle water.

    New measures adopted since 2009: *expedited water loss reduction; 
*multi-family high-efficiency toilet (HET) rebates; *meters with point 
of use leak detection; *private fire lines to be metered; *maintain a 
water conservation program; water waste policy or ordinance; and HET 
plumbing fixtures in new construction consistent with state 
legislation.

Measures denoted (*) are for implementation only by the water systems 
that receive their water supply directly from Lake Lanier or the 
Chattahoochee River.
Apalachicola Bay Salinity
    The work of the University of Florida based Oyster Recovery Task 
Force and the Apalachicola National Estuarine Research Reserve to focus 
on salinity data in the Apalachicola Bay has established a wealth of 
knowledge regarding the productivity of oysters. But in spite of all of 
the collected data and empirical evidence as to what conditions are 
optimum for oyster productivity, there are still many questions. There 
are several bay salinity models that have been developed and run to 
correlate freshwater flow with salinity in the bay. These models 
include other factors such as temperature, wind, and tidal conditions 
that determine the salinity profile in the bay at any given time. Fresh 
water flow is obviously an important factor and might be the only 
factor than can be influenced by man. However, much greater analysis 
must be done to better understand the duration and volume of freshwater 
that is optimum for oysters.
    Oysters have survived for millennia under widely varying hydrologic 
conditions. For time periods before our own data collection began, tree 
ring data shows clear periods of greatly reduced freshwater flow in the 
ACF Basin that predate virtually any anthropogenic influences in the 
basin. Yet oysters have survived during those time periods. At the 
hearing there was considerable discussion about ``man creating the 
problem'' so ``man can solve the problem''. While a useful sound-bite 
to illustrate an emotional point, it misses the point. Today, the 
criterion is not just the survivability of oysters but their 
survivability at a sustained level to produce a specific economic 
result. At the hearing, the majority of the talk by all parties was 
economic related. This is clearly not an environmentally driven issue, 
but is an economy driven issue.
Economic Realities
    All economies suffer during droughts. How the ``pain'' gets 
proportionally shared will always be a challenge to assess. But it 
should be clear that during the periods of drought that we have had 
since 2000 and the projected periods of increasing drought frequencies 
and duration, all water users have to learn to adjust to that reality. 
Some economic plans might not be viable given the projected future.
Past Decisions
    In the name of economic development, several decisions in the past 
now confront Apalachicola Bay with some unintended consequence:

  <bullet> The decision was made to cut a path, known as Sikes Cut, 
        through St. Georges Island so that fishing boats and shrimpers 
        would not have to travel so far to gain access to open waters 
        in the Gulf. This has led to another source of salt water 
        penetration directly into the bay, thereby changing the 
        salinity regime in the bay. Questions exist as to how much 
        influence Sikes Cut has had on bay salinity. That can be 
        determined through appropriate modeling efforts now underway. 
        But oystermen have reported that it does have an effect. If we 
        want to get back to what nature intended as emphasized by the 
        speakers at the hearing, then Sikes Cut should be closed.

  <bullet> There have been artificial oyster beds put into Apalachicola 
        Bay to increase oyster productivity. These are not ``as nature 
        intended''. They are man-made. Should the criterion for bay 
        health and productivity include the oyster harvest gathered 
        from these artificial beds? How much more freshwater flow is 
        required to support these artificial beds?

  <bullet> There is a canal that is effectively an inter-basin transfer 
        from the Apalachicola River system to Port St. Joe, Florida. 
        Originally it was to support the paper mill industry, but now 
        targeted to provide freshwater flow for economic development 
        purposes in Port St. Joe. While a small amount currently, it 
        nonetheless represents a diversion of freshwater from the bay 
        that has to be made up by increased freshwater flows from the 
        Georgia portions of the ACF Basin. The future plans for that 
        diversion is now known.

  <bullet> Outside of the bay, Florida has modified the Apalachicola 
        River significantly so as to allow for a navigation economy 
        that could not be sustained without alterations. The dredging 
        of the river, straightening of the ox-bows, annual dredging of 
        the Chipola Cutoff are some of the alterations that have taken 
        place. According to a USGS report in 2006 by Helen Light, the 
        entrenchment that has occurred in the river has resulted in a 
        50 percent increase in freshwater flow to reach the floodplain 
        alongside the river. While seemingly unrelated to the oyster 
        productivity in the Bay, it nonetheless serves as an example of 
        alterations to the natural systems that have been performed by 
        Florida over the years, to their own detriment; all in the name 
        of economic development.
WRDA Modifications
    Florida and Alabama's effort to insert a ``poison pill'' in the 
Water Resource Development Act in the Senate by reducing the allowable 
water supply allocation by 2/3 was clearly an effort to cripple the 
Atlanta economy. This would have resulted in water withdrawals even 
lower than is currently withdrawn by Atlanta and with no allowance for 
returns. Atlanta's only recourse would have been to invest billions in 
new water storage resources. The theory seems to be that if Atlanta 
can't grow then maybe Alabama and Florida cities can grow. Hardly a 
basis for establishing a desire to work together to solve the water 
conflict. Georgia Senators were derided for using approved Senate 
procedures to block the action that would have impacted not only the 
ACF Basin but any water utility withdrawing water from Federal projects 
for water supply purposes throughout the United States.
Summary
    We hope that the take-away points from this report are clear:

  1.  If metro Atlanta did not exist, Apalachicola Bay would have only 
        a few hundred cubic feet per second flow increase which is 
        insignificant compared to even the 5,000 cfs minimum required 
        flow during droughts and certainly when compared to the nominal 
        annual average flow of 20,000 cfs and more.

  2.  ``Something'' caused a sudden collapse of the oyster population 
        in August-September of 2012. Research is needed to determine 
        what happened in such a short time period.

  3.  Through the ACF Stakeholders organization, Georgia and metro 
        Atlanta governments, companies, organizations and individuals 
        have a clear and unambiguous track record of working to assist 
        Apalachicola Bay. But it cannot do so under the threat of 
        either Congressional or legal action that will cripple the 
        Atlanta economy.

  4.  Our water policy decisions by state and Federal officials at all 
        levels needs to be based on sound technical understandings 
        rather than emotional outpourings.
            Respectfully submitted,

                                          Lake Lanier Association, Inc.
                                 ______
                                 
                               RESOLUTION
                     BOARD OF COUNTY COMMISSIONERS
                            FRANKLIN COUNTY
    WHEREAS, the Franklin County Board of County Commissioners are 
pleased to a host a United States Senate Commerce Committee hearing on 
``The Effects of Water Flows on the Apalachicola Bay: Short and Long 
Term Perspective''; and

    WHEREAS, the hearing will take place in Apalachicola on August 13, 
2013; and

    WHEREAS, the Apalachicola Bay's oyster industry, an industry that 
produces 90 percent of the oysters in Florida and 10 percent of the 
Nation's oysters, is on the verge of collapse because of the lack of 
freshwater coming into the Bay from the River; and

    WHEREAS, on August 5, 2013 the Florida Fish and Wildlife 
Conservation Commission released a report on status of the oyster 
industry that states, ``The cause of the oyster decline is a lack of 
freshwater flow . . .''; and

    WHEREAS, the report also states in its Executive Summary, ``The 
rapid and unprecedented commercial oyster fishery failure on Florida's 
Gulf coast was the result of upstream consumption and water management 
policies in the Apalachicola-Chattahoochee-Flint River Basins''; and

    WHEREAS, there has been over 20 years of litigation between the 
states of Florida, Georgia, and Alabama over water flows in a river 
system that is managed by the U.S. Army Corps of Engineers for which 
the result has been no additional water allocated to protect the oyster 
industry; and

    WHEREAS, the entire economy of Franklin County and the region is 
affected by the productivity of the Bay; and

    WHEREAS, the Franklin County Commission recognizes that the United 
States Congress has the power and authority to direct the U.S. Corps of 
Engineers to include the needs of the oyster industry when water 
allocation decisions are made.

    NOW, THEREFORE, BE IT RESOLVED, that the Franklin County Board of 
County Commissioners hereby declares, in recognition of the Senate 
Committee hearing. on August 13, 2013 that this day be declared as 
``Stand up for the Apalachicola River and Bay Day'' and the Board 
hereby implores the U.S. Senate and Congress to protect the 
Apalachicola Bay and its oyster and seafood industry, and tourism based 
industry, by directing the U.S. Corps of Engineers to restore flows to 
the Apalachicola River, Floodplain, and Bay.''

    Approved this 6th day of August, 2013.
                                            Cheryl Sanders,
                                                          Chairman,
                                              Franklin County Board of 
                                                  County Commissioners.
ATTEST:
Marcia M. Johnson, Clerk
                                 ______
                                 
                             Florida Conservation Coalition

Hon. Bill Nelson,
716 Senate Hart Office Building,
Washington, DC.

Dear Senator Nelson,

    The Florida Conservation Coalition is very appreciative of your 
interest in the challenges facing the Apalachicola River system, and 
taking the time to come to Apalachicola and hear Florida's points of 
view first-hand. The Coalition consists of 55 conservation 
organizations throughout Florida and several thousand individuals 
dedicated to conserving and protecting Florida's natural resources.
    The Apalachicola River and Bay System is more than one of the most 
productive oyster, blue crab, and seafood regions in the Country; it is 
also a way of life and a living for its people. Florida has worked for 
more than four decades to keep the River and Bay healthy and protect 
these treasures. The state and Federal Government have invested tens of 
millions of dollars in acquiring nearly a million acres of land in the 
River floodplain, watershed, and Bay. Tens of millions of dollars have 
been spent to install and upgrade wastewater treatment systems along 
the River and Bay. Florida has rejected proposals to build dams and 
required dredging and de-snagging operations in the River be improved 
or curtailed. Florida has honored the River as a priceless and 
irreplaceable natural asset, the foundation of the economy of several 
counties, and an important part of our culture.
    Too little water has flowed down the River for too long now the 
River and Bay System is approaching the point of no return. We have 
tried to resolve the issue of river flow necessary to sustain a healthy 
river with a tri-state pact and lawsuits. We have done all we know to 
do. Now, we are running out of options.
    The people of the River and Bay area and throughout Florida are 
tired and distressed, as is our precious River and Bay. It serves no 
good purpose to point fingers at the Federal Government or to lay blame 
on Georgia and Alabama. Each entity is doing the best it can within its 
means. Each would like to see the conflict resolved.
    The states and Corps have tried to find a solution, but so far have 
not. In such interstate conflicts, It is appropriate and necessary for 
Congress to step forward and act. That is what we are asking.
    We strongly support your amendment, as it offers a reasonable 
approach to resolving this longstanding conflict and hope for restoring 
and sustaining a healthy Apalachicola River and Bay System.
            Sincerely,
                                                Bob Graham,
                                                          Chairman.
Nathaniel Reed--Vice Chairman

Com. Lee Constantine--Vice Chairman

Charles Pattison--1000 Friends of Florida

Eric Draper--Audubon Florida

Andrew McElwaine--Conservancy of Southwest Florida

Manley Fuller--Florida Wildlife Federation

Deirdre Macnab--League of Women Voters of Florida

Craig Diamond--Sierra Club

Lisa Rinaman--St. Johns Riverkeeper

Gary Kuhl

Roy Rogers

Auley Rowell

Vicki Tschinkel

Sonny Vergara

Estus Whitfield

Respond to: Estus Whitfield, 3444 Lakeshore Dr., Tallahassee, FL 32312
                                 ______
                                 
                                   Tallahassee, FL, August 19, 2013
Hon. Marco Rubio,
Washington, DC.

Dear Senator Nelson:

    I am a fifth generation Tallahassean, and grew up not really 
knowing what a privilege it was to have our beautiful coastline, and to 
be able to spend summers at the beach. It was a privilege we took for 
granted. The water was clean and the seafood plentiful. We fished and 
swam and skied and as far as we knew it had always been like that, and 
it would always be there for us, our children and our grandchildren.
    Recently I drove to Apalach for the day, and when I got to the 
bridge, I could not believe what I was seeing . . . sand bars, grass 
out of the water and boats unable to navigate from the river out into 
the gull It was horrid!
    A few years ago there was an article in the National Geographic 
which pointed out the importance of this areas waters. The Geographic 
stated this was one of the largest ``unspoiled estuaries'' left in the 
country. It went on the point our how important it was for the fishes 
from the Atlantic and Pacific, and how many different species come to 
this bay to spawn. Without this estuary we severely reduce the fish in 
our oceans.
    Our oysters need a perfect mix of salt and fresh, and the 
Apalachicola Bay has provided that for years. It's known as one of the 
best oysters in the world. Go anywhere and compare. They are 
outstanding! Men have harvested oysters in this bay for generations. 
It's a way of life that's been handed down from one generation to the 
next, and though it's a tough job, they want to do it.
    Cities are out of control. They allow the building of homes, 
factories, shopping centers and whatever they want without being able 
to support the needs of those buildings from their own resources. 
That's unacceptable. They cannot and should not be allowed to continue 
to steal the river water. It they can't support their growth, then it's 
time to stop.
    Please fight for the Apalachicola River water. Please do not let 
this bay die!
            Sincerely,
                                             Joe Nell Sager
                                 ______
                                 
                                   Tallahassee, FL, August 18, 2013
To Whom It May Concern:

    As a citizen who believes that stewardship of our natural resources 
is the single most important responsibility of our government, I 
respectfully implore the Congress to enact legislation that will 
balance the needs of ail stakeholders in the watershed of the 
Apalachicola River. As it stands now, the U.S. Army Corps of Engineers 
believes the law compels them to manage the water flow in the current 
manner, which is detrimental to legitimate interest along the 
Apalachicola. Unless Congress acts to change the law, the entire 
ecosystem and the livelihood of many people will be in peril.
            Respectfully,
                                            Robert M. Smith
                                 ______
                                 
                               National Wildlife Federation
                                        Reston, VA, August 14, 2013

Hon. Jay Rockefeller,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
United States Senate,
Washington, DC.

Hon. John Thune,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Marco Rubio,
United States Senate,
Washington, DC.

    Re: Restoring Freshwater Flows to the Apalachicola River and 
Apalachicola Bay

    Dear Chairman Rockefeller, Ranking Member Thune, Senator Nelson and 
Senator Rubio:

    On behalf of our more than four million members and supporters, the 
National Wildlife Federation thanks the Committee for calling attention 
to the dire plight of the Apalachicola River and Bay and calls on 
Congress to take action this year to prevent further destruction of 
Florida's environment and economy. We urge Congress to enact 
legislation requiring the Apalachicola-Chattahoochee-Flint (ACF) river 
system to be managed so that the Apalachicola River and Bay will 
receive the freshwater flows they need to support, restore, and 
reestablish a thriving ecosystem, healthy populations of fish and 
wildlife, and a vibrant resource-based economy.
    The National Wildlife Federation (NWF) is the Nation's largest 
conservation education and advocacy organization. NWF has more than 
four million members and supporters and conservation affiliate 
organizations in forty-eight states and territories. NWF has a long 
history of working to protect the Nation's inland and coastal waters 
and the fish and wildlife that depend on those vital resources.
    For decades, the U.S. Army Corps of Engineers has managed the ACF 
river system in a way that keeps vital freshwater flows from reaching 
the Apalachicola River and Bay. Continuation of this status quo is 
neither sustainable nor acceptable. As Florida's Deputy Secretary of 
the Department of Environmental Protection recently told the Senate 
Environment and Public Works Committee, if we do not restore historic 
flow patterns to the Apalachicola River, ``the ecosystem and, indeed, 
the very way of life for generations of Floridians will be 
devastated.''
    The Apalachicola River is the lifeblood of the extraordinarily 
productive Apalachicola Bay, and the Bay is strongly influenced by the 
amount, timing, and duration of freshwater flowing from the 
Apalachicola River. Lack of freshwater flows have led to the collapse 
of the Bay's rich oyster population, pushing oyster production on 
commercially important reefs to their lowest levels in 20 years with 
many reefs no longer able to support commercial harvesting. This 
collapse has resulted in a devastating loss of income for the region, 
compelling Florida's Governor Scott to seek a Federal declaration of a 
fishery resource disaster to help alleviate the economic hardship. Lack 
of sufficient freshwater flows have endangered the Apalachicola River 
as well, leading to the loss of millions of trees in the river's 
floodplain and harming tourism, recreation, and businesses that rely on 
a healthy Apalachicola River.
    The economic implications are significant. The commercial and 
recreational fishing industries that rely on a healthy Apalachicola 
River and Bay contribute almost $400 million to the regional economy 
and directly support 85 percent of the local population. Sufficient 
freshwater flows are essential for maintaining the salinity regimes 
needed to sustain an economically viable oyster harvest from the 
Apalachicola Bay, and for sustaining many other commercially viable 
fisheries. Sufficient freshwater flows are also critical for 
maintaining the estimated $5 billion in free services provided to 
Floridians by the River and Bay, including clean water, flood 
protection, and fish and wildlife habitat.
    It is clear that Congress must take action if the situation is to 
change. Decades of costly litigation and negotiations among the states 
have not resolved the problem. Repeated calls to the Army Corps to 
account for the needs of Florida when managing the ACF have gone 
unanswered. Instead, the ACF continues to be managed to benefit 
upstream users at the expense of Florida's economy and environment, and 
the ecological health of the Apalachicola River and Bay continues to 
decline.
    Immediate action is needed to change this untenable situation. 
While a number of legislative solutions have been offered, the only 
solution that will change the status quo and solve the crisis facing 
the Apalachicola River and Bay before it is too late is legislation 
developed by Senator Nelson that would require the Corps to manage the 
ACF system to ensure that the Apalachicola River and Bay receive 
sufficient freshwater flows to maintain clean water, thriving 
commercial and recreational fisheries, and a healthy resource-based 
economy.
    The National Wildlife Federation calls on the Committee and 
Congress to ensure that this Freshwater Flows provision is enacted into 
law this Congress, either through inclusion in any final Water 
Resources Development Act that may be signed into law or as part of 
another legislative vehicle. We look forward to working with you on 
this important effort.
            Sincerely,
                                           Larry Schweiger,
                                                 President and CEO.
cc: Members of the Senate Committee on Commerce, Science, and 
Transportation
The Honorable Steve Southerland
                                 ______
                                 
                               Franklin's Promise Coalition
                                  Apalachicola, FL, August 12, 2013
Dear Sirs,

    With great respect we pose these questions. Will anyone ``win'' in 
this battle over resources? Are those parties who are so determined to 
be ``winners'' distracted by the fight and unable to remember the goal? 
Could it be that we need to move beyond ``winning'' and find comfort in 
not losing the things that simply cannot be replaced?
    Franklin County, Florida is the center of a region that has 
balanced economic survival and the protection of natural resources for 
over one hundred years. Recent history is proving that water is quickly 
becoming the most prized resource across this great country. The 
decisions that lie in our lawmakers' hands, your hands, will shape the 
future of the Southeast, the Gulf of Mexico, and most intimately the 
people who earn their livelihood from the Apalachicola Bay and River.
    Franklin's Promise Coalition is the alliance of all sectors of the 
community which work together to improve the quality of life for 
residents in the adversely affected region. The Coalition and it 
partners serve as advocates for the community and it provides a forum 
for collaborating with service providers, churches, institutions, 
government and volunteers for: improving access to quality services and 
eliminating disparities of service; streamlining and preventing the 
duplication/fragmentation of services; identifying unmet needs and 
determining strategies to meet those needs: and educating individuals 
on challenges, resources and opportunities. The Coalition is the front 
line for services which help people and families whose lives are 
negatively impacted by the reduced water flow and collapse of the 
seafood industry.
    This past year. we witnessed the collapse of the seafood industry 
here in Apalachicola Bay. Hundreds of displaced seafood workers and the 
collateral businesses which count on the seafood industry to survive 
continue to struggle in the five county rural region that surrounds the 
Bay. In the last nine months, local and state political leaders, state 
agencies, non-profit organizations, churches and volunteers have 
supported the affected people of the region with job skill development 
initiatives, bay restoration projects, and empowerment programs that 
cushioned the economic blow. But those funding streams have come to an 
end and the region is in dire need of investment. While the battle over 
water makes the headlines, please do not let the impacts of the reduced 
water flows and the complicated socio-economic challenges leave the 
region in deeper economic despair.
    There have been success stories that are lost in the big dispute. 
While one in every four Franklin County residents (and one in every 
three children) live in poverty by Federal standards, our records show 
that almost 60 percent of the regions households are struggling with 
sustainability. But one person--one family at a time, change is taking 
place and over six hundred people have participated in job skill 
development initiatives, restoration projects and micro-business 
development which were products of efforts by the Gulf Coast Workforce 
Board, The Florida Department of Economic Opportunity, Catholic 
Charities of Northwest Florida and many other businesses, churches, 
private donors and community volunteers. At the beginning of the 
collapse, the displaced seafood workers themselves proclaimed they did 
not want a ``Hand-Out'', they needed a ``Hand-Up''. The Coalition and 
our partners took that inspiration, received support from Volunteer 
Florida, and developed ``A-Hand-Up Volunteer Assistance Program''. To 
date 52 displaced seafood workers have volunteered over 1,155 hours to 
help the community as their contribution to solve the problems 
resulting from the oyster collapse, that is a total value of over 
$25,000 of honest volunteer work. A-Hand-Up has assisted 112 households 
and 484 people with utility, housing, medical and food expenses thanks 
to private donors. The Coalition supports engagement and empowerment of 
the affected population and does not support entitlements.
    Almost a year into the crisis, the immediate outlook is bleak. The 
area requires economic investment and emergency job creation to engage 
the displaced workers until the restoration projects can be completed 
and have an effect on the productivity of the seafood industry. We 
respectfully request support for the following projects and are willing 
to be active agents in any initiative which will reduce the impact of 
the bay collapse.

  <bullet> Immediately, steward the approval and funding for a National 
        Emergency Grant (NEG) through the Department of Labor to create 
        jobs for the region and to support job skill development and 
        economic diversification in the workplace.

  <bullet> Encourage the most expeditious approval of funding to 
        respond to the ``Fisheries Failure'' designation through the 
        Magnuson-Stevens Fishery Conservation and Management Act.

  <bullet> Support the Long Term Restoration Proposal soon to be 
        submitted for Franklin, Gulf And Wakulla Counties by the Gulf 
        Coast Workforce Board in partnership with local governments, 
        the University of Florida and multiple community organizations. 
        The adaptive restoration project will determine and implement 
        ``Best practices'' to complete a 5 year restoration plan.

  <bullet> Ensure the Army Corp of Engineers is accountable for 
        measurable progress in the fair and equitable distribution of 
        water resources for the entire ACF river basin.

  <bullet> Recognize and support the ongoing work of the Apalachicola 
        Chattahoochee Flint Stakeholders (ACFs) as they engage a broad 
        range of interests from the entire basin on their active 56 
        member Board of Directors. Assist with implementation and 
        acceptance of the Board's Management Plan and Inflow Stream/
        River Assessment for equitable water distribution that is fair 
        to all stakeholders.

  <bullet> Champion the work of non-profit organizations like our 
        Coalition, and its partners, as well as encourage the private 
        sector to support community based initiatives which keep the 
        affected people involved in the solutions to the issues at 
        hand. The Coalition members pledge to work collaboratively with 
        State and Federal agencies in their work to reduce the negative 
        impacts of the situation on the families in the region.

    We acknowledge the difficulty and the complexity of sharing limited 
resources and the decisions our leaders are asked to make. We request 
one thing, that when it is time to make decisions that have significant 
economic, humanitarian and environmental impact, remove special 
interests and divisive political influence.
            Respectfully submitted this 12th day of August, 2013.
                                                Joe Taylor,
                                                Executive Director,
                                          Franklin's Promise Coalition.
                                 ______
                                 
         FCSWA--Franklin County Seafood Workers Association
                                     Eastpoint, FL, August 12. 2013

Dear Sirs,

    As the representatives for over 600 seafood workers who make their 
living off of Apalachicola Bay, we request your steadfast support for 
projects which will restore the Bay and employ the displaced seafood 
harvesters. This last ``Shelling'' project was very successful, 
although it was a small percentage of what needs to be accomplished. 
The format of the program required participants to earn 80 percent of 
their income directly from the Bay. It allowed families to sustain 
their livelihoods for the last 6 months. We would like this type of 
program to continue.
    Sadly, this funding has been exhausted and there is a substantial 
amount of work that is needed for the Bay to recover. Also it is a 
horrible economic situation, we must replace the income that is lost 
because of the oyster crisis. The seafood workers want to be employed 
on bay restoration projects and are ready to work hard to ensure the 
Bay recovers.
    Please support and expedite the National Emergency Grant that will 
soon be submitted by the Gulf Coast Workforce Board to create jobs and 
restore our Bay. On September 1st we will return to our winter bars and 
they are depleted. There will be nothing for our seafood workers to 
earn money. There are few, if any, other jobs that will fill this huge 
financial gap.
    We cannot place enough importance on this issue. If you should need 
additional information you may contact me, FCSWA President, Shannon 
Hartsfield.
            Sincerely,
                                        Shannon Hartsfield,
                                        President, FCSWA President.
                                 ______
                                 
                                           ACF Stakeholders
                        Working together to share a common resource

    For those living in the verdant Southeastern US, water once seemed 
ever-abundant--until significant population growth over the past three 
decades combined with an extended drought has brought the region to 
crisis water levels. Recent drought brought water issues in the 
Southeast into the national spotlight. However, the regional debate 
over water sharing began many years earlier in 1989, when the U.S. Army 
Corps of Engineers was sued for allowing Lake Lanier to supply water to 
Atlanta area municipalities. The suit claimed that the withdrawals were 
made without regard to downstream interests, and that the federally-
managed reservoir was built for the purposes of flood control, 
hydropower and navigation--not water supply. For over 20 years, the 
Apalachicola-Chattahoochee-Flint (ACF) River Basin case has been tied 
up in the courts, with little headway.
    Seeing the need for a water sharing solution, a diverse group of 
people in the ACF Basin was inspired by the question, How can the 
people who live, work and utilize the water resources of the 
Apalachicola-Chattahoochee-Flint Basin work together to share a common 
resource? Stakeholder forums held throughout the basin confirmed a very 
real desire to collaborate. With litigation and politics unable to 
resolve the issues, a grassroots effort was launched by individuals and 
groups most affected by the situation--the stakeholders themselves. In 
March 2009, volunteers representing all four regions of the ACF Basin 
became the founding Steering Committee of ACF Stakeholders, Inc. 
(ACFS). Today, the 56 member ACFS Governing Board, work groups and sub-
basin caucuses are engaged in a collaborative effort to produce a 
Sustainable Water Management Plan. ACFS has raised over $1.3 million in 
private funds, engaged technical consultants for analyses of current 
water demands and returns, instream flows, current conditions modeling, 
an assessment of Apalachicola Bay and evaluation of water management 
alternatives; and its members have submitted consensus comments during 
the scoping process for USACE revisions to the Water Control Manual for 
the basin. The Stakeholders have already achieved consensus acceptance 
of key background materials with the goal of developing a draft Plan by 
early 2014.
    From the beginning, the charter members knew that the organization 
had to include representation from all interest groups if it was to 
realize the potential for real compromise. Incorporated as a 501(c)3 
nonprofit organization in September 2009, ACFS is a diverse group of 
cities, counties, industries, businesses, fishermen, farmers, 
historidcultural, environmental, conservation and recreation groups 
from all three states--working together for the first time to achieve a 
common goal. Their mission is to achieve equitable water-sharing 
solutions among stakeholders that balance economic, ecological, and 
social values, while ensuring sustainability for current and future 
generations.
                                 ______
                                 
                         CITY OF APALACHICOLA 
                           RESOLUTION 2013-08
          A RESOLUTION BY THE CITY OF APALACHICOLA DECLARING 
    AUGUST 13, 2013, AS ``SAVE THE APALACHICOLA RIVER AND BAY DAY''
    WHEREAS, the Mayor and City Commissioners of the Historic City of 
Apalachicola have constantly exhibited their effort on behalf of the 
people of Apalachicola and the surrounding areas to preserve and defend 
the freshwater flow down the Apalachicola, Chattahoochee and Flint 
River system to Apalachicola and Apalachicola Bay by every possible 
measure including the filing and prosecution of ``Water Wars'' 
litigation along with the State of Florida against the U.S. Army Corps 
of Engineers and takers of the freshwater flow upstream that deprive 
Apalachicola Bay and Apalachicola of its God created and given life 
source and have reduced it to its present critical condition; and,

    WHEREAS, the Mayor and City Commissioners of the City of 
Apalachicola are committed to continue this effort by every possible 
method and measure and to STAND UP FOR THE APALACHICOLA as our people 
have done and had to do for centuries and make note that there are 
Apalachicola citizens still alive today who personally heard and relied 
upon the promises of the Corps of Engineers that the reservoir and dam 
system to be created upstream with Federal monies through Acts of 
Congress on the ACF River System were solely for flood control, 
navigation and water power generation none of which would eliminate or 
reduce freshwater flow down the Apalachicola to Apalachicola Bay and 
recall the statement of Mayor Hartsfield of Atlanta as Georgia refused 
to contribute money to the project as they did not need nor wanted 
water storage behind the dam, that ``Atlanta is not so situated as a 
number of the Cities out West in our Country, where there is a dearth 
of water, as we are blessed with so many sources right here in 
Georgia'', and Atlanta had ``Plenty of Water''; and,

    WHEREAS, as Congress created and Federal monies paid for the dam 
and reservoirs on the ACF System and provided language that was 
intended to restrict the removal of freshwater from the reservoirs' 
water storage for purposes not specified by Congress in the Acts and 
the Acts of Congress and their restrictions have been repeatedly 
violated by the U.S. Army Corps of Engineers for the benefit of the 
Atlanta Area and to the detriment and impending death of the 
Apalachicola River and Bay Estuary; and,

    WHEREAS, United States Senators from Florida Honorable Marco Rubio 
and Honorable Bill Nelson will hold a congressional field hearing to 
examine the lack of freshwater flow down to Apalachicola Bay as a 
result of the actions of the Army Corps of Engineers and the Atlanta 
area interests before the U.S. Congressional Committee on Commerce, 
Science and Transportation in Apalachicola, Florida on Tuesday, August 
13, 2013 and we recognize Senator Rubio and Senator Nelson as one of 
our own warriors in this struggle to continue the existence of 
Apalachicola Bay and the intent of Congress not to allow the use and 
depletion of water storage on the ACF System for purposes and to the 
extent not allowed, not provided for, not paid for and not even wanted, 
that in the amounts presently being taken destroy the River System, 
Apalachicola River and Bay and the City of Apalachicola and make it 
appear that ``Might makes Right'' when it comes to the ACF River 
System;

    NOW THEREFORE, BE IT RESOLVED, by the people of the City of 
Apalachicola through the Mayor and City Commissioners that we do and 
will forever continue to STAND UP FOR THE APALACHICOLA; we welcome 
Senator Marco Rubio and Senator Bill Nelson as our champions and 
welcome the Congressional Committee on Commerce, Science and 
Transportation to the City of Apalachicola, and we respectfully request 
your assistance to take action to enforce the intent of and promises 
made as a part of the enactment of Acts of Congress that created the 
reservoirs and dams on the ACF River System not deprive the 
Apalachicola River and Bay of the life serving freshwater supply that 
flows down its arteries into one of the world's most amazing and 
productive estuaries named Apalachicola Bay.

    ADOPTED, this 6th day of August, 2013 by the City Commission of the 
City of Apalachicola, Florida by unanimous vote.

                            FOR THE CITY COMMISSION OF THE 
                              CITY OF APALACHICOLA, FLORIDA

                                         Van W. Johns, Sr.,
                                                             Mayor.
ATTEST:
Lee H. Mathes, City Clerk
                                 ______
                                 
                                University of Florida--IFAS
                 North Florida Research and Research Center
                                        Quincy, FL, August 28, 2013
MEMO:

TO: Senator Bill Nelson
Senator Marco Rubio
Representative Steve Southerland

FROM: Nicholas Comerford, Director, UF/IFAS NFREC

              RE: Input following the Apalachicola Hearings

    After listening to the hearings held in Apalachicola, Florida on 
flow issues in the Apalachicola River watershed, I wanted to alert you 
that the University of Florida, Institute of Food and Agricultural 
Science, North Florida Research and Education Center (UF/IFAS NFREC) 
has been actively working on agricultural practices and technologies 
that would substantially reduce irrigation needs while maintaining the 
economic viability of farms. Sod-based rotation, a cropping system 
developed by NFREC, has the potential to reduce water use by over 50 
percent. We are also collaborating with the University of Georgia on a 
proposal to the National Science Foundation on implementing irrigation 
water saving practices in the Flint basin and on using existing surface 
and groundwater models to understand the implications of such savings 
on the entire Apalachicola-Chattahoochee-Flint watershed. If you wish 
to get more detailed information on our efforts please contact James 
Marois (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="157f7874677a7c66556073793b707160">[email&#160;protected]</a>) or David Wright (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="daada8b3bdb2ae9aafbcb6f4bfbeaf">[email&#160;protected]</a>).

The Foundation for The Gator Nation
An Equal Opportunity Institution
                                 ______
                                 
                                                    August 23, 2013
To Whom It May Concern:

    I write today to urge you to include the Freshwater Flows Language 
in the Water Resources Development Act. Your action will help save our 
precious Apalachicola River, Floodplain, and Bay.
    I discovered this unique and important area of Florida over twenty 
five years ago. It was love at first sight! I returned many times over 
the years to visit, explore, and educate myself about the area. I am 
now privileged to live here in Apalachicola and am heartbroken at the 
current condition of our Bay.
    I lived the first fifty-plus years of my life in Georgia and was 
blessed with a father who instilled in me a strong love and respect for 
our natural world. As I like to say, he taught me about conservation 
before conservation was cool! My adult years were spent in several 
locations in north Georgia, including the area around Lake Lanier.
    I tell you this to say that I've lived and heard Georgia's side of 
the so-called Water Wars while also living and hearing Florida's side 
of this continuing struggle to maintain adequate freshwater flows for 
the Apalachicola River.
    The recent Senate Committee Field Hearing held here in Apalachicola 
provided you with the results of numerous scientific studies and data 
regarding the economic impact of this bay on our region, state, and 
nation. I see no need to repeat these statistics to you in this letter.
    What I DO feel a need to do is ask for your help! We are depending 
on Congress to do the right thing and the right thing here is to 
include the Freshwater Flows provision in the Water Resources 
Development Act.
    Decades of litigation and negation between Florida, Georgia, and 
Alabama have yielded no results to insure that the Bay receives the 
freshwater flow needed to maintain its productivity. In short, our 
upstream neighbors are continuing to benefit at our expense. Their 
increased water consumption equals less freshwater for the Bay. 
Atlanta's unbridled growth and lack of attention to serious water 
conservation practices combined with current agricultural irrigation 
practices have resulted in flow patterns that are killing our bay.
    I am sitting on my front porch as I write this letter and a 
neighbor just stopped by. He comes from a long line of shrimpers and 
commercial fishermen. Now in his eighties, Mr. Louie still takes his 
small boat up the river to fish on a regular basis. When I told him 
what I was typing on the computer, he asked that I tell you that I'm 
writing this letter for him and countless others who made and continue 
to make their living on the water. Mr. Louie, too, hopes that you will 
do the right thing and SAVE OUR BAY!
            Sincerely,
                                              Susan Macken,
                                                      Apalachicola, FL.
                                 ______
                                 
                                                    August 23, 2013
To: Members of Congress

Subject: Health of the Apalachicola River Basin and Bay

    As a concerned citizen, I ask you, the members of Congress, to 
listen to the voice of reason concerning the health of the Apalachicola 
River and Bay. If a flow of freshwater is not maintained in the 
Apalachicola the river and bay, it will be irreparably damaged. Once 
man has created the damage it cannot be repaired.
    A loss of the natural resource would be devastating not only to 
those in south Florida but to the rest of the Nation. Apalachicola Bay 
and the associated estuary is the fishery supplying a large portion of 
the Gulf of Mexico with bait fish for larger species as well as 
desirable food fish that are found throughout the Gulf region. The 
impact of insufficient freshwater has already been documented as to the 
effect on the oyster population and industry.
    I ask that politics be put aside in this issue and ensure adequate 
sustained freshwater is supplied to the Apalachicola. It is the right 
and logical thing to do in maintaining this unique resource.
            Thank you,
                                               David Rheel,
                                                        Carrabelle, FL.
                                 ______
                                 
                                   Tallahassee, FL, August 22, 2013
Representative Steve Southerland,
Florida Congressional District 2,
Tallahassee, FL.

Dear Representative Southerland:

    I am a native of Apalachicola, having been born there in 1915 and 
having lived there much of my life. I have written, spoken and painted 
about the life and culture of this little coastal town surrounded by 
the richness of nature.
    I am deeply concerned for the survival and protection of the 
Apalachicola River and its environment. Please push to preserve this 
unique living treasure of great natural beauty and biological 
diversity. We need this river, not only to keep our communities alive 
and thriving today, but also as the heritage for future generations.
    In the past few years, we have faced terrible onslaughts to our 
waterways from the BP oil spill and related pollution in the Gulf. 
Droughts, pollution and overfishing have also already taken a great 
toll on the resilience of the ecosystem. We cannot sit and watch as the 
life is drained out of this vital natural resource!
    The Water Resources Development Act must contain the Freshwater 
Flows language that will require the U.S. Army Corps of Engineers to 
provide the flows necessary for the health and productivity of the 
Apalachicola River and Bay.
    Thank you for your time and consideration of my request. I would 
like to know your thoughts and plan for action in this crisis.
            Sincerely,
                                  Vivian Marshall Sherlock.
                                 ______
                                 
                                                     20 August 2013
Ladies and Gentlemen,

    I really appreciate the impossible situation that politicians face 
every day. The LOVE of money is absolutely, the root of all evil on 
this small blue sphere we all call home. The exchange of goods and 
services amongst ourselves, as Americans, is the largest part of what 
we understand to be our ``Economy''. The word makes sense to most of us 
as economy of effort as we ALL labour to balance our checkbooks while 
bringing about a better world for our children and their children. 
Since we all have different ways of doing that, we task our government 
to regulate the equity and prove their commitment to reassure the 
people that no one will be left out of the solutions. Like I said . . . 
politicians face impossible jobs.
    The world seems out of balance sometimes as we must adjust our 
thinking to understand that the corporations that profit from our oil-
based power infrastructure are forced by everyone on planet earth to 
make a deal with the devil in trading our necessity of life, ``water'', 
for oil and natural gas.
    One we need, the other we just want.
            Yours truly,
                                            Linda M. Epler,
                                                      B.S. Biology.
                                                     Crawfordville, FL.
                                 ______
                                 
                                 Mathews-Webster Consulting
                                   Tallahassee, FL, August 14, 2013
Mr. Jeffrey Lewis,
Counsel,
United States Senate Committee on Commerce, Science, and 
            Transportation,
Washington, DC.

Dear Mr Lewis:

    Thank you for your interest in these comments on the oyster 
disaster declared August 12 for the Florida Gulf Coast fishery. As you 
may recall, we discussed the importance of Wakulla County, which 
neighbors Franklin County and Apalachicola Bay, to Florida's oyster 
industry. These comments stress the critical importance of Wakulla 
oystering to restoration and sustainability.
    These comments are submitted on behalf of Panacea Waterfronts 
Florida Partnership and CSA Ocean Sciences, as well as many individuals 
and families employed in the oyster fishery.
    Panacea Waterfronts is a not-for-profit civic organization based in 
the small Gulf front community of Panacea, with a long history of 
involvement in the oyster industry.
    CSA Ocean Sciences is a Stuart, FL-based environmental consulting 
firm that is partnering with Panacea Waterfronts on projects to help 
restore Wakulla's severely depleted oyster industry. My firm, MW 
Consulting, represents both Panacea Waterfronts and CSA. A copy of an 
oyster restoration proposal submitted for National Fish & Wildlife 
Foundation and RESTORE Federal Council funding is attached as an 
appendix to this document and provides important information on key 
subjects addressed in these comments.
Overview
    Properly deployed, oyster transfers, backed by a sound science 
component, can help restore the region's oyster reefs, create an 
ongoing sustainable harvest, and put underemployed and unemployed 
oystermen and women back to productive work. Wakulla County is ideally 
situated for oyster transfers. The cost of a three-year program is 
approximately $2 million, including substantial scientific monitoring.
Importance of Wakulla Oystering
    Wakulla County is the second-largest producer of oysters in 
Florida, after Franklin County. As county oyster production is measured 
where the oysters are landed--brought ashore--and most Wakulla oysters 
are landed in Franklin County, the actual production for Wakulla is 
certainly higher than landings would indicate.
    Throughout the year, oystermen and women routinely move between 
Wakulla and Franklin county waters. The two areas are closely linked.
    Over the past several years as Franklin County suffered from the 
loss of freshwater flow, this linkage severely impacted Wakulla County, 
as oystermen and women harvested Wakulla waters more intensely. Coupled 
with the ``Great Recession''--which led many out-of-work people to take 
up oystering--Wakulla oyster reefs are currently severely depleted, 
some say by as much as 75 percent.
    During the hearing, speakers talked of the significant decline in 
the number of oyster boats working in Franklin County. The same is true 
in Wakulla, where many local oyster families--some third and fourth 
generation--are facing foreclosure due to declines in income. Without 
doubt, oystering is a greater portion of Franklin's livelihood than 
Wakulla's. But, as Wakulla has three times the population of Franklin, 
a smaller portion still means the number of people in harm's way in 
Wakulla County is very high--and tragic.
    However, the most severe problem facing Wakulla is the lack of 
resource management. While Franklin County is extensively researched 
and monitored, authorities know next to nothing about Wakulla oysters. 
For example, there is little data on the size, quality, and 
productivity of oyster reefs. There are no ongoing restoration projects 
(the last restoration project, a small annual oyster transfer program, 
ended earlier this month). And, there is very little enforcement; 
poaching from prohibited and conditionally closed areas is believed to 
occur at an alarming level.
Wakulla Opportunity
    Fresh water flow has long been identified as the most significant 
problem facing Apalachicola Bay. Wakulla County's freshwater flow is 
from a separate watershed that originates in South Georgia (well below 
thirsty Atlanta). Wakulla also has numerous freshwater springs and sea 
wells as well as rivers. Water purity, not flow, is the greater concern 
in Wakulla.
    In order to ensure health and safety, large portions of Wakulla 
oyster areas are either harvest prohibited or conditionally closed (see 
maps in Appendix A).
    Oysters from conditionally closed areas can be transferred--also 
called ``relaying''--to conditionally open waters. In about two weeks, 
oysters transferred into clean water will self-clean--and become safe 
to eat.
    Last week (August 5, 2013), the final NOAA-funded Wakulla oyster 
relay took place. Supervisors from Florida's Department of Agriculture 
and Consumer Services, Division of Aquaculture, reported ``tens of 
thousands of bushels'' of legal-sized oysters in conditionally closed 
waters that could be transferred to open water (see brief report, 
Appendix B).
    Once transferred, oysters can be harvested for sale within a matter 
of weeks. Transfers also help expand existing oyster beds, and can help 
build new reefs. Key to the success of a transfer is a sound foundation 
of extensive scientific evaluation and monitoring of the resource that 
will translate into effective management and enforcement.
    Transfer is not often used in Franklin, where sizable conditionally 
closed areas do not exist. Franklin heavily relies on shelling, which 
is an effective strategy to rebuild reefs and create new beds, but 
oysters take 18 months or more to grow to harvestable size.
Cost: Benefits
    Appendix A details a cost of approximately $2 million to conduct 
three years of science monitoring and oyster transfers in Wakulla 
County. Economic estimates show that Wakulla County oyster revenue 
could increase by 1/3 with a transfer program in place. In addition to 
mitigating harm to the depleted resource, the transfer project has the 
potential to establish ongoing sustainable oyster harvests, where the 
need for additional government financial assistance is reduced or even 
eliminated.
    Shelling and relays are both viable strategies that should be 
vigorously deployed. As numerous speakers stated during the 
Apalachicola hearing, shelling there is inextricably linked to water 
flow issues. Transfers in Wakulla County will not be negatively 
impacted by water flow issues. Thus, while shelling is an important 
long-term strategy, transfers in areas like Wakulla County can provide 
short-term stimulus and long term benefits. Moreover, a strong Wakulla 
transfer program provides relief to the resource as Franklin's industry 
rebuilds.
    Thank you again for the opportunity to submit these comments. 
Please let me know if we can provide further information.
            Sincerely,
                                            Steven Webster,
                                                         President,
                                            Mathews-Webster Consulting.
                                 ______
                                 
  APPENDIX A: Panacea Waterfronts oyster restoration project proposal
Areas in grey (below) are section language from the DEP on-line 
submission form

Project Name:

COMPREHENSIVE REHABILITATION OF WAKULLA OYSTER REEF ENVIRONMENTS: 
BUILDING SUSTAINABLE FISHERIES, CREATING JOBS AND PRESERVING OUR 
COASTAL HERITAGE

    We propose to restore and rehabilitate Gulf of Mexico oyster reefs 
in the Ochlockonee and Wakulla Rivers watersheds, harmed in part by 
response to the Macondo (Deepwater Horizon) spill, to reach a 200 bag 
per acre, per year production rate within five years. Increased 
production in this area will benefit complementing restoration efforts 
in the adjacent Apalachicola watershed, helping to remedy harm to 
natural resources (habitats, species) where there has been injury to, 
or destruction of, loss of, or loss of use of those resources resulting 
from the oil spill, as well as other factors. Oysters in these 
watersheds are severely depleted and suffering from the absence of 
science-based resource management plans. According to the Florida 
Department of Consumer Services Division of Aquaculture, data analyses 
and observations on the major reef complexes in the area show 
substantial losses of oyster populations, with severe declines in 
oyster densities, standing stocks and production estimates since 2010 
(see Oyster Resource Assessment Report, August 2012).
    This project will mitigate harm by providing environmental and 
economic benefit for the coastal community through replenishment of 
wild oyster beds and creation of new reefs. We project an estimated 
annual return of $1 million (1/3 greater than current landings) by 
sustainably harvesting oysters under our science-based best management 
practices.

Contact Information (Include at least one name, phone number, e-mail 
address, and organization name if applicable):

    Panacea Waterfronts Florida Partnership
    Dickson, Walt
    P.O. Box 212
    Panacea, Florida 32346

    Panacea Waterfronts Florida Partnership
    Ronald Fred Crum
    1321 Coastal Highway
    Panacea, Florida 32346

    CSA Ocean Sciences Inc.
    Fonseca, Mark
    8502 SW Kansas Avenue
    Stuart, Florida 34997
    (772) 219-3000

    MW Consulting
    Webster, Steven
    122 S Calhoun Street
    Tallahassee, Florida 32301
    (850) 391-7674

Project Location (Include a map, if possible, and the city, county, 
longitude/latitude, and watershed):

    See Figures 1 and 2.
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Figure 1. Wakulla County and Apalachee Bay; close up showing the 
extensive, anastomosing oyster bars.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Figure 2. Maps show classified oyster waters off Wakulla County. 
Areas that are conditionally restricted and potentially those 
prohibited areas (orange diamonds and red stripes) provide 
opportunities during the closed summer season to transfer oysters to 
viable habitats for reef rehabilitation and, ultimately, harvest and an 
improved fishery.

Project Description (Describe all aspects of the project):

    Here we propose to utilize National Fish and Wildlife Foundation 
(NFWF) funds to fuse existing knowledge and planning recommendations as 
well as new approaches and partnerships to create a science-based 
oyster transfer and habitat enhancement program. This program mitigates 
harm to the northern Gulf of Mexico oyster resource fueled in part by 
response to the Macondo spill, by restoring and enhancing degraded 
existing oyster reefs and the creation of new oyster reefs in Wakulla 
County.
    Wakulla County is the second-largest oyster-producing county in 
Florida, after neighboring Franklin County, and oystermen and women in 
Wakulla and Franklin typically harvest oysters from both counties 
(pers. corn., Ronald Fred Crum, 2013).
    Figures from 2012 Florida Fish & Wildlife Conservation Commission 
trip ticket tallies show just fewer than 10,000 bushels harvested in 
Wakulla. That number is significantly under reported, as many oysters 
harvested in Wakulla are landed in Franklin (Apalachicola) and counted 
toward that County's total. Recreational oystering and, of course, 
poaching, remove an unknown portion of the local resource.
    Oystering in Florida, as well as other Gulf Coast states, was 
significantly harmed by the Macondo spill. As the Sarasota Herald-
Tribune reported in August 7, 2010, ``In the weeks after the Gulf oil 
spill, when things looked bleak . . . people harvested everything they 
could.''
    The intense pressure on area oysters, compounded by the complete 
closure of Louisiana oyster beds, led to what the University of Florida 
concluded is an ``historic collapse'' of oystering in 2012 (see 
Apalachicola Bay Oyster Situation Report, April 24, 2013).
    The Transocean and BP criminal settlement agreements state:

        NFWF shall use the money it receives from the defendant 
        pursuant to this Order for the following purposes and subject 
        to the following conditions:

        a. To remedy harm and eliminate or reduce the risk of future 
        harm to Gulf Coast natural resources, NFWF shall use 
        approximately half of the payments to conduct or fund projects 
        to remedy harm to resources where there has been injury to, or 
        destruction of, loss of, or loss of use of those resources 
        resulting from the Macondo oil spill.

    By conducting a systematic survey of County waters, we will provide 
a scientifically valid inventory and assessment of degraded habitats 
and selection of recipient habitats for enhancement and the potential 
for construction of new oyster reefs. This inventory will include not 
only georeferenced bathymetry and bottom composition, but status of the 
oyster reef (e.g., size classes and abundance). Such an inventory is 
badly needed; FFWRI does not have any monitoring in place (S.Geiger, 
pers corn.) and the currently mapped oyster habitat (Figure 3) does not 
describe readily visible habitat well (Figure 1).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. Current delineation of producing oyster beds in Wakulla 
County (black polygons); note the discrepancy of this map with the 
observable oyster reefs in Figure 1 (inset rectangle = approximate view 
of Figure 1). Taken from VanderKooy (2012).

    We will integrate our inventory and site selection process with a 
transfer program, including coordination with the State program, to 
increase the effectiveness of oyster harvest in a sustainable manner 
and the possibility of new sites for reef creation. Moreover, our 
inventory will include the performance of these areas before, during, 
and after the oyster transfer and any reef creation process. Most 
important is that this project is designed to use the local, working 
watermen and women as partners not only in the selection of sites, 
transfer, and construction of any new oyster reefs, but also in the 
execution and management of the transfer effort. This creates jobs and 
buy-in to the science-guided framework of best management practices.
    There is a demonstrated need for a science-based, County-wide 
inventory and best management practice guidance at the scale of the 
individual water bodies in the Bay. Oyster harvest has increased in 
Wakulla County since 2005, but there are indications of a declining 
fishery with pounds landed reaching an asymptote as a function of trips 
with catch per unit effort declining in recent years (Figures 4 and 5)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. Wakulla County pounds of oysters landed vs. trips.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Figure 5. Wakulla County catch unit effort (pounds of oysters per 
trip) over time; note dramatic decline in last 4 years.

    Stressors governing the abundance and health of the oyster resource 
include habitat destruction (e.g., sedimentation), physical disruption 
(e.g., dredging), alteration of hydrologic regimes (e.g., freshwater 
diversion, impoundment, and channelization), pollution burdens, 
disease, predation (especially from the oyster drill, Stramonita 
haemastoma), and harm from overharvesting. Combined, these stressors 
have resulted in long-term population losses (VanderKooy, 2012). As a 
result, a combination of transfer efforts, habitat restoration, and, 
most importantly, a science-based approach to guiding harvest decisions 
supported by accurate geographic information regarding the resource are 
all needed to sustain the fishery and its associated economy.
    Oyster relay or transfer projects will be one element utilized to 
support the Wakulla Oyster Fisherman and Women (WOFMW) and enhance the 
wild oyster resources. A sustainable portion of oysters located within 
beds in areas closed to harvest due to water quality impacts will be 
relocated by WOFMW. By transferring oysters from conditionally closed 
to open areas, existing wild beds can be replenished. One of the early 
tasks to be completed will be to assess the number and size of viable 
oyster reef habitats within closed areas and estimate the amount and 
size \1\ of oysters (pounds or bushels) available for transfer. The 
second assessment should involve determining the extent of available 
wild habitat that exists in the open oyster areas. The study team will 
additionally determine if the proposed size and methodologies of 
transfer and harvest needed will fully replenish (and make sustainable) 
Wakulla beds without further major transfers. With this information 
compiled and with direction from the WOFMW, the study team would 
determine the most advantageous transfer process and methodology to 
maximize investment returns (oysters harvested) on the NFWF Act 
funding. When oyster resources are assessed and managed properly, an 
effective and well-managed transfer program should significantly 
increase the number of open beds available to Wakulla fisherman.
---------------------------------------------------------------------------
    \1\ Relay contracts issued by the Florida Division of Aquaculture 
allow oysters of ``any size'' to be transferred. The protocols for this 
project will focus on larger oysters--2.75'' or greater--using tonging 
retrieval methods. It is projected that a higher number of transferred 
oysters will be harvestable in the near-term.
---------------------------------------------------------------------------
    Thus, the goal of this proposal is to mitigate harm to the resource 
by creating an up-to-date inventory of oyster habitat and its 
biological status to guide a sustainable transfer and wild harvest 
program. Moreover, NFWF presents a once-in-a-lifetime opportunity to 
revive a struggling environment, resource, and industry. Improving and 
expanding oyster reefs in Wakulla County will contribute to NFWF's 
objective to eliminate or reduce the risk of future harm to the 
resource in Florida and across the Northern Gulf of Mexico. This 
project will enhance community resilience in a small county that 
otherwise cannot marshal the resources to achieve these goals. By 
developing localized, geographically accurate, and science-based best 
management practices, we can ensure that the wild oyster beds are not 
over harvested, providing many WOFMW generations with viable fisheries 
that preserves an important aspect of the community's culture.
    Effective management of oyster resources and measuring the 
mitigation of harm requires an understanding of how many oysters occur 
within each defined management unit, the locations of those resources, 
and recruitment and mortality rates within each unit. Considering the 
fundamental importance of effectively modeling population status and 
suitability for harvest, there remains a surprising dearth of 
information regarding the stock status of oysters in the Gulf of Mexico 
(VanderKooy, 2012). This proposal would directly address this 
shortcoming and additionally provide a basis for subsequent application 
of production models that are currently under development by the Gulf 
State Marine Fishery Commission. These models hold the promise to 
accurately forecast oyster resources in response to stressors that 
influence life history stages of Wakulla oysters, providing an 
objective means to guide harvest and management strategies. For 
example, the Constant Abundance Surplus Production (CASP) model 
requires a data time series of population abundance, annual recruitment 
(i.e., spat set), stage-specific mortality rates, fishery harvest, and 
the impact of fishing on both cultch abundance and the mortality of 
pre-recruit life stages. The data requirements of this model and the 
Sustainable Oyster Shell stock (SOS) model are relatively low for an 
assessment model.
                            Project Summary
Background

  <bullet> Oyster reefs in Wakulla County are severely depleted, harmed 
        particularly by over-harvesting in response to the Macondo 
        spill.

  <bullet> Bushels collected per trip have decreased, resulting in 
        economic hardship to the local community.

  <bullet> Rehabilitation of existing reefs and the creation of new 
        reef habitat is desired to mitigate harm.

  <bullet> Effective oyster reef management and restoration rests on 
        having accurate geographic information regarding the 
        distribution and status of existing reefs as well as potential 
        new reef sites; success also will be aided by marking, 
        monitoring, and reasonable enforcement.

  <bullet> Oyster transfer provides near-term economic benefits.

  <bullet> Oyster transfer activities need optimization to contribute 
        to a sustainable harvest that includes naturally occurring, 
        non-transferred oysters.

  <bullet> Oyster transfer can be of value to and work in tandem with 
        other recovery strategies, such as hatchery-enhanced 
        recruitment or engineering-improved circulation patterns (these 
        are not proposed here, but could integrate well with other 
        projects such as A vision for sustainable farming of oysters 
        along Florida's Forgotten Coast [Rudloe et al., year]).
Objectives

  <bullet> Develop a geographically accurate and up-to-date inventory 
        of oyster reefs and associated habitats; use these data to 
        guide management actions (e.g., rehabilitation methods and 
        priorities, site selection for both rehabilitated and new reef 
        creation).

  <bullet> Rehabilitate existing oyster reefs and create new reefs to 
        reach a sustainable 200 bag acre <SUP>-1</SUP> year 
        <SUP>-1</SUP> production rate within 5 years.

  <bullet> Provide local employment through the transfer and the 
        subsequent harvesting and management of replenished wild oyster 
        beds and new reefs.
Approach

  <bullet> Compile all available geographic data layers and assemble 
        Geographic Information System (GIS) datasets with accumulative 
        layers depicting and representing the resources that are 
        positively and negatively impacted by the proposed oyster 
        transfer project and mosaic seagrass and oyster reef marine 
        environments.

  <bullet> Perform remote-sensed and ground-truthed survey of oyster 
        reefs and their status (oyster size classes and abundance) in 
        Wakulla County, stratified by closed, prohibited and open areas 
        in the following areas:

    <ctr-circle> Ochlockonee Bay,

    <ctr-circle> Zone 2 (near shore central Wakulla),

    <ctr-circle> Zone 3 (off shore central Wakulla), and

    <ctr-circle> Apalachee Bay (in front of St Marks).

  <bullet> Develop oyster reef rehabilitation, transfer, and creation 
        site selection criteria.

  <bullet> Promulgate reef mitigation and creation protocols.

  <bullet> Using the GIS database, refine the prioritized list of 
        rehabilitation sites and creation sites.

  <bullet> Refine definition of transfer donor and recipient sites.

  <bullet> Define locations for new reef creation and enhancement 
        (water flow modification).

  <bullet> Integrate submerged aquatic vegetation in reef design to 
        control erosion, enhance ecosystem services, mitigate water 
        quality, and provide acid buffering.

  <bullet> Coordinate and implement methods to enhance and facilitate 
        oyster reef remediation and creation:

    <ctr-circle> Transfer Process--Controlled harvest and deployment,

    <ctr-circle> Circulation Modifications--Changes in water quality 
            (temperature, salinity, water clarity), and

    <ctr-circle> Recruitment Enhancement Areas--Assess contribution of 
            natural vs. hatchery-provided recruitment.

  <bullet> Quantify the effectiveness of the rehabilitation, creation, 
        and transfer efforts through scientifically defensible 
        monitoring studies.

  <bullet> Work with all stakeholders, including especially commercial 
        harvesters, to develop best management practice rules.
Outcomes

  <bullet> Mitigating harm by creating a sustainable oyster harvest 
        fishery increasing annual landing revenue from approximately 
        $2.8 million/year (FWC landing report) to $3.8 million/year or 
        greater.\2\
---------------------------------------------------------------------------
    \2\ The projected increase in revenue is based on a conservative 
estimate that up to 50 percent of transferred oysters will be harvested 
in a given year. No additional income is projected based on oysters 
harvested from existing beds as they are replenished.

---------------------------------------------------------------------------
  <bullet> Significantly improved monitoring and assessment programs.

  <bullet> Sustainable local jobs (maintaining oyster harvesting, 
        processing, and marketing).

  <bullet> Improved resiliency of the social and ecological framework 
        of Wakulla County.

  <bullet> Enhanced water quality through oyster filtration.

  <bullet> Increased nursery habitats for other commercially important 
        Gulf of Mexico finfish.
Funding

  <bullet> Identify appropriate entry points for support under NFWF.

  <bullet> Identify other opportunities, such as the Coastal and Marine 
        Habitat Restoration Project grant.

  <bullet> Coordinate project with the existing Florida Division of 
        Aquaculture relay program.

Estimated Project Costs (Describe the estimated costs of the project, 
including any assumptions for contingency and ongoing operations/
maintenance. Identify other secured funding sources such as matching 
funds, in-kind contributions or state/federal dollars. In addition, if 
possible, complete and submit the Cost Appendix Sheet associated with 
this Form):

    Project costs will arise from initial inventory and ground-
truthing, site familiarization, site marking and maintenance, flow 
modification, permitting, active restoration, purchase of monitoring 
and statistical analysis, economic analysis, and reporting. These costs 
include a mix of capital expenditures (e.g., imagery acquisition, 
software maintenance, sediment fill, application costs, buoy and ground 
tackle, and typical expendables for field operations), subcontracts 
(e.g., marine services for buoying and sediment filling), and labor 
with associated overhead. Total cost over the 5-year life of the 
project: $2,032,750.

Other Funding (Indicate if the project is submitted for any potential 
funding or if it may be used to leverage additional funding, if so 
please describe the funding source [e.g. State/Federal Grants]):

    This project is also currently being submitted for funding through 
the FDEP website (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d486b1a7a0bba6b5a0bdbbbafa84a6bbbeb1b7a0a794b0b1a4faa7a0b5a0b186a1a7">[email&#160;protected]</a>). However, we 
intend to coordinate closely with the State's oyster relay program, 
which provides monies for fishermen to relocate oysters of any size 
from non-harvesting areas to open areas. Through this coordination, we 
will provide that program the benefit of our survey and assessment data 
to enhance their site selection process.

Technical Feasibility (Describe the technologies involved and any 
relevant past experience or proven success with similar projects):

    All aspects of this project utilize established procedures (i.e., 
GIS and remote sensing techniques, oyster transfer program, science-
based and statistically valid monitoring). Modification of oyster bars 
to promote water quality is technically feasible, but its link to an 
outcome of enhanced oyster production remains experimental and would be 
the subject of complementary proposals.

Environmental Benefits (Describe the nature, magnitude, and timing of 
any environmental benefits attributable to the project. If possible, 
describe potential environmental performance measures [e.g., pollutant 
reduction]. Please address any potential environmental impacts 
associated with implementing or maintaining the project [e.g,. loss of 
a habitat or conversion of habitat from one type to another during 
implementation]):

    The environmental benefits of increased oyster populations have 
several immediate and long-term benefits. Oyster reefs have long been 
known for their key role as a keystone species and as bioengineers of 
many coastal ecosystems; they are recognized as Essential Fish Habitat 
by the Federal Government. Moreover, increased numbers of living 
oysters provide proportional increases in water column filtration (by 
the living oysters) and improve water quality. Increased living oyster 
populations build and maintain reef habitat, which is a foundation 
habitat for a wide variety of other ecologically and economically 
valuable organisms both in the short and long term. Living oyster reefs 
also maintain the long-term physical stability of the water masses, 
regulating exchange, temperature, salinity, and geochemical processes 
fundamental to healthy ecosystem functions. Integration of submerged 
aquatic vegetations (SAV) with oyster reefs provides a continuum of 
habitat function and increases ecological diversity and productivity as 
well as buffering water column pH to mitigate any potential 
acidification associated with climate change. Finally, healthy oyster 
reefs provide an important mechanism for carbon sequestration and, 
thus, buffering of climate change.

Economic and Social Benefits (Describe the economic and social benefits 
including those related to the project's improved ecosystem services 
and any estimates on jobs created or preserved):

    There was substantial harm to the oyster fishery arising in 
significant part from response to the Macondo spill. There are many 
economic and social benefits of maintaining a healthy oyster fishery. 
First, maintaining a healthy oyster fishery in an area such as Wakulla 
County where oyster fishing has been a central theme in the fabric of 
the community directly supports the cultural heritage of the region. 
Economically viable households, supported by a healthy fishery also 
have cascade effects through the community, supporting family structure 
and promoting social justice through elevated standards of living.
    Direct job creation also results from this project. Significant 
resources will be expended through local, qualified marine contractors 
in the monitoring and ground-truthing surveys, transfer of oysters, 
creation of enhanced circulation, hiring of vessels, monitoring 
support, and the harvesting of transferred oysters. We anticipate 
transferring up to of 90,000 bushels of oysters annually at a cost of 
$250,000/year, employing an estimated 100 individuals during the summer 
months when harvest is closed. Once transferred and oysters have self-
cleansed, harvest of just 50 percent of these oysters (at current rates 
of $30 per bushel) would provide $1.35 million of revenue to 
fishermen beginning within weeks of completion of the transfer. In 
addition to these economic cascades, we anticipate a short-term (1 to 2 
year) influx of $2 million to the local economy and a sustained 
incremental return of $1 million per annum by sustainably harvesting 
oysters under the science-based best management practices.

Community Resilience (Describe if the project assists Florida's ability 
to anticipate, withstand, or recover from hazards or threats [e.g. 
hurricane preparedness, establishing living shorelines]):

    Improving the biological integrity of an ecosystem engineer (Jones 
et al., 1994) such as the Wakulla oyster reefs provides substantial 
protection of shoreline and shore-side infrastructure from both waves 
and storm surge. Maintaining the heritage of oyster harvest provides 
economic resilience for the community. The value of the reefs is 
recognized at all levels of government. The existing authorization from 
the National Oceanic and Atmospheric Administration (NOAA) for the 
smaller (22,000 bushels) annual transfers since 2006 was created to 
restore oyster reefs damaged by hurricanes in 2005 (Florida Dept of 
Agriculture Contract # 018625). Oysters also provide significant carbon 
sequestration, fixing CO<INF>2 </INF>into calcium carbonate.

Conflicts or Complements to Existing Efforts (Describe any ongoing 
activities in the project implementation area, if the project is part 
of another plan, and why the project does or does not interfere with 
that work Please consider how the project may complement existing 
local, regional, and state efforts/plans/objectives):

    This effort will complement the nominal oyster relay program that 
has taken place in most years since 2005 in Dixie, Levy, Wakulla, and 
Franklin Counties. WOFWM is familiar with the process, as are the 
regulatory agencies. What separates this project from past efforts--
besides the larger scope--is the significant science component, which 
will guide restoration efforts and policy for years to come. While this 
project stands on its own merits, there are additional programs under 
consideration that complement the Wakulla relay. Neighboring Franklin 
County is proposing a $30+ million oyster shelling project. The Florida 
Legislature has established the Wakulla Environmental Institute, which 
plans to offer an A.S. degree in Aquaculture, working in collaboration 
with this project and with the well-known Gulf Specimen Marine Lab, 
which is based in Wakulla County.
    Oyster restoration is a priority concern across the Florida 
Panhandle, and the Gulf, as the number of requests for funding 
throughout the region clearly indicates. The Northwest Florida Water 
Management District has reached out to counties throughout its area of 
service to collect and submit ``on the shelf' proposals as a part of 
this process. As of March 13, 2013, 14 oyster restoration projects have 
been submitted through the NWFWMD, cities, counties, and other 
entities. One proposal submitted via NWFWMD (Wk-7), is on behalf of 
Wakulla County's Board of County Commissioners, and is an unbudgeted 
proposal initially submitted for NRDA funding. The goals of that 
project neatly dovetail with this proposal.
    This project also provides excellent collaborative opportunities 
with other local entities such as the Wakulla Environmental Institute, 
wherein use of hatchery-derived oyster could be used to test 
augmentation effectiveness in the County. Also, given the georeferenced 
bathymetry data developed through this proposal, the opportunity to 
consider hydraulic engineering options to enhance flow and reduce 
pollution loads on sheltered beds becomes feasible. Finally, this 
proposal would directly address the recognized dearth of oyster 
population information needed to effectively manage the resource 
(VanderKooy, 2012) and would provide data to assess population modeling 
and management efforts (e.g., the CASP and SOS models).

Complies with Federal, State, Local, and Tribal Laws/Regulations 
(Describe any concerns or potential conflicts):

    The project will require permits to deploy oyster culture in order 
to enhance existing reefs, build new oyster habitat, or rehabilitate 
non-functioning reef habitat in addition to those permits and contracts 
for oyster transfers. Agencies and applicants are well-versed in this 
matter, and no complications are foreseen. This action will require 
close cooperation and permits granted by the U.S. Army Corps of 
Engineers and the Florida Department of Environmental Protection and 
Wakulla County. The project team will also coordinate closely with and 
request comments and letters of support from Florida Fish and Wildlife 
Conservation Commission (FWCC), NOAA, U.S. Fish and Wildlife Service 
(USFW), and U.S. Environmental Protection Agency (USEPA). In addition, 
we will also coordinate with the Division of Aquaculture in the Florida 
Department of Agriculture. We will follow established guidelines for 
the selection and approval of oyster deployment. In instances where 
scientific inquiry benefits from testing new procedures, we will engage 
regulatory officials in pre-application meetings and other steps to 
facilitate expeditious permitting. We also will conduct outreach and 
coordination with the Department of Law Enforcement of the FWCC, which 
is charged with enforcement of all laws and protection of all resources 
in State waterways. Effective monitoring of transfers and subsequent 
enforcement during harvest is a key step toward reef recovery.

Readiness for Implementation (Describe if the project has had any 
design or permitting work started or completed [attach permits or 
design work]. Please address any issues that may delay start or finish 
of the project):

    This project is ready for immediate launch. The team has fully 
prepared and active GIS capabilities; there is a strong local 
infrastructure of support; watermen and their families are engaged; and 
vessels are ready. Oyster transfer is well established and awaiting the 
enhanced, science-based guidance of this project.

Public Acceptance (Describe any known or potential public approval or 
opposition to the project):

    We expect this to be widely embraced as the degradation of the 
oyster reef system is commonly recognized and science-based solutions 
considered long overdue. We also note that the informed public believes 
that past oyster relays were a ``summer jobs program'' for WOFMW and 
did little to replenish or restore the resource. Thus, this science-
based approach has won widespread support and enthusiasm as it will 
base policy and practice on sound science. Ironically, one criticism of 
the program is--that it could remove too many ``coon'' oysters 
(underdeveloped clusters of oysters that are often out of the water 
during low tide) which could lower spat counts and reduce water 
filtration unacceptably. In fact--and as the critic learned--``coons'' 
were the target of past relays, which allowed ``hogging'' as a 
collection method. In ``hogging,'' oysters are collected by hand, 
meaning the top layers, most often the ``coons,'' are picked and often 
do not survive the relay or do not adapt to their new location before 
reaching maturity. In the proposed transfer, larger oysters from deeper 
in the water will be tongued. These oysters are closer to, or already 
at, legal 3-in. or greater size, and can be more successfully 
transferred and harvested. Thus, the single criticism we have heard is 
an issue not caused by, but in fact is resolved by, this proposal.

Information you wish to provide (Please include any maps, designs, 
drawings, photos, or background resources that may assist in completely 
and accurately understanding the project):

    See previous sections and:

    Jones, C.G, Lawton, J.H., Shachak, M. 1994. Organisms as ecosystem 
engineers. OIKOS 69:373-386.

    VanderKooy, S. (editor). 2012. The Oyster Fishery of the Gulf of 
Mexico, United States: A Regional Management Plan--2012 Revision. 
Publication No. 202, Gulf States Marine Fisheries Commission, Ocean 
Springs, Mississippi.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                   APPENDIX B: Oyster Transfer Report
                                                     August 5, 2013

    The annual Wakulla oyster relay began today in Ochlockonee Bay 
waters, the boundary between Franklin and Wakulla Counties.
    The relay is funded by a NOAA grant stemming from tropical storm 
damage several years ago and is administered by the Florida Dept of 
Agriculture (FDACS) Division of Aquaculture. The grant expires this 
year. This is the last relay.
    Relays take place during summer months, when most Florida oyster 
beds are closed and oystermen (and women) are either underemployed or 
even unemployed. Oyster boats move oysters from conditionally closed 
zones to conditionally open waters, where cleaner water, in two weeks' 
time, cleanses the oysters and they become legally harvestable--and 
eatable.
    22 boats took part this morning; they were on the water by eight 
and finished by 12:30. Each boat can make five trips from the source 
(Gulf-side of the US98 bridge across the Bay) to the relay dumping 
site, which was only about a mile away, closer to the Gulf. Each boat 
can earn $525 for the day, gross, or $3 per full basket, limit S full 
baskets per trip. The local Wakulla Fisherman's Association, which 
sponsors the relay, keeps 50 cents of each $3. With approximately 
$60,000 in funding, DACS expects the relay to take four days to finish.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The photo at left shows some boats in the distance near the bridge, 
tonging oysters. The markers in the foreground indicate the start of 
the dump site. The markers were placed by oystermen. The dump site is 
about eight acres in size.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    I was out on the water on a DACS boat, where Joe Shields from the 
Division of Aquaculture's Apalachicola office would give each boat 
loaded with baskets of oysters a ticket, and tell them where to dump. 
Joe states that DACS is closely monitoring the size of oysters--nothing 
less than two inches--as well as how they are harvested. Only tonging 
is allowed this year.
    The oysters I saw brought up and later dumped were of good size, 
and the baskets contained a minimum of--if any--detritus. In previous 
years, just about anything that could fit in a basket was moved, and 
just about any container of any size would qualify as a ``basket''.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Clark Nichols, who helped mark this year's field, is piloting this 
boat as it dumps its load into the location indicated by Joe Shields. 
Clark is holding up a fairly typical oyster--clearly pleased with its 
size.
    Shields states that the survival rate for relayed oysters is 100 
percent. He noted that original plans to relay from sites further east 
were changed in favor of Ochlockonee Bay because the original site's 
oysters were both depleted and stressed out. However, he emphasized 
there is an abundance of oysters in conditionally closed waters--
thousands and thousands of bushels, he said--which is a key to our 
proposal. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Once the oysters are dumped, the ticket is signed by another DACS 
boat. When the relay is completed and the association tallies the take, 
DACS pays the association, which then pays the oystermen (and women).
    In Joe's opinion, this year's relay looks to be a success. Many of 
the principles we've been espousing in our oyster restoration proposal 
are being used: clearly defining harvest areas, ensuring right-sized 
oysters are being moved and baskets full of oysters and nothing else; 
and dumped in specified areas.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    All the oystermen (and women) with whom I spoke stated that while 
the relay process itself is much better managed, the need for a real 
inventory of the local resource--key to our proposal--is vital. Now 
that there is no further funding for relays, our proposal probably 
could not come at a better time.
    Matthew Hodges, pictured here on land after completing his five 
trips for the day, is the president of Wakulla Fisherman's Association. 
I've spoken at length with Matt; he has 1,100 GPS coordinates for 
Wakulla harvest and dump sites already charted. He is one of the many 
local oystermen (and women) whose knowledge will be key to our success.
    One very interesting comment Matt made was that, today, Wakulla's 
oyster resource can handle 30 boats on a sustainable basis. Today, of 
the 22 boats out there, at least half came from neighboring Franklin; a 
few from Cedar Key; and just a handful from Wakulla.
Conclusion
    I am no expert, as this was my first time on the water during a 
relay. What I saw looked well-run and organized--and I heard several 
comments that oyster boats that were not following orders were quickly 
set to rights. But, the best execution can mean little if it is not 
based on sound planning, and the lack of information about Wakulla 
oyster resources is a need that needs filling.
    (Submitted by Steven Webster, President, MW Consulting)
                                 ______
                                 
Senators and Congressmen and women of the United States of America,

    I understand humans need water . . . oysters should take second 
place . . . but who needs to water the grass at the Quiktrip? This is 
not about just saving oysters. This is about saving an economy. Would 
you trade the jobs of hundreds of oystermen for green grass at a 
Quiktrip in Atlanta.? I live in Atlanta and I say NO!
    The United States of America has become very comfortable with 
outsourcing our clothing, our information technology, and certainly all 
of our manufacturing to India, China and other parts of the world. For 
good reason! Who can resist a Tommy Hilfiger shirt for $9.99? Sweet!, 
And what's the worst that can happen? If it falls apart you are out 
less than your lunch money. Or of course you could always wear it with 
only one sleeve.
    Now imagine redefining the word FRESH. FRESH SEAFOOD could mean 
buying all of your seafood from Thailand or China. You don't have to 
imagine. Today much of the seafood for sale in a typical grocery has 
traveled all the way around the world to get to your table. Are you 
comfortable with the prospect that the company selling that food will 
take those same short cuts with the quality of your food? What's the 
worst that could happen? Actually, it is currently happening. Seafood 
farmers growing shrimp in Thailand have lost their harvest due to 
disease. I refuse to buy that type of product based on the lack of 
health controls and unnatural way it is farmed.
    Now think about the people that used to harvest the seafood in this 
case in Apalachicola Bay. Put them on welfare . . . put them on 
Medicaid . . . make more of the U.S. population poverty-stricken. Worth 
it? Think about that green grass at the Quik Trip.
    Save American Jobs. Help our citizens help themselves.
    Keep our food safe.
    Save our Bay . . . Apalachicola Bay. A natural resource of the 
UNITED STATES.
            Sincerely,

                               Michael J. Price and family,
                                                      Suwanee, Georgia.
                                 ______
                                 
                                                    August 18, 2013
The Honorable Senator Sara Gibson
The Honorable Senator Sean Houton
United States Senate
Washington, DC.

Dear Senators Gibson and Houton [sic]:

    I am a Founder and former Board Chairman of the Apalachicola 
Riverkeeper environmental organization and was the Riverkeeper for a 
number of years. Even at that time, back in the 1990s, we knew of the 
damage to the Apalachicola River and Bay ecosystem resulting from the 
reduced flow of freshwater derived from the Chattahoochee and Flint 
river systems in Georgia and Alabama. We vigorously let our thoughts be 
known but achieved only years of promises as the ``water wars'' 
continued. We watched in despair as oyster houses closed and men and 
women struggled to make a living from the Bay as their families had 
done for years.
    Apalachicola oysters are famed for their quality and enjoyed 
throughout the nation, but they require the mix of fresh and salt water 
to grow. Please don't let this wonderful national resource disappear 
from an area deemed an Outstanding National Water Body. Support an 
equable system of distribution of our water to ensure the continuation 
of the oyster and seafood industry in Florida Please require the Army 
Corps of Engineers to establish freshwater flows that will sustain 
Apalachicola Bay. Thank you for enclosing my communication in our 
appeal.
            Sincerely,
                                        William B. Hartley,
                                  Retired Apalachicola Riverkeeper,
                                                          Hernando, FL.
cc: Dan Tonsmier, Riverkeeper
Apalachicola Riverkeeper
                                 ______
                                 
    The locals of the northwest FL in the region of the Apalachicola 
Bay are asking your help as members of the Senate Committee on 
Commerce, Science, and Transportation regarding the upcoming hearing to 
support the continuing legislation to protect our water rights and save 
our bay, oyster industry and restore the precious balance of salinity 
and the health of the Bay.
            Sincerely,
                                               Diane Cofer,
                                                           Realtor,
                                                  Panama City, FL 32401
                                 ______
                                 
  Apalachicola River--Riparian County Stakeholder Coalition
                                     Greenwood, FL, August 13, 2013

Senator Nelson and Senator Rubio:

    Thank you for this opportunity to speak and submit these comments 
for the public record. My name is Chad Taylor and I am the Coordinator 
of and here on behalf of the Riparian County Stakeholder Coalition of 
the Apalachicola River Basin, RCSC. It is entirely appropriate we again 
make these comments offered also in the Florida Senate hearing on this 
same matter in January of this year!
    In 2007, after almost two decades of litigation and negotiation on 
water allocation, also known as the Water War, the six Boards of County 
Commissioners from the counties bordering the Apalachicola River in 
Florida, Jackson, Gadsden, Calhoun, Liberty, Gulf and Franklin each by 
resolution came together to address the water allocation issues in the 
Apalachicola, Chattahoochee and Flint River basin, ACF. The result is 
the Riparian County Stakeholder Coalition, RCSC. It was evident to 
these commissioners and the citizens, the stakeholders living in the 
basin, time was and is not on Florida's side and as the years past the 
conditions in the Apalachicola River, Floodplain and Bay continued to 
decline. Here we are now six years later, and after twenty-four years 
of litigation and negotiation the conditions continue to decline and 
perhaps today are now worse than ever.
    We are here today, again, to ask you to assist us in securing the 
flows in the ACF Basin necessary to sustain the health and productivity 
of the Apalachicola River, Floodplain and Bay in these four ways:

  <bullet> We need a unified Florida response to this crisis, now, 
        federal, state, local government, basin stakeholders all 
        working together to solve the problem

  <bullet> We believe it will be helpful to form an Apalachicola River 
        Basin Legislative Caucus for the State of Florida House and 
        Senate members to work with our Federal and State partners and 
        agencies and the basin stakeholders

  <bullet> We need the data and assessment tools to answer the question 
        for everyone, including Georgia and Alabama, ``how much water 
        does Florida require'' to sustain the Apalachicola River, 
        Floodplain, Bay and Eastern Gulf of Mexico

  <bullet> We need funding support so our state agencies, our first 
        rate scientists and policy folks, AND the Riparian County 
        Stakeholder Coalition, and others, like the University of 
        Florida, working the problems can insure our very best possible 
        outcome

    In the first five years, among many successes, the RCSC includes 
the formation of the ACF Stakeholders Inc., ACFS. As founding members, 
the RCSC sees a collaborative, negotiated settlement as our best way 
forward. A diverse group of individuals, corporations, and non-profit 
organizations throughout Alabama, Florida and Georgia, ACFS represents 
all the interests within the Apalachicola-Chattahoochee-Flint Basin. 
Our mission is to change the operation and management of the ACF Basin 
to achieve equitable solutions among stakeholders that balance 
economic, ecological, and social values, viable solutions that ensure 
that the entire ACF basin is a sustainable resource for current and 
future generations. To that end we have raised 1.3 million dollars in 
private funding and in the first quarter of 2014 will have for 
consideration by all the ACF basin stakeholders an ACF basin wide 
Sustainable Water Management Plan that includes an In-stream Flow 
Assessment of the three rivers and the bay and a study of possible 
Transboundary Water Management Institutional Options to implement the 
plan. Please see www.acfstake
holders.org.
    In closing, and on behalf of the residents of our six riparian 
counties of the Apalachicola River Basin, represented by our six Boards 
of County Commissioners and the Riparian County Stakeholder Coalition, 
please take to heart and to action these four requests;

  <bullet> Support a unified Florida response to this crisis on the 
        Apalachicola River

  <bullet> Consider forming an Apalachicola River Basin Legislative 
        Caucus

  <bullet> Help us answer the question, ``how much water does Florida 
        require''

  <bullet> Support our need for funding so we attain the very best 
        possible outcome

    Thank you for this opportunity to come before you on this important 
issue so we can work together to sustain the health and productivity of 
the ACF basin and the Apalachicola River, Floodplain and Bay, that, 
like the Everglades, is an American Treasure!
            Respectfully yours,
                                        C. Chadwick Taylor,
                                                  RCSC Coordinator.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                         Colonel Jon J. Chytka
    Question 1. What impact will the control manual have on nonfederal 
dams?
    Answer. The Corps of Engineers (Corps) will consider the non-
federal dams in our analysis; however the Corps does not have manuals 
for these dams and most are operated pursuant to their own licenses 
from the Federal Energy Regulatory Commission (FERC). In terms of the 
impact the Corps' proposed operation might have on the non-federal 
dams, we are currently in the process of formulating alternatives and 
then would need to see what the Environmental Impact Statement (EIS) 
analysis determines before determining the impact.

    Question 2. How much water has Georgia requested and, when 
considering that request, how do you account for the impact of any 
additional withdrawal on the entire system?
    Answer. In January 2013, Georgia submitted a water supply request 
for direct withdrawals from Lake Lanier of 297 million gallons per day 
(mgd) and downstream withdrawals from the Chattahoochee River at the 
City of Atlanta of 408 mgd. The Corps will use modeling and the EIS 
process to evaluate the impact of that request on the ACF system.

                                  [all]
                                  
                                  
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
